APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the Texas Supreme Court
(January 24, 2020).............................................. 1a
Judgment of the Texas Supreme Court
(January 24, 2020)............................................ 18a
Order of the Texas Supreme Court Denying Motion
for Rehearing (May 29, 2020) ........................... 20a
Opinion of the Fourth Court of Appeals
(June 7, 2017) ................................................... 21a
Judgment of the Fourth Court of Appeals
(June 7, 2017) ................................................... 67a
Order of the Fourth Court of Appeals Denying
Motion for Rehearing (August 29, 2017) ......... 69a
Order of the Fourth Court of Appeals Denying
Appellants Motion for Rehearing
(September 15, 2017)........................................ 71a
Order of the Fourth Court of Appeals Denying
Appellants Motion for Rehearing En Banc
(September 14, 2017)........................................ 73a
Final Judgment of the 49th Judicial District
Court of Zapata County, Texas
(May 11, 2015) .................................................. 75a
Findings of Fact and Conclusions of Law
(June 29, 2015) ............................................... 103a

APPENDIX TABLE OF CONTENTS (Cont.)
OTHER DOCUMENTS
Last will of Leonor V. Ramirez
(October 20, 1987) .......................................... 130a
Partition Deed
(January 15, 1975).......................................... 137a
Exchange Deed
(March 27, 1978) ............................................. 141a
Oil, Gas and Mineral Lease
(April 27, 1946) ................................................. 149
Oil, Gas and Mineral Lease—Relevant Excerpts
(October 6, 1983) ............................................ 155a
Letter from Michael P. Rose
(July 1, 1997) .................................................. 160a
Stipulation of Interest Ownership of the Mineral
Estate (October 31, 1988) ............................... 164a
Respondents’ Brief—Relevant Excerpts .............. 166a
List of Petitions for Certiorari
Before Stop the Beach .................................... 169a
List of Petitions for Certiorari
After Stop the Beach ...................................... 171a

App.1a
OPINION OF THE TEXAS SUPREME COURT
(JANUARY 24, 2020)
IN THE SUPREME COURT OF TEXAS
________________________
CONOCOPHILLIPS COMPANY,
RODOLFO C. RAMIREZ, individually and as
Independent Administrator of The Estate of Ileana
Ramirez, and El Milagro Minerals, Ltd.,

Petitioners,
v.
LEON OSCAR RAMIREZ, JR., individually,
and JESUS M. DOMINGUEZ, as Guardian of
The Estate of Minerva Clementina Ramirez,
an Incapacitated Person,

Respondents.
________________________
No. 17-0822
On Petition for Review from the
Court of Appeals for the Fourth District of Texas
Before: Nathan L. HECHT, Chief Justice.
CHIEF JUSTICE HECHT delivered the opinion of the Court.
The issue we decide in this case is whether a devise
of “all . . . right, title and interest in and to Ranch ‘Las
Piedras’” refers only to a surface estate by that name
as understood by the testatrix and beneficiaries at the
time the will was made or also includes the mineral

App.2a
estate. We conclude that only the surface estate was
devised. We reverse the court of appeals’ judgment
and render judgment for petitioners.
I
Conveyances over 80 years provide the context
for the parties’ dispute. The factual background is
lengthy and complex but in all material respects
undisputed. To assist the reader’s understanding, we
will both describe and chart the transactions. A
complete chart is included in an appendix. All fractions
are undivided interests.
In 1941, Ildefonso Ramirez died, leaving to his
children, Leon Juan and Felicidad, multiple tracts
totaling 7,016 acres in Zapata County. Not all of the
tracts were contiguous. Months later, Leon Juan and
Felicidad partitioned the surface estate and severed
the minerals, each taking 3,508 surface acres and an
undivided 1/2 interest in the minerals under the
entire 7,016 acres. As a result:
Ildefonso Ramirez’s 7,016 acres
1941: Ildefonso’s death
1/2 Leon Juan & 1/2 Felicidad
1941: Partition
Surface
Minerals

3,508 acres

Leon Juan

3,508 acres

Felicidad

1/2 Felicidad
1/2 Leon Juan

Leon Juan died in 1966, survived by his wife,
Leonor, and three children, Leon Oscar Sr., Ileana,

App.3a
and Rodolfo. His will made identical dispositions of
his limited surface estate and broader mineral estate
but in separate paragraphs: 1/2 of each to his wife
Leonor and the rest to his children in equal shares.
After Leon Juan’s death, ownership of the Zapata
County property stood as follows:
Ildefonso Ramirez’s 7,016 acres
1941: Partition
Surface

3,508 acres

Minerals

1/2 Felicidad
1/2 Leon Juan

3,508 acres

1966: Leon Juan’s death
Surface
1/2 Leonor
1/6 Leon Oscar Sr.
3,508 acres
1/6 Ileana
1/6 Rodolfo
3,508 acres Felicidad
Minerals
1/2 Felicidad
1/4 Leonor
1/12 Leon Oscar Sr.
1/12 Ileana
1/12 Rodolfo
In 1975, Leonor and her children partitioned their
interests in Leon Juan’s surface estate. Their agreement states that the partition did “not . . . include oil,
gas and other minerals which for the [time being]
[were] to remain undivided”. Leonor took an 800-acre
tract of the surface estate known as “West El Milagro

App.4a
Pasture”, which also included land and improvements
that the parties referred to as the “Headquarters
Ranch”. Rodolfo took a 400-acre tract referred to as
“East El Milagro Pasture”. Leon Oscar Sr. and Ileana
jointly took a 1,058-acre tract that, in the words of
the agreement, was “known as Las Piedras Pasture”.
Las Piedras was a separate tract not contiguous with
the other property. Three years later, Leonor and
Ileana swapped their surface tracts. Their exchange
agreement recites that Leon Oscar Sr. and Ileana had
earlier been “partitioned the surface to 1058 acres . . .
known as ‘Las Piedras Ranch’”. Ileana agreed to convey
to Leonor “all of her right, title and interest in and to
the surface to . . . 1,058 acres of land . . . known as LAS
PIEDRAS PASTURE”. The agreement states that
the “Deed of Exchange [did] not . . . include oil, gas
and other minerals which [were] to remain undivided”.
Thus, after the exchange, Leonor owned an undivided
1/2 interest in the surface acreage known as Las
Piedras Ranch—her son Leon Oscar Sr. owned the
other 1/2 interest—and a 1/4 undivided mineral
interest in the entire 7,016-acre family estate:
Ildefonso Ramirez’s 7,016 acres
1975: Partition
Surface
3,508 acres
Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture

1/2 Ileana
1/2 Leon Oscar Sr.
Leonor
Rodolfo

App.5a

3,508 acres

Felicidad
Minerals

1/2 Felicidad
1/4 Leonor
1/12 Leon Oscar Sr.
1/12 Ileana
1/12 Rodolfo
1978: Exchange
Surface
3,508 acres
Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture
3,508 acres

1/2 Leonor
1/2 Leon Oscar Sr.
Ileana
Rodolfo
Felicidad
Minerals

1/2 Felicidad
1/4 Leonor
1/12 Leon Oscar Sr.
1/12 Ileana
1/12 Rodolfo
The family ownership interests had not changed
when Leonor executed her will in 1987. She died the
following year. She devised a life estate in “all of
[her] right, title and interest in and to Ranch ‘Las
Piedras’” to her son Leon Oscar Sr. with the remainder
to his living children in equal shares. Leonor devised
the residuary of her estate equally to her three
children, Leon Oscar Sr., Ileana, and Rodolfo. They
believed at the time that Leonor had devised her

App.6a
mineral interest in the entire 7,016 acres, including
Las Piedras Ranch, to them in equal shares as part
of her residuary estate. Leon Oscar Sr.’s children
now contend that Leonor’s residuary estate did not
include the mineral interest in Las Piedras Ranch
but that it passed to Leon Oscar Sr. as part of his life
estate. The dispute is shown in this chart:
Ildefonso Ramirez’s 7,016 acres
Surface
3,508 acres
Las Piedras Ranch

3,508 acres

Hq Ranch & W El Milagro Pasture
E El Milagro Pasture
Minerals
1988: Leonor’s death – per petitioners
Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture
3,508 acres
1/2 Felicidad
1/6 Leon Oscar Sr.
1/6 Ileana
1/6 Rodolfo

Surface
1/2 fee +
1/2 L/E Leon Oscar Sr.
Ileana
Rodolfo
Felicidad
Minerals

App.7a

1988: Leonor’s death – per respondents
Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture
3,508 acres

Surface
1/2 fee +
1/2 L/E Leon Oscar Sr.
Ileana

Rodolfo
Felicidad
Minerals
Las Piedras Ranch
Rest of 7,016 Acres
1/2 Felicidad
1/2 Felicidad
1/12 fee +
1/4 L/E Leon Oscar Sr.
1/6 Leon Oscar Sr.
1/12 Ileana
1/6 Ileana
1/12 Rodolfo
1/6 Rodolfo
Over the years, mineral leases had been executed
on various portions of the family estate, though the
entire estate had never been subject to a single lease.
After Leonor’s death, her children signed several oil
and gas leases on various portions of the family land.
In 1990, the siblings, together with their aunt Felicidad,
signed an extension of a 1983 lease to Enron Oil and
Gas Company (EOG) of the minerals under Las
Piedras Ranch. Consistent with their understanding
of Leonor’s will, the extension treated the siblings as
equal fee owners of the minerals under the Ranch,
just as they were equal fee owners of the minerals
under the rest of the estate. The 1990 lease was later
transferred to ConocoPhillips.
Until Leon Oscar Sr.’s death in 2006, his actions
and those of his siblings, Ileana and Rodolfo, were

App.8a
consistent with their understanding that Leonor’s
will had given them a fee interest in the minerals
under the entire 7,016 acres, including Las Piedras
Ranch, and inconsistent with a contrary view. His
death terminated his life estate, which passed, in
accordance with Leonor’s will, to his three children:
Leon Oscar Jr., Rosalinda, and Minerva. Leon Oscar
Sr. left his estate to Leon Oscar Jr. and Rosalinda,
who were named co-executors in his will. He left no
property to his daughter, Minerva, who was incapacitated.
In 2010, Leon Oscar Jr., Rosalinda, and Minerva
(through a guardian) brought this lawsuit against
their uncle Rodolfo and his business, El Milagro
Minerals, Ltd.; their aunt Ileana’s estate; and ConocoPhillips and EOG. They asserted that their father’s
life estate under their grandmother’s will included
her interest in not only the surface of Las Piedras
Ranch but also the minerals beneath it and that the
mineral interest their father, aunt, and uncle received
under the will’s residuary provision did not include
those under the Ranch. As remaindermen under the
will, they claimed to own their father’s life-estate
interest in 1/2 of the surface of the Ranch and 1/4 of
the minerals, and as his heirs, Leon Oscar Jr. and
Rosalinda claimed to own his fee interest in the other
1/2 of the surface. The competing views are as follows:
Ildefonso Ramirez’s 7,016 acres
Surface
3,508 acres
Las Piedras Ranch

3,508 acres

App.9a
Hq Ranch & W El Milagro Pasture
E El Milagro Pasture
Minerals
2006: Leon Oscar Sr.’s – per petitioners

Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture
3,508 acres

Surface
5/12 Leon Oscar Jr.
5/12 Rosalinda
1/6 Minerva
Ileana
Rodolfo
Felicidad
Minerals

1/2 Felicidad
1/6 Ileana
1/6 Rodolfo
1/12 Leon Oscar Jr.
1/12 Rosalinda
2006: Leon Oscar Sr.’s – per respondents

Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture
3,508 acres

Surface
5/12 Leon Oscar Jr.
5/12 Rosalinda
1/6 Minerva
Ileana
Rodolfo
Felicidad

App.10a
Minerals
Las Piedras Ranch
Rest of 7,016 Acres
1/2 Felicidad
1/2 Felicidad
1/12 Ileana
1/6 Ileana
1/12 Rodolfo
1/6 Rodolfo
1/8 Leon Oscar Jr.
1/12 Leon Oscar Jr.
1/8 Rosalinda
1/12 Rosalinda
1/12 Minerva
The children, who are respondents in this Court,
sought declarations of the parties’ ownership interests.
They also claimed that the leases that their father,
aunt, and uncle executed were not effective as to them
and sought an accounting from EOG and Conoco
Phillips. Rosalinda eventually dismissed her claims.
Based on its rulings on several motions for summary
judgment, and following a bench trial on attorney
fees, the trial court signed a final judgment in favor
of Leon Oscar Jr. and Minerva, awarding them each
$3,764,489 in damages, $951,546 in prejudgment
interest, a per diem of $283.63 for a span of about 80
days preceding the trial court’s signing of the final
judgment, and $1,125,000 in attorney fees—for a
total judgment of almost $12 million against Conoco
Phillips.1 The court of appeals affirmed.2 We granted
ConocoPhillips’ and Rodolfo’s petitions for review.3
1 Respondents settled with EOG for $50,000 prior to the trial
court’s signing of a final judgment.
2 534 S.W.3d 490 (Tex. App.—San Antonio 2017). The court
corrected a clerical error in the judgment awarding relief to
respondent Minerva directly rather than through her guardian.
Id. at 515.
3 62 Tex. Sup. Ct. J. 1310–1311 (June 28, 2019).

App.11a
II
“In construing a will, the court’s focus is on the
testatrix’s intent”,4 which “must be ascertained from
the language found within the four corners of the
will”, if possible,5 and “determined as of the time the
will is executed”.6 “[W]hen a term in a will ‘is open to
more than one construction,’ a court can consider ‘the
circumstances existing when the will was executed.’”7
Leonor’s bequest of a life estate to Leon Oscar
Sr. capitalizes “Ranch ‘Las Piedras’” and places the
name in quotation marks, indicating that the term has
a specific meaning to Leonor and her family.8 That
meaning is shown by the circumstances that existed
when the will was executed. The 1975 partition
agreement names the tracts covered and refers to a
1,058-acre tract as “Las Piedras Pasture”, expressly
stating that only the surface of the tracts was
covered and “not . . . [the] oil, gas and other minerals
which for the [time being] [were] to remain undivided”.
4 San Antonio Area Found. v. Lang, 35 S.W.3d 636, 639 (Tex. 2000)
(citing Huffman v. Huffman, 339 S.W.2d 885, 888 (Tex. 1960)).
5 Id. (citing Shriner’s Hosp. for Crippled Children of Tex. v.
Stahl, 610 S.W.2d 147, 151 (Tex. 1980)).
6 Henderson v. Parker, 728 S.W.2d 768, 770 (Tex. 1987).
7 Hysaw v. Dawkins, 483 S.W.3d 1, 8 (Tex. 2016) (quoting Lang,
35 S.W.3d at 639).
8 See Stagg v. Richardson, No. 01-17-00543-CV, 2018 WL 1320834,
at *2 (Tex. App.—Houston [1st Dist.] Mar. 15, 2018, no pet.)
(mem. op.) (“The capitalization of the words, the enclosure of the
phrase in quotation marks, and the use of brackets all indicate
that the phrase ‘Net Amount Due to Stagg’ is terminology
borrowed directly from [a document referenced in the mediated
settlement agreement being construed].”) (cleaned up).

App.12a
Likewise, the 1978 exchange agreement recites that
Leon Oscar Sr. and Ileana were “partitioned the
surface to 1058 acres . . . known as ‘Las Piedras Ranch’”
and effects the conveyance from Ileana to Leonor of
“all of her right, title, and interest in and to the
surface to . . . 1,058 acres of land . . . known as LAS
PIEDRAS PASTURE”. The agreement elsewhere
describes the tract as “Las Piedras Ranch”, and like
the partition agreement, makes clear that the “Deed
of Exchange [did] not . . . include oil, gas and other
minerals which . . . remain[ed] undivided”. These documents clearly designate the 1,058-acre tract of land
known as Las Piedras Ranch and Las Piedras Pasture
as a surface estate only. Further, the history of
conveyances since 1941 demonstrates the Ramirez
family’s intent that each member’s mineral interest
in the larger 7,016-acre tract remain undivided.
Respondents argue that the fact that Las Piedras
Ranch was not contiguous with the rest of the estate
shows that the family meant to treat the minerals
separately as well as the surface. But when the
family separated Leon Juan’s surface estate into Las
Piedras Ranch and two other parcels, they expressly
declined to separate the minerals. This is strong evidence that the family intended that their ownership of
all the estate minerals be joint. Respondents argue
that the leasing of various portions of the minerals
from time to time is inconsistent with joint ownership,
but execution of the leases was always consistent
with the family’s understanding of joint ownership.
Had there been any doubt about the meaning of
his mother’s will, it surely was in Leon Oscar Sr.’s
interest to raise it rather than share the mineral
interest with his siblings and join with them and his

App.13a
aunt in leasing the property. The evidence establishes
that Leonor, who shared ownership of the Las Piedras
Ranch surface with her son, gave him her interest in
the surface for life, but gave her interest in the
minerals in the 7,016-acre family estate equally to
her three children, who already had equal interests.
[***]
Because all of respondents’ claims are premised
on an erroneous interpretation of Leonor’s will, petitioners are entitled to judgment as a matter of law.
We reverse the court of appeals’ judgment and render
judgment for petitioners.
/s/ Nathan L. Hecht
Chief Justice
Opinion delivered: January 24, 2020

App.14a

Ildefonso Ramirez’s 7,016 acres
1941: Ildefonso’s death
1/2 Leon Juan & 1/2 Felicidad
1941: Partition
Surface
Minerals

3,508 acres

Leon Juan

3,508 acres

Felicidad

1/2 Felicidad
1/2 Leon Juan

1966: Leon Juan’s death
Surface
3,508 acres
1/2 Leonor
1/6 Leon Oscar Sr.
1/6 Ileana
1/6 Rodolfo

3,508 acres
Felicidad
Minerals

1/2 Felicidad
1/4 Leonor
1/12 Leon Oscar Sr.
1/12 Ileana
1/12 Rodolfo
1975: Partition

Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture

Surface
1/2 Ileana
1/2 Leon Oscar Sr.
Leonor
Rodolfo

App.15a

3,508 acres

Felicidad
Minerals

1/2 Felicidad
1/4 Leonor
1/12 Leon Oscar Sr.
1/12 Ileana
1/12 Rodolfo
1978: Exchange

Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture
3,508 acres

Surface
1/2 Leonor
1/2 Leon Oscar Sr.
Ileana
Rodolfo
Felicidad
Minerals

1/2 Felicidad
1/4 Leonor
1/12 Leon Oscar Sr.
1/12 Ileana
1/12 Rodolfo
1988: Leonor’s death – per petitioners

Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture
3,508 acres

Surface
1/2 fee +
1/2 L/E Leon Oscar Sr.
Ileana
Rodolfo
Felicidad

App.16a
Minerals
1/2 Felicidad
1/6 Leon Oscar Sr.
1/6 Ileana
1/6 Rodolfo
2006: Leon Oscar Sr.’s death – per petitioners

Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture
3,508 acres

Surface
5/12 Leon Oscar Jr.
5/12Rosalinda
1/6 Minerva
Ileana
Rodolfo
Felicidad
Minerals

1/2 Felicidad
1/6 Ileana
1/6 Rodolfo
1/12 Leon Oscar Jr.
1/12 Rosalinda
1988: Leonor’s death – per respondents

Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture
3,508 acres

Surface
1/2 fee +
1/2 L/E Leon Oscar Sr.
Ileana
Rodolfo
Felicidad

App.17a
Minerals
Las Piedras Ranch
Rest of 7,016 Acres
1/2 Felicidad
1/2 Felicidad
1/12 fee +
1/4 L/E Leon Oscar Sr.
1/6 Leon Oscar Sr.
1/12 Ileana
1/6 Ileana
1/12 Rodolfo
1/6 Rodolfo
2006: Leon Oscar Sr.’s death – per respondents

Las Piedras Ranch
Hq Ranch & W El
Milagro Pasture
E El Milagro Pasture
3,508 acres

Surface
5/12 Leon Oscar Jr.
5/12 Rosalinda
1/6 Minerva
Ileana

Rodolfo
Felicidad
Minerals
Las Piedras Ranch
Rest of 7,016 Acres
1/2 Felicidad
1/2 Felicidad
1/12 Ileana
1/6 Ileana
1/12 Rodolfo
1/6 Rodolfo
1/8 Leon Oscar Jr.
1/12 Leon Oscar Jr.
1/8 Rosalinda
1/12 Rosalinda
1/12 Minerva

App.18a
JUDGMENT OF THE TEXAS SUPREME COURT
(JANUARY 24, 2020)
IN THE SUPREME COURT OF TEXAS
________________________
CONOCOPHILLIPS COMPANY,
RODOLFO C. RAMIREZ, Individually and as
Independent Administrator of The Estate of Ileana
Ramirez, and El Milagro Minerals, Ltd.,

Petitioners,
v.
LEON OSCAR RAMIREZ, JR., Individually,
and JESUS M. DOMINGUEZ, as Guardian of
The Estate of Minerva Clementina Ramirez,
an Incapacitated Person,

Respondents.
________________________
No. 17-0822
On Petition for Review from the
Court of Appeals for the Fourth District of Texas
Before: Nathan L. HECHT, Chief Justice.
THE SUPREME COURT OF TEXAS, having
heard this cause on petitions for review from the
Court of Appeals for the Fourth District, and having
considered the appellate record, briefs, and counsel’s
argument, concludes that the court of appeals’ judgment
should be reversed.

App.19a
IT IS THEREFORE ORDERED, in accordance
with the Court’s opinion, that:
1)

The court of appeals’ judgment is reversed;

2)

Judgment is rendered that respondents take
nothing; and

3)

Petitioners shall recover, and respondents
shall pay, the costs incurred in this Court.

Copies of this judgment and the Court’s opinion
are certified to the Court of Appeals for the Fourth
District and to the District Court of Zapata County,
Texas, for observance.
Opinion of the Court delivered by Chief Justice Hecht
January 24, 2020

App.20a
ORDER OF THE TEXAS SUPREME COURT
DENYING MOTION FOR REHEARING
(MAY 29, 2020)
IN THE SUPREME COURT OF TEXAS
________________________
The Motions for Rehearing of the Following Causes
Are Denied:
17-0822
CONOCOPHILLIPS COMPANY v. LEON OSCAR
RAMIREZ, JR., Individually, and JESUS M.
DOMINGUEZ, as Guardian of the Estate of
Minerva Clementina Ramirez, an Incapacitated;
from Zapata County; 4th Court of Appeals District (04-15-00487-CV, 534 SW3d 490, 06-07-17)
[...]

App.21a
OPINION OF THE FOURTH COURT OF APPEALS
(JUNE 7, 2017)
FOURTH COURT OF APPEALS
SAN ANTONIO, TEXAS
________________________
CONOCOPHILLIPS COMPANY,
RODOLFO C. RAMIREZ, Individually and as
Independent Administrator of The Estate of Ileana
Ramirez, and El Milagro Minerals, Ltd.,

Appellants,
v.
LEON OSCAR RAMIREZ, JR., Individually,
and JESUS M. DOMINGUEZ, as Guardian of
The Estate of Minerva Clementina Ramirez,
an Incapacitated Person,

Appellees.
________________________
No. 04-15-00487-CV
From the 49th Judicial District Court,
Zapata County, Texas, Trial Court No. 7,637
Honorable Jose A. Lopez, Judge Presiding
Before: Karen ANGELINI, Marialyn BARNARD,
and Rebeca C. MARTINEZ, Justices.
AFFIRMED AS REFORMED
ConocoPhillips Company and Rodolfo C. Ramirez,
Individually and as Independent Administrator of the

App.22a
Estate of Ileana Ramirez, and El Milagro Minerals,
Ltd. appeal the trial court’s judgment declaring that
appellees Leon Oscar Ramirez, Jr., individually, and
Jesus M. Dominguez, as Guardian of the Estate of
Minerva Clementina Ramirez, an Incapacitated Person,
each own a 1/12 mineral interest in the Las Piedras
Ranch, and that ConocoPhillips’s three leases are not
binding on their mineral interests because, as contingent remaindermen, they were required to sign the
leases and did not. ConocoPhillips also challenges
the amount of cotenancy accounting awarded and the
award of attorneys’ fees. Based on our analysis set
forth below, we affirm the trial court’s judgment in
its entirety, 1 except for a reformation to correct a
clerical error.
Background and Procedural History
This appeal arises out of a dispute over the ownership of a 1/4 interest in the mineral estate underlying
a 1,058-acre tract of land known as “Las Piedras
Ranch” in Zapata County, Texas. ConocoPhillips owns
several leases on the land which have produced oil
and gas since 1995. ConocoPhillips has been paying
royalties on the production to the members of the
Ramirez family who signed the leases in 1993 and
1997. Appellees Leon Oscar Ramirez, Jr. and his
sister Minerva Clementina Ramirez, whose estate is
represented by a guardian due to her incapacity,
(collectively, “the Grandchildren”) are not signatories
on the leases and sued ConocoPhillips, as well as
their uncle Rodolfo Ramirez and his company El
1 The appellees’ “Motion to Take Judicial Notice” filed on October 25, 2016 is denied.

App.23a
Milagro Minerals, Ltd., to recover damages for their
share of production from Las Piedras Ranch.
The early part of the chain of title to the mineral
estate in Las Piedras Ranch is undisputed. Leon
Juan Ramirez and his sister Felicidad each inherited
a 1/2 undivided interest (surface and minerals) in
seven tracts of land totaling 7,016 acres located in
Zapata County, Texas. In 1941, they partitioned the
surface estate so each fully owned 3,508 surface acres,
but they expressly reserved their 1/2 undivided
interests in the mineral estate underlying the whole
7,016 acres. In the surface partition, Leon Juan
received the land that includes the 1,058-acre Las
Piedras Ranch. Leon Juan died in 1966 and his will
devised half of his real property interests to his wife
Leonor and half to their three children, Rodolfo,
Ileana, and Leon Oscar, Sr. Therefore, Leonor inherited
a 1/2 interest in the 3,508-acre surface estate, which
includes Las Piedras Ranch, and a 1/4 undivided
mineral interest (half of Leon Juan’s undivided 1/2
mineral interest) in the entire 7,016 acres, which
includes Las Piedras Ranch. The three children as a
group inherited the same, with each owning a 1/6
interest in the 3,508-acre surface estate and a 1/12
undivided mineral interest in the whole. The three
children, Rodolfo, Ileana, and Leon Oscar, Sr., are
referred to by the parties as “the Older Generation.”
Ownership of the surface estate of Las Piedras
Ranch is not at issue in this case. It is important to
note, however, that, during the 1970s, Leonor and
her three children, i.e., the Older Generation, engaged
in a series of partitions and exchanges of the surface
estate they co-owned, with each partition and exchange
agreement containing an express reservation of their

App.24a
undivided mineral interests in the whole 7,016 acres.
In the 1975 Partition Agreement, Leonor and the
Older Generation partitioned the 3,508-acre surface
estate they inherited from Leon Juan into separate
tracts of farm and ranch land using names such as
“Headquarters Ranch,” “East El Milagro Pasture,
and “Las Piedras Pasture.” As a result of the partition,
Ileana and Leon Oscar, Sr. jointly and equally owned
the full surface estate of the 1,058 acres “situated
partly in the north one-half . . . of Porcion 21 and partly
in Porcion 22, known as Las Piedras Pasture.” In the
1978 Exchange Deed, Leonor exchanged her full
interest in the surface estate of Headquarters Ranch
for Ileana’s 1/2 surface interest in the “1,058 acres of
land . . . known as ‘Las Piedras Ranch.’” Both Leonor
and Ileana expressly reserved their undivided mineral
interests. Thus, at the time Leonor executed her Will
in 1987, she owned a 1/2 interest in the surface
estate of Las Piedras Ranch (with the other 1/2
interest owned by her son Leon Oscar, Sr.), and an
undivided 1/4 mineral interest in the whole 7,016
acres, which included Las Piedras Ranch. Each of the
Older Generation’s 1/12 undivided mineral interest
in the whole similarly remained unchanged by the
partition and exchange deeds.
The disputed portion of the chain of title to
Leonor’s 1/4 mineral interest in Las Piedras Ranch
begins in 1990, when Leonor’s Will was probated. In
her Will, Leonor devised to her son Leon Oscar, Sr.
“all of my right, title and interest in and to Ranch
‘Las Piedras’ out of Porciones 21 & 22 . . . during the
term of his natural life.” (emphasis added). Leonor’s
Will further provided that, upon Leon Oscar, Sr.’s
death, “the title shall vest in his children then living

App.25a
in equal shares.” (emphasis added). Finally, Leonor’s
Will contained a residuary clause providing that the
residue of her estate would pass in equal shares to her
three children, Leon Oscar, Sr., Ileana, and Rodolfo
(i.e., the Older Generation). Leon Oscar, Sr.’s life
estate terminated when he died in 2006. The current
dispute concerns whether “the title” inherited by
Leon Oscar, Sr.’s three children, Leon, Jr., Minerva,
and Rosalinda (who are Leonor’s grandchildren and
are referred to collectively as “the Grandchildren”)2
was only to Leonor’s 1/2 interest in the surface estate
of Las Piedras Ranch, or also included Leonor’s 1/4
mineral interest in Las Piedras Ranch.
In 2010, the Grandchildren filed suit against
ConocoPhillips3 and their uncle Rodolfo and his company El Milagro Minerals, Ltd., seeking the following
declarations: (1) together the Grandchildren own a 1/4
mineral interest in Las Piedras Ranch pursuant to
the chain of title; (2) the three oil and gas leases with
ConocoPhillips that were signed by the Older Generation in 1993 and 1997 (the “Leases”) are not binding
on their collective 1/4 mineral interest because, as
contingent remaindermen of their father’s life estate
at that time, their signatures on the leases were
required; and (3) they are entitled to a cotenancy
accounting and payment for their proportionate share
2 The third child, Rosalinda, originally participated in the lawsuit
brought by her siblings but nonsuited her claims. Therefore, the
term “Grandchildren” as used in this opinion refers only to
Leon, Jr. and Minerva.
3 The Grandchildren also sued EOG Resources, which was the
original lessee on Las Piedras Ranch and from whom Conoco
Phillips bought two of the leases in 1995. The Grandchildren
ultimately settled with EOG.

App.26a
of production by ConocoPhillips pursuant to the Leases.
In addition to their request for declaratory judgment
on the above matters, the Grandchildren pled a
trespass to try title claim and a cotenancy accounting
claim for their share of gas proceeds under the Texas
Natural Resources Code, and pled for recovery of
their attorney’s fees under the Natural Resources
Code. The Grandchildren also pled other claims for
fraud and bad faith cotenancy, which were dismissed.
Multiple summary judgment motions were filed
by all parties and ruled on by the trial court over the
four-year course of the litigation. In relevant part,
the trial court granted partial summary judgment in
favor of the Grandchildren on their trespass to try title
claim and held that the Leases are not binding as to
their mineral interests. The trial court denied
ConocoPhillips’s motion for partial summary judgment
on “will construction,” and denied summary judgment
on ConocoPhillips’s affirmative defenses of limitations, ratification, and estoppel. Finally, the trial
court granted the Grandchildren’s summary judgment
motions on cotenancy accounting and denied Conoco
Phillips’s competing motion. After summary judgment
was granted in the Grandchildren’s favor on their
declaratory judgment, trespass to try title, and
cotenancy accounting claims, the issue of attorney’s
fees was decided in a bench trial.
On May 11, 2015, the trial court signed its final
judgment, which referred to and incorporated the prior
summary judgment orders, and declared that (1)
Leon Jr. and Minerva are each the “fee simple owner
of 1/12 of the minerals underneath the 1058 acres of
land . . . known as Las Piedras Ranch . . . more particularly described on the attached Exhibits ‘A’ and ‘B,’”

App.27a
and (2) the three oil and gas leases signed in 1993 and
1997 and owned by ConocoPhillips “are not binding
and are ineffective against the above mentioned
mineral interests.” The judgment further declared
that the Grandchildren are entitled to recover a
cotenancy accounting from ConocoPhillips and awarded
them approximately $3.7 million each for their share
of production through October 2012. In addition, the
Grandchildren were awarded approximately $950,000
in prejudgment interest and $1,125,000 in attorney’s
fees through the judgment date. The total amount of
the judgment awarded against ConocoPhillips is
approximately $11.7 million. ConocoPhillips appealed,
as did Rodolfo Ramirez and El Milagro Minerals.
ConocoPhillips’s Appeal
On appeal, ConocoPhillips raises the following
issues asserting the trial court erred in: (1) granting
partial summary judgment for the Grandchildren on
their trespass to try title claim and denying Conoco
Phillips’s request for partial summary judgment on its
“surface only-will construction” theory; (2) denying
ConocoPhillips’s motion for summary judgment on its
affirmative defense of limitations, and granting Leon
Jr.’s cross motion on limitations; (3) denying Conoco
Phillips’s motion for summary judgment on its
affirmative defenses of ratification and estoppel; (4)
granting summary judgment for the Grandchildren on
their cotenancy accounting claim and denying Conoco
Phillips’s cross-motion; (5) awarding attorney’s fees
and basing the award on insufficient evidence to support the amount; and (6) making other miscellaneous
errors in the judgment. We first address the question
of who owns title to Leonor’s 1/4 mineral interest in

App.28a
Las Piedras Ranch, as all of the other issues are dependent on our resolution of the title issue.
Title to Leonor’s 1/4 Mineral Interest in Las Piedras
Ranch
In ConocoPhillips’s view, “this is a will construction
case” because title to the disputed 1/4 mineral interest
turns on what Leonor meant by the name “Ranch
Las Piedras” in her Will when she conveyed a life
estate in “all of my right, title, and interest in and to
Ranch Las Piedras” to her son Leon Oscar, Sr. Conoco
Phillips bases its challenges to the Grandchildren’s
summary judgment on title, and to the denial of its
summary judgment motion on “will construction,”
largely on this premise.
Grandchildren’s Partial Summary Judgment
Motions on Trespass to Try Title
With respect to the Grandchildren’s summary
judgment motions on their trespass to try title claim,
ConocoPhillips argues the trial court erred in granting
their motions because they failed to expressly move
for summary judgment on “construction of Leonor’s
Will.” See Tex. R. Civ. P. 166a(c) (motion for summary
judgment must state the specific grounds); see also
McConnell v. Southside Indep. Sch. Dist., 858 S.W.2d
337, 339 (Tex. 1993) (same).
We disagree with ConocoPhillips’s premise that
this is a “will construction case.” At its heart, this is
a title dispute in which the chain of title includes
Leonor’s Will, as well as Leon Juan’s will, among the
deeds and other documents in the chain. No party
brought suit to contest or construe Leonor’s Will. See,
e.g., San Antonio Area Found. v. Lang, 35 S.W.3d 636,

App.29a
639 (Tex. 2000) (action to construe a will brought in
probate court). The claim which the Grandchildren
pled and specifically moved for summary judgment
on was trespass to try title, which is the method for
determining title to real property. See Tex. Prop.
Code Ann. § 22.001(a) (West 2014); see also Martin v.
Amerman, 133 S.W.3d 262, 265 (Tex. 2004) (trespass
to try title is typical method used to “clear problems
in chains of title”). We have held that an action to
resolve a dispute over title to real property is, in
effect, a “trespass to try title action” regardless of the
form the action takes and the type of relief sought.
Longoria v. Lasater, 292 S.W.3d 156, 165 (Tex.
App.—San Antonio 2009, pet. denied). To recover in
a trespass to try title action, the plaintiff must
recover on the strength of his or her own title, not a
weakness in the opponent’s title. Id. The plaintiff has
the burden to prove its title to the disputed property
and may do so by proving “a regular chain of
conveyances from the sovereign.” Martin, 133 S.W.3d
at 265; Longoria, 292 S.W.3d at 165.
In support of their summary judgment motions,
the Grandchildren submitted the abstract of the chain
of title, a supplement to the abstract with copies of
the title documents, plus other summary judgment
evidence such as affidavits. It is axiomatic that, in
examining the documents in the chain of title to determine whether the Grandchildren conclusively proved
their right to title, the trial court necessarily read
and interpreted the relevant language in each document in the chain, including Leonor’s Will, according
to the applicable rules of construction. See Longoria,
292 S.W.3d at 166 (trial court construes the deeds
and other instruments in the chain of title according

App.30a
to the rules of contract construction as a matter of
law); see also Netherton v. Cowan, No. 04-1200627CV, 2013 WL 4091773, at *3 (Tex. App.—San Antonio
Aug. 14, 2013, no pet.) (mem. op.) (in construing a will,
court must ascertain testator’s intent from “four
corners” of will, relying on the “plain, ordinary, and
generally accepted meanings, unless the instrument
itself shows such terms to have been used in a
technical or a different sense”). It is not uncommon
for a will to be one of the documents in the chain of
title used to prove ownership in a trespass to try title
action. It was not necessary for the Grandchildren to
separately move for summary judgment on “construction” of Leonor’s Will, or construction of any other document contained in the chain of title, in order to
obtain summary judgment on their trespass to try
title claim. We conclude that ConocoPhillips’s argument that the Grandchildren were not entitled to
summary judgment on their trespass to try title
claim because they failed to expressly request
construction of Leonor’s Will is without merit.
Scope of Life Estate Conveyed by Leonor’s Will–
Did It Include the 1/4 Mineral Interest?
ConocoPhillips alternatively asserts on appeal
that, by granting summary judgment for the Grandchildren on title, the trial court misconstrued the
scope of the life estate granted by Leonor’s Will. ConocoPhillips also argues the trial court erred in denying
its partial summary judgment motion presenting its
“surface only-will construction” ground. ConocoPhillips
asserts that it conclusively established, based on
surrounding circumstances at the time Leonor
executed her Will, that Leonor intended the name
“Ranch Las Piedras” to refer to the surface estate

App.31a
only. The Grandchildren argue that ConocoPhillips
failed to preserve its “surface only” argument because
it did not timely present that specific argument to
the trial court; they also argue the trial court did not
rule on the merits of ConocoPhillips’s motion. Based
on the record before us,4 it is apparent that the trial
court considered the “surface only” argument made
by ConocoPhillips and rejected it prior to entering the
final judgment in this case. We will therefore consider
ConocoPhillips’s “surface only” argument on appeal.
Arguments of the Parties
The parties agree the plain language of the life
estate devise in Leonor’s Will is not ambiguous, but
each side argues a different interpretation as a matter
of law. The Grandchildren argue the life estate Leonor
devised to Leon Oscar, Sr. included her 1/4 mineral
interest in Las Piedras Ranch, while ConocoPhillips
argues the life estate was limited to Leonor’s 1/2
interest in the surface estate of Las Piedras Ranch.
Both sides generally rely on the same summary judgment evidence, primarily the chain of title documents, plus affidavits and deposition excerpts supporting each side’s competing interpretation of the
scope of the life estate. On appeal, ConocoPhillips
does not challenge any of the summary judgment evi4 In October 2014, the trial court held a hearing on Conoco
Phillips’s summary judgment motion presenting its “surface
only-will construction” argument. Although there was some
discussion about the court having already ruled on title to the
1/4 mineral interest, the court ultimately stated that it had no
problem ruling on ConocoPhillips’s motion “even if I’ve already
ruled on it before.” The court then proceeded to hear substantive arguments on the motion, and denied the motion in an
order signed in December 2014.

App.32a
dence submitted by the Grandchildren, other than
their “assumed meaning” of Leonor’s Will.
In its responses to the Grandchildren’s summary
judgment motions on title, ConocoPhillips argued
that Leonor’s Will did not provide a description of
“Ranch Las Piedras,” and that the Grandchildren
had failed to present any summary judgment evidence
establishing the meaning of the phrase. Therefore,
ConocoPhillips asserted the Grandchildren did not
conclusively establish their title to the disputed mineral
interest, and were not entitled to summary judgment
on their trespass to try title claim.
In moving for summary judgment on its argument
that the life estate Leonor devised to Leon Oscar, Sr.
was only in her 1/2 surface interest, ConocoPhillips
asserted that because Leonor’s Will did not define
the name “Ranch Las Piedras,” the trial court was
required to look to “surrounding circumstances” to
construe Leonor’s intent with respect to the term’s
meaning. See Lang, 35 S.W.3d at 639 (when construing
a will, if a term is open to more than one construction,
court may consider extrinsic evidence outside the four
corners of written will, such as surrounding circumstances at time of execution, to ascertain testator’s
intent). ConocoPhillips argued in its motion and
argues on appeal that, at the time Leonor executed
her Will in 1987, the family had a history of severing
the surface from the mineral estate, and then
partitioning and exchanging the various surface estates
among themselves while leaving the undivided mineral
interests in the whole 7,016 acres untouched. In support, ConocoPhillips attached the affidavit of its land
title expert, Mr. Cummings, who stated that the
chain of title documents showed the 7,016-acre surface

App.33a
estate had been severed from the underlying mineral
estate and then partitioned among the Ramirez family
members. Cummings further stated that the Ramirez
family had historically treated the severed mineral
estate, including the mineral estate under Las Piedras
Ranch, as an undivided interest belonging to the
entire family. ConocoPhillips stresses that the Ramirez
family, and Leonor herself, used express reservation
clauses in the 1975 Partition and 1978 Exchange
Deed to clarify that their undivided interests in the
mineral estate underlying the whole acreage were
not affected by the partition and exchange. ConocoPhillips highlights the absence of any inclusive reference to her mineral interest in Leonor’s Will as
showing that she did not intend the life estate to
extend to her mineral interest. ConocoPhillips further relies on the fact that Leonor used the name
“Ranch Las Piedras” when referring to the surface
estate in the 1975 Partition and 1978 Exchange
Deed, arguing that shows the name means only the
surface estate. ConocoPhillips asserts that, based on
these “surrounding circumstances,” Leonor only
intended to devise a life estate in the surface of Las
Piedras Ranch to Leon Oscar, Sr. As a result, Leon
Oscar, Sr.’s children (i.e., the Grandchildren) did not
inherit Leonor’s 1/4 mineral interest in Las Piedras;
rather, the 1/4 mineral interest passed under the
residuary clause of Leonor’s Will to her children (i.e.,
the Older Generation).
The Grandchildren’s argument in their summary
judgment motion was that because Leonor’s Will
plainly conveyed a life estate in “all of my right, title
and interest . . . in Ranch Las Piedras,” their father
Leon Oscar, Sr. received a life estate in Leonor’s full

App.34a
interest in Las Piedras Ranch, i.e., her 1/2 surface
interest and her 1/4 mineral interest. The Grandchildren reason that the meaning of the phrase “all
my interest” is plain and clear, and there is no need
to go outside the four corners of Leonor’s Will to
understand the scope of her devise. See, e.g., Lang,
35 S.W.3d at 639 (term “real property” in will was
not susceptible to more than one understanding, and
thus did not require extrinsic evidence to understand).
The Grandchildren stress that there was no express
reservation of Leonor’s 1/4 mineral interest from the
life estate devise, and point out that Leonor knew
how to make an express mineral reservation and had
done so in the past. The Grandchildren rely on the
general principle that, absent an express reservation,
a conveyance of land includes both the surface and
the underlying minerals. See Sharp v. Fowler, 151 Tex.
490, 252 S.W.2d 153, 154 (1952). In response to
ConocoPhillips’s assertion that the name “Ranch Las
Piedras” is not defined in the Will and must be
construed by looking to extrinsic evidence, the
Grandchildren point out that “Ranch Las Piedras”
was described by its physical location, “out of Porciones
21 & 22, and situated in Zapata County, Texas,” in
Leonor’s Will. They also assert the name had an
accepted meaning to Leonor. Therefore, the
Grandchildren assert that, based on the plain language of the life estate devise in Leonor’s Will, and
the other documents in the chain of title, they inherited
Leonor’s 1/4 mineral interest in Las Piedras Ranch
in equal shares, i.e., 1/12 each, upon the death of
their father Leon Oscar, Sr.

App.35a
Analysis
As to whether the trial court misconstrued the
scope of the life estate devise in Leonor’s Will, we
hold it did not. The meaning of the words “all of my
right, title and interest in and to Ranch Las Piedras”
can be ascertained according to their plain language
within the four corners of the Will; therefore, the use
of extrinsic evidence is inappropriate. See Lang, 35
S.W.3d at 639. Leonor’s use of the word “all,” with no
qualifiers or reservations, is comprehensive by its
nature and does not require explanation. Moreover,
the general principle of conveyances is that absent
an express reservation of a mineral interest, it is
conveyed along with the surface; an inclusive reference
to the mineral interest is not required. See Sharp,
252 S.W.2d at 154. We also disagree that the name
“Ranch Las Piedras” is open to more than one reasonable construction. The Will identifies “Ranch Las
Piedras” by its physical location as “out of Porciones
21 & 22, and situated in Zapata County, Texas.” Use
of a name to refer to the physical land on the surface
does not mean the conveyance excludes the minerals
beneath it. Id. (“To describe land is to outline its
boundaries so that it may be located on the ground,
and not to define the estate conveyed therein.”).
Extrinsic evidence may not be used to create doubt
as to the meaning of the name when the words used
in the Will are unambiguous. See Lang, 35 S.W.3d at
639; see also Longoria, 292 S.W.3d at 166 (mere
disagreement about interpretation of deed does not
make it ambiguous; an instrument is ambiguous only
if, after application of the rules of construction, it is
unclear which meaning is the correct one).

App.36a
Having reviewed all the summary judgment evidence de novo, we conclude the Grandchildren conclusively established their record title to Leonor’s 1/4
mineral interest in Las Piedras Ranch as a matter
of law. See Tex. R. Civ. P. 166a; see also Valence
Operating Co. v. Dorsett, 164 S.W.3d 656, 661 (Tex.
2005) (when both sides move for summary judgment
on the same issue and the trial court grants one
motion and denies the other motion, the appellate
court reviews the summary judgment evidence
presented by both sides and determines all questions
presented); see Hejl v. Wirth, 161 Tex. 609, 343
S.W.2d 226, 226 (Tex. 1961) (plaintiff must recover
on strength of his own title in a trespass to try title
case); see also Cross v. Thomas, 264 S.W.2d 539, 542
(Tex. Civ. App.—Fort Worth 1953, writ ref’d n.r.e.)
(whether a particular person owns record title is a
question of law). Based on the plain language on the
face of the documents in the chain of title, we hold
the trial court properly granted summary judgment
for the Grandchildren on their claim of title to the
disputed 1/4 mineral interest in Las Piedras Ranch,
and properly denied summary judgment for ConocoPhillips on the issue of title.5
ConocoPhillips’s Affirmative Defenses
ConocoPhillips asserts the trial court erred in
denying its motions for summary judgment on its
5 To the extent ConocoPhillips argues on appeal that the trial
court abused its discretion in denying Conoco’s motion to reconsider and reopen the December 6, 2012 summary judgment
order, we hold there was no abuse of discretion. The trial court
considered the same arguments when it denied ConocoPhillips’s
2014 summary judgment on will construction.

App.37a
affirmative defenses of limitations, ratification, and
estoppel. A defendant moving for summary judgment
on an affirmative defense must conclusively establish
each element of the defense to prevail. Tex. R. Civ. P.
166a(b); Long Distance Int’l, Inc. v. Telefonos de
Mexico, S.A. de C.V., 49 S.W.3d 347, 350-51 (Tex. 2001).
Statute of Limitations
Cross-motions for summary judgment on limitations were filed, and the trial court denied Conoco
Phillips’s motion and granted Leon, Jr.’s motion.
Therefore, we review the motions, responses, and all
summary judgment evidence de novo, determine all
questions presented, and render the appropriate
judgment if the trial court erred. Valence, 164 S.W.3d
at 661. To be entitled to summary judgment on the
affirmative defense of limitations, a defendant must
prove as a matter of law: (1) the date on which the
limitations period commenced, i.e., when the cause of
action accrued, and (2) that the plaintiff filed its
petition outside the applicable limitations period. In
re Estate of Denman, 362 S.W.3d 134, 144 (Tex.
App.—San Antonio 2011, no pet.).
The Grandchildren filed their lawsuit on November
19, 2010. In its second amended answer, ConocoPhillips
pled, in relevant part, that Leon, Jr.’s claims6 are
6 ConocoPhillips agrees that limitations does not apply against
Minerva because she is an incapacitated person. However, Rodolfo
Ramirez and El Milagro Minerals, Ltd. still assert a limitations
bar against Minerva. Under the applicable statutes, the limitations period does not run against an incapacitated person. See
Tex. Civ. Prac. & Rem. Code Ann. § 16.001(b), 16.022(b) (West
Supp. 2016 & 2002). We therefore reject the limitations argument
made by Rodolfo Ramirez and El Milagro Minerals, Ltd. as to
Minerva Ramirez.

App.38a
barred by the applicable statutes of limitation, citing
to the two-year and four-year limitations periods set
forth in sections 16.003(a) and 16.004(a), and to the
residual four-year limitations period in section 16.051
of the Texas Civil Practice and Remedies Code. Tex.
Civ. Prac. & Rem. Code Ann. §§ 16.003(a), 16.004(a),
16.051 (West Supp. 2016 & 2002 & 2015). In its
“Second Amended Motion for Summary Judgment as
to All Claims of Plaintiffs Leon O. Ramirez, Jr. and
Rosalinda Ramirez Eckhardt,” ConocoPhillips asserted
that “all of Leon, Jr.’s claims” are barred by limitations.
Leon, Jr. argues on appeal that ConocoPhillips failed
to specifically move for summary judgment on limitations against his trespass to try title and cotenancy
accounting claims. We disagree. ConocoPhillips’s summary judgment motion asserted a limitations bar
against all claims brought by Leon, Jr. In addition,
in its motion ConocoPhillips specifically asserted that
limitations bars Leon, Jr.’s claim for a declaratory
judgment that “(1) he owns a 1/12 undivided interest
in the mineral estate” underlying Ranch Las Piedras,
and that (2) the three Leases are “‘ineffective’ as to
the undivided [mineral] interest he claims to own.”
In addition, ConocoPhillips asserted that Leon, Jr.’s
“suit for an accounting as an unleased cotenant is
time barred” under the four-year statute of limitations in section 16.004. Id. § 16.004(a)(3) (debt).
In its summary judgment motion, as it does on
appeal, ConocoPhillips characterized Leon, Jr.’s title
claim asserting ownership of the disputed mineral
interest as “an action to construe a will,” and argued
the claim was barred because the four-year statute of
limitations for a will-construction suit began running
in 1990 when Leonor’s Will was probated. See Estate

App.39a

of Denman, 362 S.W.3d at 144 (holding that residual
four-year limitations period of Texas Civil Practice
and Remedies Code section 16.051 applies to declaratory judgment action to construe a will); see also In re
Estate of Florence, 307 S.W.3d 887, 890 (Tex. App.—
Fort Worth 2010, no pet.) (same). This argument fails
because we have rejected ConocoPhillips’s argument
that Leon, Jr.’s suit to establish title was actually a
suit to construe Leonor’s Will.
The success of ConocoPhillips’s limitations defense
depends upon the accrual date for Leon, Jr.’s claims,
which is a question of law. Estate of Denman, 362
S.W.3d at 144 (determination of the date on which a
cause of action accrues is a question of law for the
court). A cause of action generally accrues, and limitations begins to run, when facts come into existence
that authorize a party to seek a judicial remedy. Provident Life & Acc. Ins. Co. v. Knott, 128 S.W.3d 211,
221 (Tex. 2003). This rule generally prevails regardless
of when the claimant learns of his injury. Moreno v.
Sterling Drug, Inc., 787 S.W.2d 348, 351 (Tex. 1990).
A cause of action under the Declaratory Judgment
Act does not accrue until there is an actual controversy between the parties. Estate of Denman, 362
S.W.3d at 144.
ConocoPhillips’s argument is that Leon, Jr.’s
claims accrued in 1990 when the Older Generation
(including his father Leon Oscar, Sr. as the life
tenant) took the “overt acts” of signing oil and gas
leases on Las Piedras Ranch, thereby creating an
actual controversy with the Grandchildren, who were
contingent remaindermen of their father’s life estate.
See Murphy v. Honeycutt, 199 S.W.2d 298, 298-99
(Tex. Civ. App.—Texarkana 1946, writ ref’d) (remain-

App.40a
dermen’s cause of action for construction of will
accrued when the life tenant executed a deed conveying
the property covered by the will). The Older Generation
also signed additional leases covering Las Piedras
Ranch in 1993 and 1997 (i.e., the Leases). Memoranda
of the leases were filed in the county’s public records,
but not the leases themselves. The Older Generation
also began receiving royalty payments from the production on the leases. ConocoPhillips asserts that Leon,
Jr. therefore had either actual or constructive notice
of the leases and royalty payments on production,
i.e., the facts giving rise to his claim, in 1990 at the
earliest, and certainly no later than 1997;7 therefore,
his 2010 lawsuit was barred by limitations.
ConocoPhillips also asserts that neither the
discovery rule nor fraudulent concealment applied to
toll the limitations period because the drilling activities
were continuous, open, and obvious, and the Leases,
well permits, and production reports were matters of
public record and therefore easily discoverable. See
HECI Exploration Co. v. Neel, 982 S.W.2d 881, 886
(Tex. 1998) (discovery rule); see also Natural Gas
Pipeline Co. of Am. v. Pool, 124 S.W.3d 188, 198
(Tex. 2003) (failure to know status of leases did not
suspend limitations); BP America Prod. Co. v. Marshall,
7 On appeal, ConocoPhillips also argues the Older Generation’s
signing of a stipulation of interest in 1997, in which they
claimed to own Leonor’s 1/4 mineral interest in Las Piedras Ranch,
placed Leon, Jr. on notice of his claims. However, this was not
included as a ground for summary judgment in ConocoPhillips’s
motion. A party cannot raise new reasons why a summary judgment should have been granted for the first time on appeal.
Tex. R. Civ. P. 166a(c); Garcia v. Garza, 311 S.W.3d 28, 44 (Tex.
App.—San Antonio 2010, pet. denied).

App.41a
342 S.W.3d 59, 69-70 (Tex. 2011) (plaintiffs’ alleged
ignorance of what they owned did not toll limitations).
Here, the relevant issue is whether Leon, Jr.’s
claims accrued during his father’s life tenancy, while
Leon, Jr. was a contingent remainderman, or did not
accrue until his father’s death in 2006, when Leon,
Jr.’s contingent interest vested and he had the right
to possession. A well-established line of authority
holds that, “[t]he statutes of limitation as to an
interest in land, which one owns as a remainderman,
subject to a life estate in another, do not begin to run
in favor of one in possession until the death of the
life tenant.” Estate of McWhorter v. Wooten, 622
S.W.2d 844, 846 (Tex. 1981) (internal citations omitted)
(suit for trespass to try title); Garza v. Cavazos, 148
Tex. 138, 221 S.W.2d 549, 553 (1949) (suit for trespass
to try title); Evans v. Graves, 166 S.W.2d 955, 958
(Tex. Civ. App.—Dallas 1942, writ ref’d w.o.m.) (holding
that remainderman was not compelled to bring her
suit for trespass to try title until her right of possession
accrued upon the life tenant’s death, even though she
might have been able to bring suit as a contingent
remainderman to quiet title during the life estate).
According to the terms of Leonor’s Will, Leon, Jr.’s
remainder interest was contingent on him surviving
the life tenant, i.e., his father. See Guilliams v.
Koonsman, 154 Tex. 401, 279 S.W.2d 579, 582 (1955)
(explaining the difference between a contingent and
a vested remainder); see also Enserch Exploration,
Inc. v. Wimmer, 718 S.W.2d 308, 310 (Tex. App.—
Amarillo 1986, writ ref’d n.r.e.) (citing the “wellestablished rule” that a “life tenant is entitled to
exclusive possession and control of the property
comprising the life estate and the remaindermen are

App.42a
not entitled to possession thereof until the life estate
terminates”). Thus, we disagree with ConocoPhillips
that Leon, Jr.’s claims accrued in 1990 when the first
leases on Las Piedras Ranch were signed (or when
the Leases were signed in 1993 and 1997) because
those events occurred prior to the death of Leon
Oscar, Sr., and thus prior to the vesting of Leon, Jr.’s
interest in 1/12 of the mineral estate of Las Piedras
Ranch. See Estate of McWhorter, 622 S.W.2d at 846;
Garza, 221 S.W.2d at 553; Evans, 166 S.W.2d at 958.
We hold that the limitations period for Leon, Jr.’s
claims did not start running until the date of Leon
Oscar, Sr.’s death on November 27, 2006, when Leon,
Jr.’s remainder interest vested and became a possessory
interest; therefore, his lawsuit was timely filed within
the applicable limitations periods. The trial court did
not err in denying ConocoPhillips’s motion for summary
judgment on limitations and in granting Leon, Jr.’s
motion on limitations.
Ratification and Estoppel
ConocoPhillips argues the trial court also erred
in denying its motion for summary judgment on the
affirmative defenses of ratification and estoppel.
ConocoPhillips asserts that Leon, Jr. signed ratifications of the 1993 Leases and took other actions
seeking to benefit from the Leases which equitably
estop him from asserting the Leases are invalid as to
his mineral interest.
As to ratification, ConocoPhillips moved for summary judgment on the basis of two ratifications of
the 1993 Leases purportedly signed by Leon, Jr. (the

App.43a
“Ratifications”).8 However, there is undisputed summary judgment evidence that Leon Oscar, Sr.’s
signature, not Leon, Jr.’s, appears on the Ratifications.
In his affidavit attached to his summary judgment
motion on title, Leon, Jr. swore that he did not sign
the two Ratifications that pertain to the 1993 Leases;
his father signed them. Leon, Jr. stated that his
father’s signature was very unique and distinctive,
and in no way resembled his own signature, and he
provided documents with the known signature of
each for comparison. The admitted signature of Leon,
Jr. that appears on the April 26, 1990 ratification of
the 1990 Enron lease is very obviously not the same
signature that appears on the two Ratifications dated
January 27, 1994 and February 10, 1994 pertaining to
the 1993 Leases. Those signatures match the known
signature of Leon Oscar, Sr. Moreover, the typed
name under the signature lines on the Ratifications
states “Leon O. Ramirez, Jr. (Lessor) (aka Leon O.
Ramirez).” Leon, Jr. further testified that he did not
give his father authority to sign for him, and
ConocoPhillips presented no summary judgment evidence refuting that statement. The record is thus
conclusive that Leon, Jr. did not sign the Ratifications
of the 1993 Leases himself and did not authorize his
father Leon, Sr. to sign for him.
ConocoPhillips also argues that Leon, Jr. further
ratified the Leases when he signed division orders
pertaining to the payment of royalties to Leon Oscar,
Sr.’s estate after his death. However, the record
8 ConocoPhillips’s summary judgment motion also referred to
Leon, Jr.’s April 26, 1990 ratification, which he admitted signing.
However, because it pertained to the 1990 lease with Enron/EOG,
that lease is not at issue in this case.

App.44a
shows that Leon, Jr. clearly signed the division orders
in his capacity as co-executor of Leon Oscar, Sr.’s
estate, not in his individual capacity as he sued in
the instant case. Further, under the chain of title,
Leon Oscar, Sr. owned a fee simple interest in the
minerals underneath Las Piedras Ranch which he
inherited from his father Leon Juan, that was separate
and distinct from the mineral interest owned by
Leonor. Therefore, Leon Oscar, Sr. was also receiving
royalties as a lessor of his other undivided mineral
interest in Las Piedras Ranch, separate from the life
estate he received from Leonor. Accordingly, we hold
the trial court did not err in denying ConocoPhillips’s
motion for summary judgment on ratification.
As to estoppel, ConocoPhillips argues that the
Grandchildren were equitably estopped to deny the
validity of the Leases because they had taken contrary
positions in the past ratifying the validity of the Leases
and seeking their benefits. See Lopez v. Munoz,
Hockema & Reed, L.L.P., 22 S.W.3d 857, 864 (Tex.
2000) (quasi-estoppel precludes a party from “asserting,
to another’s disadvantage, a right inconsistent with a
position previously taken”). In its summary judgment
motion, ConocoPhillips relied on the Grandchildren’s
“Offer in Compromise” with the IRS seeking to
reduce the estate tax liability from their father’s
estate based on his improper retention of all the
royalties under the Leases, and their action in making
a claim against their father’s estate for their share of
royalties from Las Piedras production, characterizing
these actions as a recognition of the Leases’ validity.
See Sun Operating L.P. v. Oatman, 911 S.W.2d 749,
756 (Tex. App.—San Antonio 1995, writ denied) (acceptance of royalties with knowledge that they were in

App.45a
payment of royalty from mineral deed constituted
ratification lease). ConocoPhillips asserts these actions
by the Grandchildren amounted to a ratification of
the effectiveness of the Leases as to the disputed 1/4
mineral interest in Las Piedras Ranch, and estopped
them from taking a contrary position in this lawsuit.
The Grandchildren point out that ConocoPhillips’s
arguments are based on the false premise that the
IRS claim and their claim against their father’s
estate were for “royalty payments,” and thus depended
on the Leases being valid, when the true nature of
the claims was for their share of unpaid gas proceeds
based on repudiation of the Leases. The record supports
the Grandchildren’s characterization of these claims.
The Offer in Compromise submitted to the IRS sought
to reduce the value of Leon Oscar, Sr.’s estate by an
indebtedness amount consisting of the Grandchildren’s
unpaid share of gas proceeds, not royalties, as unleased
cotenants. As ConocoPhillips quotes in its reply brief,
“Plaintiffs told the IRS that Leon Oscar was ‘not
entitled to any portion of the gas proceeds relating to
the life estate mineral interest in the Wells’ and that
Leon Oscar ‘received gas proceeds in excess of his
royalty fractional interest.’” The Grandchildren’s claim
against their father’s estate is similarly based on an
indebtedness he owed to them as contingent remaindermen of the life estate in the minerals, and does
not constitute a ratification of the Leases as to the
Grandchildren’s mineral interests. The Grandchildren
point out that they have never denied that the Leases
were and are effective and binding on the Older
Generation’s mineral interests, and that the Older
Generation was and is entitled to receive royalties
from those Leases in the proportion of their correct

App.46a
ownership interests. We hold the trial court did not
err in denying ConocoPhillips’s summary judgment
motion on the affirmative defense of estoppel.
Cotenancy Accounting of Production and Recovery of
Unpaid Oil and Gas Proceeds
Right to Receive Cotenancy Accounting and Share
of Proceeds
In their Fourth Amended Petition, the Grandchildren pled that, by producing minerals from Las
Piedras Ranch, ConocoPhillips was “guilty of waste
of the life estate corpus” and failing to account for oil
and gas production to them as unleased cotenants
and contingent remaindermen.9 The Grandchildren
sought an equitable accounting of such production
and recovery of unpaid gas proceeds under Chapter
91 of the Texas Natural Resources Code. Tex. Nat.
Res. Code Ann. § 91.404 (West 2011). The trial court
held in its final judgment that the Leases “are not
binding and are ineffective against” the Grandchildren’s mineral interests in Las Piedras Ranch. See
MCZ, Inc. v. Smith, 707 S.W.2d 672, 679 (Tex. App.—
Houston [1st Dist.] 1986, writ ref’d n.r.e.) (a life tenant
who is the grantor on an oil and gas lease can only
convey what he owns to the lessee, and may not bind
the contingent remaindermen’s interest without their
joinder). As a result of the status of the Grandchildren as non-signing contingent remaindermen,
they were unleased cotenants in the wells drilled on
Las Piedras Ranch, and the trial court held they are
entitled to a cotenancy accounting for their share of
9 The Grandchildren did not seek a cotenancy accounting from
Rodolfo Ramirez or El Milagro Minerals, Ltd.

App.47a
production from ConocoPhillips. See Cox v. Davison,
397 S.W.2d 200, 201 (Tex. 1965) (a cotenant who
produces minerals from commonly owned property
without having secured the consent of its cotenants
is accountable to them for “the value of the minerals
taken less the necessary and reasonable cost of
producing and marketing the same”); Prize Energy
Resources, L.P. v. Cliff Hoskins, Inc., 345 S.W.3d 537,
564 (Tex. App.—San Antonio 2011, no pet.) (citing
the long established rule in Texas that a cotenant
has the right to extract minerals from common property without first obtaining consent from his cotenants,
but must account to them on the basis of the value of
the minerals taken, less the necessary and reasonable costs of production and marketing); see also Tex.
Nat. Res. Code Ann. §§ 91.402-.403 (West 2011)
(lessee’s duty to pay oil and gas proceeds within
certain time period). To the extent that ConocoPhillips
challenges the trial court’s holding that the Leases
are not binding on the Grandchildren’s mineral
interests10 and that they are entitled to a cotenancy
accounting of production and recovery of their share
of proceeds, we overrule the challenge. See MCZ, 707
S.W.2d at 680 (lease, not joined in by remaindermen,
was ineffective to authorize drilling in derogation of
the remaindermen’s rights); id. at 676 (operator of
well became the producing cotenant to the nonsigning remaindermen’s interest, and its production
triggered its duty under Texas law to account to the
remainder interests for the minerals produced, less
proportionate reasonable costs).

10 It is undisputed that the Grandchildren did not sign the Leases.

App.48a
Calculation of Cotenancy Accounting
With respect to calculation of the accounting,
the record reflects that, at a pretrial conference in
October 2012, ConocoPhillips agreed to submit a
cotenancy accounting for Well Nos. 3 through 1111 in
accordance with industry standards “from the beginning
of production until present day.” ConocoPhillips’s
expert in oil and gas accounting, Rodney Sowards,
prepared three “net profits” accountings based on the
entire drilling enterprise on the Ramirez leases and
ending in October 2012. Each of Sowards’s accountings
had a different start date and total net profit amount
—$32,083,039 for the period beginning in August
1990, the date of first production; $8,531,326 for the
period beginning in November 2006, the date of Leon
Oscar, Sr.’s death and the vesting of the remainder
interests; and $2,503,717 for the period beginning in
November 2008, two years before the Grandchildren
filed their lawsuit. The Grandchildren filed a motion
for summary judgment on cotenancy accounting
which was based on Sowards’s accounting but
included adjustments to his calculations of revenue
and deductible costs. The Grandchildren’s motion
relied on Sowards’s 416-page accounting, plus the
previously filed documents in the chain of title, documents detailing the fractional interests, production
amounts and costs, and an affidavit by their expert,
11 Eleven wells total were drilled on the Ramirez leases. Three
were drilled by EOG before Conoco purchased the leases in
1995. Of those first three wells, Well No. 1 was drilled under
the 1983 lease which is not at issue in this case, Well No. 2 was
a dry hole drilled under the 1990 lease, and Well No. 3 was a
producing well at the time ConocoPhillips acquired the leases
from EOG in January 1995.

App.49a
Luciano A. Rodriguez, an oil and gas attorney,
detailing adjustments they characterized as “necessary
as a matter of law” to correct errors in ConocoPhillips’s
accounting. After considering ConocoPhillips’s objections and response, the trial court granted the
Grandchildren’s summary judgment motion and made
all the requested adjustments.
In its final judgment, the trial court stated that
its award of the cotenancy accounting and payment
was made under equitable and common law principles,
as well as under the Texas Natural Resources Code.
The trial court explained that, based on its prior
summary judgment order dismissing the bad faith
cotenancy claim against ConocoPhillips, the company
was “entitled to deduct production and marketing
costs” in calculating the cotenancy accounting. It also
found that the cotenancy accounting provided by
ConocoPhillips only went to the end of October 2012,
and that ConocoPhillips had failed to supplement its
accounting as agreed. Based on those findings, the
trial court ordered that Leon, Jr. and Minerva each
recover from ConocoPhillips the sum of $3,764,489 as
the amount due at the end of October 2012, together
with prejudgment interest of $951,546 computed
from November 27, 2006 until March 20, 2015, plus a
per diem of $283.63 from March 20, 2015 until the
date of the judgment, i.e., May 11, 2015.
On appeal, ConocoPhillips raises several challenges
to the trial court’s calculation of the amount of the
cotenancy accounting and payment awarded to the
Grandchildren. ConocoPhillips argues the trial court
erred in granting the Grandchildren’s summary judgment motion and making their requested adjustments
to the “net profits” cotenancy accounting that Sowards

App.50a
prepared on behalf of ConocoPhillips. ConocoPhillips
also argues the affidavit by attorney Luciano A.
Rodriguez which was attached to the Grandchildren’s
summary judgment motion should have been struck
on the basis that he was unqualified to testify about
Sowards’s cotenancy accounting. We begin with the
issue of whether Rodriguez’s affidavit was competent
summary judgment evidence on the accounting issue.
Affidavit of Luciano Rodriguez
In the trial court, ConocoPhillips moved to strike
Luciano Rodriguez’s affidavit because he had “no
professional accounting experience and no experience
in oil and gas accounting;” therefore, he was unqualified
to testify about errors in Sowards’s cotenancy
accounting. The motion to strike was denied. On
appeal, ConocoPhillips argues Rodriguez’s affidavit
should have been stricken for that reason (i.e., not
qualified), and because “an expert may not testify to
pure questions of law.” The second basis was not
raised in the trial court, and may not be raised for
the first time on appeal. See Tex. R. App. P. 33.1(a).
Turning to Rodriguez’s qualifications to testify
about the cotenancy accounting, Rodriguez recited in
his affidavit that he has been licensed as an attorney
since 1975, and has thirty-nine years’ experience
representing oil and gas companies and mineral
owners in “oil and gas title examination, transactions,
mediation, arbitration and litigation.” His legal services
have included examining title to determine ownership
issues pertaining to mineral interests, leases and
production, negotiating, drafting and applying lease
terms, and mediating disputes regarding oil and gas
properties. After discussing the title issue with regard

App.51a
to the Grandchildren’s mineral interests, Rodriguez
states he was asked to opine on “whether the royalty
burden in the cotenancy accounting prepared by
ConocoPhillips is correct.”
Rodriguez concluded that the royalty burden
charged to the Grandchildren was incorrect based on
oil and gas cotenancy law and his review of the
Grandchildren’s summary judgment motions on title
and the supporting evidence, the affidavit of
ConocoPhillips’s title expert Allen D. Cummings, two
division order title opinions, several royalty deeds
filed of record, and ConocoPhillips’s own calculations
of interests for each well. Rodriguez explained that,
based on his review of the title documents, there are
two types of royalties applicable to the Las Piedras
Ranch, and he explained the legal difference between
the two—a “basic royalty interest,” which arises out
of the subject leases and does not burden the unleased
cotenants’ share, and a “non-participating royalty
interest,” which arises out of a conveyance in the
chain of title and does burden the cotenants’ share.
See Heritage Res., Inc. v. NationsBank, 939 S.W.2d
118, 121 (Tex. 1996); see also Hamilton v. Morris Res.,
Ltd., 225 S.W.3d 336, 344 (Tex. App.—San Antonio
2007, pet. denied). Rodriguez concluded that Sowards’s
cotenancy accounting improperly charged all the
royalties ConocoPhillips paid under the Leases,
including the basic royalties which do not bind the
Grandchildren’s share, against the production.
Rodriguez also concluded there were three conveyances
of non-participating royalties by the Grandchildren’s
predecessors in the chain of title that properly burden
the Grandchildren’s share. Accordingly, Rodriguez
opined that, based on “simple arithmetic,” the royalty

App.52a
burden on the Grandchildren’s share for each of Well
Nos. 3 through 11 should be adjusted by deleting the
basic royalties paid by ConocoPhillips under the
Leases and applying only the non-participating
royalties against the Grandchildren’s share of production.
We conclude the trial court did not abuse its discretion in overruling ConocoPhillips’s objection to
Rodriguez’s affidavit. Gharda USA, Inc. v. Control
Sols., Inc., 464 S.W.3d 338, 347 (Tex. 2015); Chavez
v. Davila, 143 S.W.3d 151, 154 (Tex. App.—San
Antonio 2004, pet. denied). Rodriguez was qualified
as an expert in oil and gas law based on his experience
as detailed in his affidavit, and his opinion was
based on his knowledge of such legal principles as
applied to the pleadings and summary judgment evidence, the chain of title documents, and Conoco
Phillips’s own calculations of interest for each of the
wells produced during discovery. See Tex. R. Evid. 702,
703. As the Grandchildren state, Rodriguez was not
hired to prepare his own accounting, but rather to
review the royalty deeds in the title documents and
summarize the non-participating royalties applicable
to the Grandchildren’s share of production. Rodriguez
testified that his calculations of the proper royalty
burden were based on “a simple arithmetic calculation
based on the applicable conveyances and reservations
of royalty chargeable to Plaintiffs as ConocoPhillips
did in calculations which [it] produced in this case
pursuant to discovery requests.” We conclude it was
not necessary, in order for Rodriguez’s opinion to be
reliable, that Rodriguez be a certified public accountant
or oil and gas accountant, and for him to perform the
simple calculation to correct Sowards’s royalty calcu-

App.53a
lation by only including the royalty interests chargeable
to the Grandchildren’s interests based on oil and gas
law and the title documents.
Adjustments Made to ConocoPhillips’s Cotenancy
Accounting
The parties agree that the basic formula for
computation of the cotenancy accounting is the
proportionate market value of the minerals taken
less the proportionate necessary and reasonable costs
of producing and marketing the minerals. Wagner &
Brown, Ltd. v. Sheppard, 282 S.W.3d 419, 426 (Tex.
2008); Prize Energy, 345 S.W.3d at 564. ConocoPhillips
argues the trial court erred, however, by making the
following adjustments to Sowards’s “net profits”
cotenancy accounting: (i) starting the accounting on
ConocoPhillips’s acquisition date in January 1995
before the Grandchildren’s remainder interests vested
and became possessory interests; (ii) failing to allow
ConocoPhillips to deduct its acquisition costs for Well
Nos. 2 and 3 when the accounting was adjusted to
begin in January 1995; (iii) failing to allow
ConocoPhillips to claim the full 22.50% royalty
payments made to other lessors under the Leases as
costs chargeable to the Grandchildren’s share of
production; and (iv) failing to allow ConocoPhillips to
deduct its “allocable cost of capital” in the accounting
calculation.
With respect to the start date of the cotenancy
accounting, ConocoPhillips argues the trial court erred
in running the accounting from its January 1995
acquisition of the Leases rather than from November
2006, when Leon Oscar, Sr. died and the Grandchildren’s remainder mineral interests became possessory

App.54a
interests. ConocoPhillips relies on caselaw stating that
contingent remaindermen do not have a possessory
interest in property until the termination of the life
estate, and argues the Grandchildren were therefore
not entitled to a share of the net profits as cotenants
until they had a present right to possession. See
Enserch Exploration, 718 S.W.2d at 310 (life tenant
is entitled to exclusive possession and control over
the life estate property during his lifetime). However,
ConocoPhillips’s argument overlooks the point that
the Leases were never effective as to the Grandchildren’s contingent remainder mineral interests because
the Grandchildren did not execute the Leases. It is
the non-binding nature of the Leases that requires
the Grandchildren to be treated as unleased cotenants
from 1995 forward. See Cox, 397 S.W.2d at 201; see also
MCZ, 707 S.W.2d at 679. We conclude the proper
start date for the accounting is January 1995.
Second, ConocoPhillips argues that, when the
trial court adjusted the accounting to begin in 1995,
it should have allowed ConocoPhillips to deduct its
costs for acquiring from EOG the already-producing
Well No. 3 and the geological field information EOG
developed by drilling the dry-hole Well No. 2. None of
Sowards’s three accountings began in 1995, and
therefore he had not included those acquisition costs
in the accountings presented to the trial court. To the
extent ConocoPhillips is asserting it is entitled to
deduct its acquisition costs from the 1995 EOG
transaction, it failed to present the figures detailing
such acquisition costs to the trial court in its response
opposing the Grandchildren’s summary judgment
motion or at the hearing; therefore, the argument is
waived. See Tex. R. App. P. 33.1(a). To the extent that

App.55a
ConocoPhillips is arguing that it is entitled to deduct
the costs incurred by EOG in drilling Well Nos. 2 and
3 from the Grandchildren’s share of production, we
disagree. Just as ConocoPhillips is not burdened by
the revenue earned by EOG from Well No. 3 before
1995, it similarly is not entitled to deduct costs
incurred by EOG in drilling Well Nos. 2 and 3 before
1995. In his affidavit, Rodriguez noted that Well Nos.
2 and 3 were drilled by EOG prior to ConocoPhillips’s
acquisition of the Leases, and therefore EOG, not
ConocoPhillips, received the revenues or other benefits
from those wells and bore the expenses for those wells
prior to 1995. Further, we note that EOG separately
settled with the Grandchildren before the conclusion
of the case. We conclude the trial court did not err in
disallowing these costs in the cotenancy accounting it
adopted.
Third, ConocoPhillips argues the trial court erred
by eliminating the 22.50% royalty payments paid by
ConocoPhillips to other lessors under the Leases, which
should have been deducted as costs against the
production. In support, ConocoPhillips asserts that in
a “net profits” accounting, the industry standard
COPAS permit deduction of royalties from the gross
proceeds. However, that industry standard deduction
is premised on the existence of a valid lease whose
terms include the royalty. Rodriguez’s affidavit explains
why charging the basic royalty interest under the
Leases against the Grandchildren’s unleased-cotenants’
interest is improper—because the Leases do not bind
the Grandchildren’s mineral interests. Only the nonparticipating royalties paid by ConocoPhillips to the
other lessors properly bind the Grandchildren’s share
of production. Because the 22.50% royalty calculation

App.56a
encompassed the basic royalties owed under the Leases,
it was properly excluded.
Fourth, ConocoPhillips argues the trial court
erred in disallowing interest as part of its “monthly
weighted average cost of capital” as a deduction in
Sowards’s accounting. In its brief, ConocoPhillips
acknowledges the Texas Supreme Court’s 1965 holding
in Cox v. Davison that interest may not be deducted
from revenues in a cotenancy accounting, but argues
the opinion is wrong because “[i]nterest on capital is
a cost of developing the field.” See Cox, 397 S.W.2d at
203. As an intermediate appellate court, we are bound
to follow the rule in Cox until such time as it may be
overturned.
Based on the above analysis, we conclude the
trial court did not err in making the adjustments to
ConocoPhillips’s cotenancy accounting.
Attorneys’ Fees Award
As noted, supra, after all the substantive claims
were disposed of by summary judgment, the trial
court held a bench trial on attorneys’ fees. The final
judgment awards attorneys’ fees against ConocoPhillips
in the amount of $1,125,000 each to Leon, Jr. and
Minerva “for the attorneys’ fees incurred by [them]
as a result of the work of [their] lawyers in [the trial
court], the work of [their] attorneys in original proceedings in the Court of Appeals and the Supreme
Court and the work of [their] attorneys in interlocutory
appeal in the Court of Appeals.” In addition, the trial
court entered lengthy and detailed findings of fact
and conclusions of law in support of its attorneys’
fees award.

App.57a
On appeal, ConocoPhillips argues the trial court
erred in awarding any attorneys’ fees to the Grandchildren because they are not recoverable on a trespass
to try title claim. As to the amount of attorneys’ fees
awarded, ConocoPhillips argues (i) the evidence is
insufficient to support the amount, (ii) the trial court
abused its discretion in applying a 3x multiplier
to offset the contingent fee agreement, and (iii) the
trial court abused its discretion by disregarding the
testimony of ConocoPhillips’s expert on attorneys’
fees. We begin with the issue of the Grandchildren’s
right to recover their attorneys’ fees.
Right to Recover Attorneys’ Fees
With respect to the right to recover attorneys’
fees, ConocoPhillips argues that a trespass to try
title claim does not support an award of attorneys’
fees and “cannot be bootstrapped under the guise of
the Declaratory Judgments Act.” See Martin, 133
S.W.3d at 267. However, the Grandchildren also
prevailed on their claim to recover oil and gas
production proceeds under Chapter 91 of the Texas
Natural Resources Code, for which attorneys’ fees
are recoverable. See Tex. Nat. Res. Code Ann. § 91.406
(West 2011). We have previously addressed this precise
issue in a case in which a trespass to try title claim
was brought along with a Natural Resources Code
claim to recover the unpaid share of oil and gas proceeds. As here, the plaintiffs prevailed on both claims
and we held that attorneys’ fees were recoverable
under Natural Resources Code section 91.406. See
Prize Energy, 345 S.W.3d at 570-71. Accordingly, we
overrule ConocoPhillips’s challenge to the Grandchildren’s right to recover attorneys’ fees.

App.58a
Amount of Attorneys’ Fees Awarded
As to the amount of attorneys’ fees awarded, the
trial court entered twenty pages of very detailed
findings of fact and conclusions of law in support of
its award of attorneys’ fees against ConocoPhillips.
The court detailed the entire history of the litigation,
explaining that it was a unique case made more
complex by ConocoPhillips’s tactics and attempted
appeals and original mandamus proceedings to the
court of appeals as well as the Supreme Court during
the litigation. The trial court further stated that it
applied the 3x multiplier as an attempt to make the
Grandchildren whole given their contingency fee
arrangement with their sole trial attorney, Alberto
Alarcon, who was pitted against multiple attorneys
for ConocoPhillips. The trial court noted that the
Grandchildren’s trial attorney and appellate attorney
kept detailed time records and filed motions efficiently,
in contrast to ConocoPhillips’s team of eight attorneys
who over-filed motions, motions to reconsider,
attempted appeals, etc. The trial court further found
that the two plaintiffs’ attorneys properly segregated
their time, to the extent feasible. The trial court
expressly stated on page 4 of its findings of fact that,
“the Court finds that it was necessary for Plaintiffs’
recovery to establish ownership of the minerals in
question . . . [and] that it is not necessary, if not
impossible, to segregate time and labor invested
pursuing the claims under the Texas Natural Resources
Code § 91.401 thru [sic] 91.409 from the time and

App.59a
labor invested in pursuing equitable and common law
accounting claims and trespass-to-try-title claims.”12
We conclude that the record contains legally and
factually sufficient evidence to support the trial court’s
monetary award as reasonable and necessary. See
Tex. Nat. Res. Code Ann. § 91.406 (authorizing the
award of “reasonable” attorneys’ fees); see also Prize
Energy, 345 S.W.3d at 571 (award of attorneys’ fees
of $900,000 was reasonable in action by mineral
interest purchaser to recover unpaid oil and gas proceeds under the statute, where attorneys’ fees expert
testified that issues were relatively complex and required sophisticated oil and gas attorneys, multiple
hearings were held, and plaintiffs had to expend
considerable effort defeating numerous defenses and
counterclaims). As to the application of the 3x
multiplier, the trial court had discretion to apply the
multiplier in an attempt to make the Grandchildren
whole in view of their contingent fee agreement with
their trial attorney during the four-year-plus litigation
of the case.
Finally, as to ConocoPhillips’s complaint that the
trial court disregarded its expert’s testimony about
attorneys’ fees, the trial court was the fact finder in
the bench trial and the sole judge of the credibility of
the witnesses and weight of the evidence. Lemus v.
Aguilar, 491 S.W.3d 51, 59 (Tex. App.—San Antonio
2016, no pet.). The court was therefore entitled to
take into consideration its knowledge of all the facts
and surrounding circumstances of the litigation in
12 On appeal, ConocoPhillips does not separately complain about
a lack of segregation, only the sufficiency of the evidence to support the monetary award.

App.60a
evaluating the testimony on what constituted a reasonable amount of attorneys’ fees. Id. Based on the
record before us, we conclude the trial court did not
abuse its discretion in awarding attorneys’ fees of
$1,125,000 each to Leon, Jr. and Minerva. See Bocquet
v. Herring, 972 S.W.2d 19, 21 (Tex. 1998).
Pre-Judgment Interest and Other Errors in the
Judgment
In connection with the cotenancy accounting
amount, the judgment awarded each of the Grandchildren the sum of $951,546 as prejudgment
interest from the date of Leon Oscar, Sr.’s death on
November 27, 2006 until March 20, 2015, plus a
$283.63 per diem from March 20, 2015 until May 11,
2015, the date of the judgment. Section 91.402 of the
Natural Resources Code designates the time periods
by which payments of oil and gas proceeds must be
made, and section 91.403 specifically mandates the
application of interest to untimely payments. See
Tex. Nat. Res. Code Ann. §§ 91.402(a), 91.403(a).
ConocoPhillips argues the trial court erred in assessing
interest under the Natural Resources Code because
the case involved a legitimate title dispute. See Tex.
Nat. Res. Code Ann. § 91.402(b) (permitting payments
to be withheld without incurring interest when there
is a legitimate title dispute). As to the legitimacy of
ConocoPhillips’s assertions of a title dispute, the trial
court made an express finding that, “the Court finds
that there was no legitimate title dispute in this
case.” In addition, upon review of the chain of title
documents, we have concluded there was no ambiguity
in Leonor’s Will with respect to the Grandchildren’s
contingent remainder mineral interest and that title
to the collective 1/4 mineral interest vested in them

App.61a
when their father died in November 2006. We conclude
the trial court did not err in applying interest to the
unpaid gas proceeds owed to the Grandchildren, as
stated in the judgment.
In addition, ConocoPhillips briefly asserts there
are other errors in the final judgment that require
correction. ConocoPhillips complains that a legal
description and map of Las Piedras Ranch are attached
as Exhibits A and B to the judgment, asserting they
were not attached to the Grandchildren’s summary
judgment motion on title. ConocoPhillips’s complaint
is without merit. The judgment refers to multiple
public record sources for the description of Las Piedras
Ranch, including the two Exhibits A and B which
were attached to a Partial Release of Oil and Gas
Lease executed by Conoco, Inc., predecessor to ConocoPhillips, and filed in the public records of Zapata
County.
ConocoPhillips further complains of language in
the judgment stating that, “to the extent the oil and
gas leases and the stipulation of interest above mentioned constitute a cloud on the title to said mineral
interests of Minerva Clementina Ramirez and Leon
Oscar Ramirez, Jr. such cloud is hereby ordered
removed.” ConocoPhillips also complains that the
judgment declares that Minerva and Leon, Jr. are
each “fee simple” owners of 1/12 of the minerals
underneath Las Piedras Ranch. Neither statement is
improper. The statements fall within the scope of the
Grandchildren’s request for declaratory relief that
they each fully own a 1/12 mineral interest in Las
Piedras Ranch and that their 1/12 each mineral
interest is not burdened by the Leases.

App.62a
Finally, ConocoPhillips asserts the judgment
improperly requires it to prepare a future accounting
for the Grandchildren because they did not plead or
move for such relief, and because “a court should not
decree future contractual performance by requiring
a party to perform a continuous series of acts . . .
over which the court exercises its supervision.” See
Cytogenix, Inc. v. Waldroff, 213 S.W.3d 479, 487 (Tex.
App.—Houston [1st Dist.] 2006, pet. denied). Specifically, the challenged portion of the judgment orders
ConocoPhillips13 to provide Leon, Jr. and Minerva “a
cotenancy accounting, and corresponding payments [to
them] after November 1, 2012 for the total production
[from Las Piedras Ranch],” and further states that
such accounting should be made on the “basis of the
value of the minerals produced, plus interest provided by law, less cost of production and marketing
of the minerals.” In making its complaint about the
future accounting requirement, ConocoPhillips ignores
the prior statement in the judgment that, “[t]he
Court finds that the cotenancy accounting provided
by ConocoPhillips Company was only up to the end of
October 2012 and was not supplemented as agreed
by ConocoPhillips Company.” Therefore, it is clear
that the court was merely ordering the supplemental
cotenancy accounting from November 2012 forward
that ConocoPhillips had previously agreed to provide
but failed to do. ConocoPhillips also argues that the
13 ConocoPhillips also complains that the requirement for an
additional cotenancy accounting is improper because it has now
sold the Leases. The judgment provides for that situation, however, because it requires any “successors and assigns” of
ConocoPhillips to provide the additional cotenancy accounting
to which the Grandchildren are entitled.

App.63a
judgment’s statement that it “shall not constitute a
bar under any theories of res judicata, collateral
estoppel or other legal theories” is improper because
a court may not dictate the preclusion consequences
of its own judgment. ConocoPhillips represents that
the trial court was improperly attempting to define the
res judicata effect of its own judgement. However,
read in context and not in isolation, that language in
the judgment only pertains to the supplemental cotenancy accounting, and not to the judgment as a whole
as suggested by ConocoPhillips. The actual statement
by the trial court was that “the accuracy and correctness of said accounting after November 1, 2012 are
not the subject of adjudication in this case and are
not adjudicated in this case and this judgment shall not
constitute a bar under any theories of res judicata,
collateral estoppel or other legal theories to a future
adjudication of the accuracy or correctness of the
accounting of production from the subject lands.”
With respect to ConocoPhillips’s last two complaints about the judgment, as to the judgment’s
award of relief directly to Minerva Ramirez, instead
of to the guardian acting on her behalf, the judgment
will be reformed to correct that clerical error. Last,
ConocoPhillips challenges the judgment’s award of
all the Grandchildren’s costs against it. As to the
costs incurred against EOG before settlement,
ConocoPhillips does not identify any costs that were
incurred by the Grandchildren only with regard to
EOG. As to costs incurred on Rosalinda’s behalf, they
were also incurred on the Grandchildren’s behalf. By
failing to set forth the specific costs it seeks to avoid,
ConocoPhillips has waived this issue.

App.64a
Conclusion
Based on the foregoing analysis, we overrule
ConocoPhillips’s issues on appeal. The judgment will
be reformed to correct the clerical error in which it
awards relief directly to Minerva Clementina Ramirez,
instead of to her guardian Jesus M. Dominguez, as
Guardian of the Estate of Minerva Clementina
Ramirez, an Incapacitated Person.
Appeal by Rodolfo Ramirez
and El Milagro Minerals, Ltd.
Rodolfo Ramirez and El Milagro Minerals, Ltd.
(collectively referred to as “Rodolfo”) filed a separate
notice of appeal, challenging the final judgment on
many of the same bases as ConocoPhillips.14 Rodolfo’s
position in the lawsuit is aligned with ConocoPhillips.
He makes the same argument that Leonor’s Will
only devised a life estate in her 1/2 interest in the
surface estate of Las Piedras Ranch to Leon Oscar,
Sr. and therefore Leonor’s 1/4 mineral interest passed
under the residuary clause of her Will to her children,
Rodolfo, Ileana, and Leon Oscar, Sr. in equal shares,
i.e., 1/12 mineral interest each. Specifically, on appeal
Rodolfo asserts the trial court erred in: (1) denying
his motion for summary judgment on the affirmative
defenses of limitations, release, ratification and
estoppel; (2) denying his motion for partial summary
judgment based on will construction/title; and (3)
granting the Grandchildren’s partial summary judgment motion on trespass to try title and declaring
14 The Grandchildren dismissed all their claims against Rodolfo
Ramirez and El Milagro Minerals, Ltd., except for their
trespass to try title claim.

App.65a
they collectively own the disputed 1/4 mineral interest
in Las Piedras Ranch and declaring the leases
ineffective as to those mineral interests.15 The arguments in Rodolfo’s brief are substantially the same as
ConocoPhillips’s arguments. Having examined those
issues in depth, supra, we similarly reject them as to
Rodolfo.
The only separate issue raised by Rodolfo on
appeal is the trial court’s denial of his summary judgment motion on the affirmative defense of release
based on a settlement agreement Leon, Jr. entered
into with Rodolfo in an October 2007 lawsuit. In that
2007 lawsuit, Leon, Jr., acting in his capacity as coexecutor of Leon Oscar, Sr.’s estate as well as individually, sued Rodolfo and his wife Elia seeking to set
aside a quitclaim deed allegedly executed by Leon
Oscar, Sr. in which he quitclaimed all his interest in
“his lands in Zapata County” to Rodolfo. The case
settled with one of the settlement terms including
rescission of the quitclaim deed by Rodolfo. Rodolfo
moved for summary judgment in this case based on
an argument that, by executing the 2007 settlement
agreement, Leon, Jr. had released all claims against
Rodolfo pertaining to Leon Oscar, Sr.’s property
interests. Our review of the settlement agreement
shows that its scope does not cover the claims
brought by Leon, Jr. in this lawsuit. The settlement
agreement only releases claims that “grow out of the
subject of the Lawsuit,” defined as the suit
challenging the quitclaim deed. In order to release a
15 In their cross-appellant’s brief, Rodolfo Ramirez and El Milagro
refer to the mineral interest granted to the Grandchildren as a
“1/2” undivided interest, rather than a 1/12 undivided mineral
interest as stated in the Final Judgment.

App.66a
claim, the release document must mention the specific
claim to be released. See Victoria Bank & Trust Co.
v. Brady, 811 S.W.2d 931, 938 (Tex. 1991) (any
claims not clearly within the subject matter of the
release are not discharged). We therefore conclude
the trial court properly denied summary judgment
on the release defense raised by Rodolfo.
Conclusion
Based on the foregoing analysis, we overrule the
issues raised by ConocoPhillips and Rodolfo Ramirez
and El Milagro Minerals, Ltd., and affirm the trial
court’s judgment in its entirety, except for the reformation necessary to correct the judgment’s award of relief
directly to Minerva Clementina Ramirez individually,
rather than to Jesus M. Dominguez, in his capacity
as Guardian of the Estate of Minerva Clementina
Ramirez, an Incapacitated Person.
/s/ Rebeca C. Martinez
Justice

App.67a
JUDGMENT OF THE
FOURTH COURT OF APPEALS
(JUNE 7, 2017)
FOURTH COURT OF APPEALS
SAN ANTONIO, TEXAS
________________________
CONOCOPHILLIPS COMPANY,
RODOLFO C. RAMIREZ, Individually and as
Independent Administrator of The Estate of Ileana
Ramirez, and El Milagro Minerals, Ltd.,

Appellants,
v.
LEON OSCAR RAMIREZ, JR., Individually,
and JESUS M. DOMINGUEZ, as Guardian of
The Estate of Minerva Clementina Ramirez,
an Incapacitated Person,

Appellees.
________________________
No. 04-15-00487-CV
From the 49th Judicial District Court,
Zapata County, Texas, Trial Court No. 7,637
Honorable Jose A. Lopez, Judge Presiding
Before: Karen ANGELINI, Marialyn BARNARD,
and Rebeca C. MARTINEZ, Justices.
In accordance with this court’s opinion of this date,
the trial court’s judgment is REFORMED to correct

App.68a
its award of relief directly to Minerva Clementina
Ramirez individually, rather than to Jesus M.
Dominguez, in his capacity as Guardian of the Estate
of Minerva Clementina Ramirez, an Incapacitated
Person. The judgment is otherwise AFFIRMED AS
REFORMED.
It is ORDERED that appellees Leon Oscar
Ramirez, Jr., Individually, and Jesus M. Dominguez,
as Guardian of the Estate of Minerva Clementina
Ramirez, an Incapacitated Person, recover their costs
of appeal from appellants ConocoPhillips Company,
Rodolfo C. Ramirez, Individually and as Independent
Executor of the Estate of Ileana Ramirez, Deceased,
and El Milagro Minerals, Ltd.
SIGNED June 7, 2017.
/s/ Rebeca C. Martinez
Justice

App.69a
ORDER OF THE FOURTH COURT OF APPEALS
DENYING MOTION FOR REHEARING
(AUGUST 29, 2017)
FOURTH COURT OF APPEALS
SAN ANTONIO, TEXAS
________________________
CONOCOPHILLIPS COMPANY,

Appellants,
v.
LEON OSCAR RAMIREZ, JR., Individually,
and JESUS M. DOMINGUEZ,
as Guardian of Minerva Clementina Ramirez,
an Incapacitated Person, Individually,

Appellees.
________________________
No. 04-15-00487-CV
From the 49th Judicial District Court,
Zapata County, Texas, Trial Court No. 7,637
Honorable Jose A. Lopez, Judge Presiding
Before: Karen ANGELINI, Marialyn BARNARD,
and Rebeca C. MARTINEZ, Justices.
The panel has considered the appellants’ Rodolfo
C. Ramirez and El Milagro Minerals, LTD.’s motion
for rehearing, and the motion is DENIED.
/s/ Rebeca C. Martinez
Justice

App.70a
IN WITNESS WHEREOF, I have hereunto set
my hand and affixed the seal of the said court on this
29th day of August, 2017.
/s/ Luz Estrada
Chief Deputy Clerk

App.71a
ORDER OF THE FOURTH COURT OF
APPEALS DENYING APPELLANTS
MOTION FOR REHEARING
(SEPTEMBER 15, 2017)
FOURTH COURT OF APPEALS
SAN ANTONIO, TEXAS
________________________
CONOCOPHILLIPS COMPANY,

Appellants,
v.
LEON OSCAR RAMIREZ, JR., Individually,
and JESUS M. DOMINGUEZ,
as Guardian of Minerva Clementina Ramirez,
an Incapacitated Person, Individually,

Appellees.
________________________
No. 04-15-00487-CV
From the 49th Judicial District Court,
Zapata County, Texas, Trial Court No. 7,637
Honorable Jose A. Lopez, Judge Presiding
Before: Karen ANGELINI, Rebeca C. MARTINEZ,
and Marialyn BARNARD Justices.
PER CURIAM
The panel has considered the Motion for Rehearing
filed by Appellant ConocoPhillips Company, and the
motion is DENIED.

App.72a
It is so ORDERED on September 15, 2017.
ATTESTED TO:
/s/ Keith E. Hottle
Clerk of Court

App.73a
ORDER OF THE FOURTH COURT OF APPEALS
DENYING APPELLANTS MOTION
FOR REHEARING EN BANC
(SEPTEMBER 14, 2017)
FOURTH COURT OF APPEALS
SAN ANTONIO, TEXAS
________________________
CONOCOPHILLIPS COMPANY,
RODOLFO C. RAMIREZ, Individually and as
Independent Administrator of the Estate of Ileana
Ramirez, and El Milagro Minerals, Ltd.,

Appellants,
v.
LEON OSCAR RAMIREZ, JR., Individually, and
JESUS M. DOMINGUEZ, as Guardian of Minerva
Clementina Ramirez, an Incapacitated Person,

Appellees.
________________________
No. 04-15-00487-CV
From the 49th Judicial District Court,
Zapata County, Texas, Trial Court No. 7,637
Honorable Jose A. Lopez, Judge Presiding
Before: Sandee Bryan MARION, Chief Justice.,
Karen ANGELINI, Marialyn BARNARD,
Rebeca C. MARTINEZ, Patricia O. ALVAREZ,
Luz Elena D. CHAPA1, Irene RIOS Justices.
1 Not participating.

App.74a

PER CURIAM
The Court has considered the Motion for Reconsideration En Banc filed by Appellant ConocoPhillips
Company, and the motion is DENIED.
IN WITNESS WHEREOF, I have hereunto set my
hand and affixed the seal of the said court on this
14th day of September, 2017.
/s/ Keith E. Hottle
Clerk of Court

App.75a
FINAL JUDGMENT OF THE 49TH JUDICIAL
DISTRICT COURT OF ZAPATA COUNTY, TEXAS
(MAY 11, 2015)
IN THE DISTRICT COURT OF
ZAPATA COUNTY, TEXAS
49TH JUDICIAL DISTRICT
________________________
LEON OSCAR RAMIREZ, JR., Individually,
and JESUS M. DOMINGUEZ, as Guardian for
MINERVA CLEMENTINA RAMIREZ,
an Incapacitated Person, Individually,

Plaintiffs,
v.
CONOCOPHILLIPS COMPANY,
EOG RESOURCES, INC., EL MILAGRO
MINERALS, LTD., AND RODOLFO C. RAMIREZ,
Individually and as Independent Executor of
THE ESTATE OF ILEANA RAMIREZ, DECEASED.

Defendants.
________________________
Cause No. 7,637
Before: The Hon. Jose A. LOPEZ, Judge.
On the 24th day of January 2012 the Court held
a hearing on Minerva Clementina Ramirez’ Amended
Motion for Partial Summary Judgment (filed on
December 14, 2011) and on Leon Oscar Ramirez Jr.’s

Amended Motion for Partial Summary judgment

App.76a
(filed on December 27, 2011). The Court considered
those motions, the responses thereto, special exceptions
and objections, filed before the summary judgment
hearing of January 24, 2012. The Court overruled all
special exceptions and objections and the Court hereby
orders that the special exceptions and objections are
overruled. The Court granted the above mentioned
amended motions for partial summary judgment
ordering and decreeing, and the Court hereby orders
and decrees, that Leon Oscar Ramirez, Jr. is the fee
simple owner of 1/12 of the minerals and Minerva
Clementina Ramirez is the fee simple owner of 1/12
of the minerals underneath the 1058 acres of land
situated in Zapata County, Texas and known as Las
Piedras Ranch located on Porciones 21 and 22, and
more particularly described on the attached Exhibits
“A” and “B” which are made part hereof an incorporated
herein by reference. Those lands are also described
in: 1) Stipulation of Interest Ownership of the Mineral
Estate, dated July 6, 1997, and recorded as instrument
no. 108972 in Volume 576, Pages 685-686 of the Real
Property Records of Zapata County, Texas; 2) Oil and
Gas Lease dated July 1, 1993, between Palmyra
Minerals, Ltd, et al. as (“Lessors”) and Enron Oil &
Gas Company (“Lessee”), Memorandum (Amended)
of which is recorded as instruments no. 99910 and
99909, in Volume 509, Pages 638-642, and Volume
509, Pages 633-637, respectively, in the Real Property
Records of Zapata County, Texas; 3) Oil & Gas Lease
dated July 1, 1993, between Palmyra Minerals, Ltd,
et al. (“Lessors”) and Enron Oil & Gas Company
(“Lessee”), Memorandum (Amended) of which is
recorded as instrument no. 99911, in Volume 509,
Pages 643-647, in the Real Property Records of
Zapata County, Texas; and, 4) Oil & Gas Lease dated

App.77a
October 24, 1997, between Palmyra Minerals, Ltd, et
al. (“Lessors”) and Conoco, Inc. (“Lessee”), Memorandum of which is recorded as instrument no. 113451,
in Volume 596, Pages 535-538, in the Real Property
Records of Zapata County, Texas. In granting the
above mentioned amended motions for summary judgment the Court also ordered and decreed, and hereby
orders and decrees, that the oil and gas leases above
mentioned are not binding and are ineffective against
the above mentioned mineral interests of Minerva
Clementina Ramirez and Leon Oscar Ramirez, Jr. In
granting the above mentioned amended motions for
summary judgment the Court also ordered and
decreed, and hereby orders and decrees, that to the
extent the oil and gas leases and the stipulation of
interest above mentioned constitute a cloud on the
title to said mineral interests of Minerva Clementina
Ramirez and Leon Oscar Ramirez, Jr. such cloud is
hereby ordered removed.
The Court also held a hearing on Plaintiffs’
Motion for Partial Summary Judgment ( On

Cotenancy Accounting, Made, Adopted and Admitted
by Conoco Phillips) (filed on May 27, 2014). On
December 2, 2014, after considering special
exceptions, objections and response to that motion,
the Court granted the motion and hereby orders that
the motion is granted.
Regarding the cotenancy accounting, the Court
also held a hearing on ConocoPhillips Company’s
motion for partial summary judgment on the subject
of alleged bad faith cotenancy, the subject of which
was part of ConocoPhillips Company’s Motion for

Partial Summary judgment on Will Construction,
Estoppel, Ratification and Alleged Bad Faith Cotenancy

App.78a
(filed on June 9, 2014). Regarding the cotenancy
accounting, the Court also held a hearing on Rodolfo
C. Ramirez’, in his various capacities, and El Milagro
Minerals, Ltd.’s motion for partial summary judgment
on the alleged bad faith Cotenancy, the subject of
which was part of Rodolfo C. Ramirez .individually

and as the Independent Executor of the Estate of
Ileana Ramirez and EI Milagro Minerals, Ltd.’s Motion
for Partial Summary Judgment on Will Construction,
Estoppel, Ratification, and Alleged Bad Faith
Cotenancy (filed on September 5, 2014), although
Plaintiffs were not demanding an accounting from
Rodolfo Ramirez in any of his various capacities, El
Milagro Minerals, Ltd. or the Estate of Ileana Ramirez,
as cotenants. On December 2, 2014, after considering
all special exceptions, objections and responses to
said motions, the Court granted both motions for
partial summary judgment but only to the extent of
the subject of bad faith cotenancy. It is, therefore,
ordered that ConocoPhillips Company is entitled to
deduct production and marketing costs.
The Court finds that the cotenancy accounting
provided by ConocoPhillips Company was only up to
the end of October 2012 and was not supplemented
as agreed by ConocoPhillips Company. Therefore, the
Court orders, adjudges and decrees that Minerva
Clementina Ramirez have and recover of and from
ConocoPhillips Company the sum of Three Million
Seven Hundred Sixty Four Thousand Four Hundred
Eighty Nine and 00/100 Dollars ($3,764,489.00) as
the amount due Minerva Clementina Ramirez as of
the end of October 2012, together with prejudgment
interest of $951,546.00, which was computed from
November 27, 2006 until March 20, 2015, plus a per

App.79a
diem of $283.63 from March 20, 2015 until the date
of this judgment. It is further ordered that Minerva
Clementina Ramirez have and recover of and from
ConocoPhillips Company attorneys’ fees in the amount
of $1,125,000.00, for the attorneys’ fees incurred by
her as a result of the work of her lawyers in this
Court, the work of her attorneys in original proceedings
in the Court of Appeals and the Supreme Court and
the work of her attorneys in interlocutory appeal in
the Court of Appeals.
It is further adjudged and decreed that ConocoPhillips, its successors and assigns are ordered to provide a cotenancy accounting, and corresponding payments to Minerva Clementina Ramirez after November 1, 2012, for the total production from the lands
described in Exhibits A and B. It is further ordered
that the accounting hereby ordered shall be made on
the basis of the value of the minerals produced, plus
interest provided by law, less cost of production and
marketing of the minerals. It is further ordered that
the accuracy and correctness of said accounting after
November 1, 2012 are not the subject of adjudication
in this case and are not adjudicated in this case and
this judgment shall not constitute a bar under any
theories of res judicata, collateral estoppel or other
legal theories to a future adjudication of the accuracy
or correctness of the accounting of production from
the subject lands.
The Court finds that the cotenancy accounting
provided by ConocoPhillips Company was only up to
the end of October 2012. Therefore the Court orders,
adjudges and decrees that Leon Oscar Ramirez, Jr.
have and recover of and from ConocoPhillips Company
the sum of Three Million Seven Hundred Sixty Four

App.80a
Thousand Four Hundred Eighty Nine and 00/100
($3,764,489.00) as the amount due Leon Oscar Ramirez,
Jr. as of the end of October 2012, together with prejudgment interest of $951,546.00, which was computed
from November 27, 2006 until March 20, 2015, plus a
per diem of $283.63 from March 20, 2015 until the
date of this judgment. It is further ordered that Leon
Oscar Ramirez, Jr. have and recover of and from
ConocoPhillips Company attorneys’ fees in the amount
of $1,125,000.00, for the attorneys’ fees incurred by
him as a result of the work of his lawyers in this
Court, the work of his attorneys in original proceedings in the Court of Appeals and the Supreme Court
and the work of his attorneys in interlocutory appeal
in the Court of Appeals.
It is further adjudged and decreed that ConocoPhillips, its successors and assigns are ordered to
provide a cotenancy accounting, and corresponding
payments to Leon Oscar Ramirez, Jr. after November
1, 2012, for the total production from the lands
described in the attached Exhibits A and B. It is further ordered that the accounting hereby ordered shall
be made on the basis of the value of the minerals
produced, plus interest provided by law, less cost of
production and marketing of the minerals. It is further ordered that the accuracy and correctness of
said accounting after November 1, 2012 are not the
subject of adjudication in this case and are not adjudicated in this case and this judgment shall not
constitute a bar under any theories of res judicata,
collateral estoppel or other legal theories to a future
adjudication of the accuracy or correctness of the
accounting of production from the subject lands.

App.81a
This judgment disposes of Minerva Clementina
Ramirez’ and Leon Oscar Ramirez, Jr.’s claims for
trespass-to-try title claims and accounting, under
equitable principles, the common law and the Texas
Natural Resources Code §§ 91.401 thru 91.408, with
the exception of the correctness and accuracy of future
accountings after November 1, 2012.
The Court finds that all claims, disputes and
differences between Plaintiffs Leon Oscar Ramirez, Jr.,
Rosalinda Ramirez Eckhardt, and Minerva Clementina
Ramirez, by and through her Legal Guardian, Jesus
M. Dominguez, and EOG Resources, Inc. have been
fully compromised and settled and the Court has
entered orders disposing of those claims.
The rest of the claims, counterclaims, third-party
claims, cross-claims, or third-party counterclaims, as
asserted in the pleadings, including claims regarding
the correctness and accuracy of future accountings
after November 1, 2012, are hereby severed from the
claims disposed by this judgment into a separate and
distinct case. The Clerk of the Court is ordered to
assign a separate case number to the severed action.
Therefore, this judgment disposes of all claims and
parties remaining after severance, nonsuit or settlement, and, it is intended to be and it is a final and
appealable judgment.
All costs of court incurred expended or incurred
in this cause by Leon Oscar Ramirez, Jr. and Minerva
Clementina Ramirez are adjudged against ConocoPhillips Company. It is further ordered that all amounts
due under this judgment shall earn post judgment
interest at the rate provided in Tex. Finance Code
§ 304.003(c).

App.82a
All writs and processes for the enforcement and
collection of this judgment or the costs of court shall
issue.
Signed on this 11day of May, 2015, in Zapata,
Texas.
/s/ Hon. Jose A. Lopez
Judge of the 48th District Court
of Zapata County, Texas

App.83a
EXHIBIT A TO JUDGMENT
698.45 acres of Las Piedras Ranch, more or less,
located in Zapara County, Texas, and being:
All of Share Two (2) out of Porcion NO. 22,
Abstract 71, in accordance with partition decree
entered by the 111th District Court of Webb
County in Cause No. 8096, containing 373.22
acres of land, more or less; and
The most northeasterly 325.23 acres in Porcion
21, Abstract No. 71, Original Grantee, Isabel
Maria Sanchez, containing 645.23 acres, more or
less, being described as all of Parcel Z-112.27-B
containing 644.23 acres, and all or parcel Z112.28-B containing 1.00 acre, said parcels being
more particularly described in a Plat entitled
“Plat of Porcion 21, Zapata County”, made by the
International Boundary & Water Commission,
recorded in Volume 2 at page 128, of the Map
Records of Zapata County, Texas, less and except
the most southwesterly 320 acres, adjacent to
said 325.23 acre tract, in said Porcion 21,
Abstract No. 81, which were expressly retained
and excepted from that Partial Release of Oil
and Gas Lease dated January 11, 1993 and
recorded in Volume 469, Pages 102-103 of the
Official Public Records of Zapata County, Texas.
Said 698.45 acres contain within the following
retained and created units, in Partial Release of
Oil and Gas Lease recorded in Volume 643,
Pages 629-649 (attached hereto as Exhibit 1):

App.84a
•

Retained Unit No. 1 where the ConocoPhillips
Company L.O. Ramirez “A” Well No. 5 is
located;

•

Retained Unit No. 2 where the ConocoPhillips
Company L.O. Ramirez “A” Well No. 7 is
located;

•

Retained Unit No. 3 where the ConocoPhillips
Company L.O. Ramirez “A” Wells 4, 6 and 10
are located;

•

Retained Unit No. 4 where the ConocoPhillips
Company L.O. Ramirez “A” Well No. 11 is
located; and,

•

Retained Unit No. 5 where the ConocoPhillips
Company L.O. Ramirez “A” Well No. 9 is
located.

App.85a
EXHIBIT 1 TO EXHIBIT A TO JUDGMENT
PARTIAL RELEASE OF OIL GAS LEASE
________________________
STATE OF TEXAS
COUNTY OF ZAPATA
WHEREAS, Palmyra Minerals, Ltd., a Texas
Limited Partnership acting herein by and through
Felicidad Ramirez de Perez and Gilberto Perez, Jr.
as General Partners. Felicidad Ramirez de Perez,
Individually, Ileana Ramirez, Individually and as Independent Executors of the Estate of Leonor V. Ramirez.
Rodolfo C. Ramirez, Individually and as Trustee of
Rodolfo C. Ramirez Trust, and Leon O. Ramirez,
individually and as Trustee of the Leon O. Ramirez
Trust entered into in Oil and Gas Lease as “Lessor”
with Enron Oil & Gas Company, as “Lessee”, dated
July 1, 1993, a memorandum of which is recorded in
Volume 483, Pages 531-535 of the Official Records of
Zapata County, Texas covering 658.45 acres of land,
more or less. (herein referred to as “Lease”) and;
WHEREAS, Conoco Inc. is the current Lessor of
the Lease;
NOW, THEREFORE, Conoco Inc., whose address
is P.O. Box 2187, Houston, Texas 77252-2197, as
Lessee does hereby Release, Relinquish and surrender
all of its right and, interest and estate in the Lease.
SAVE AND EXCEPT that certain acreage designated
as Retained Units number 1 through 5 as shown
and described on Sheet 1 of 10 through Sheet 10 of
10 attached hereto and more particularly described
as follows:

App.86a
Retained Unit No. 1
This unit shall consist of 160 acres of land, more
or less, entitled to those depths lying from the
surface of this ground down to 100 feet below the
stratigraphic equivalent of the base of the Wilcox
formation 7,550 feet sand. The base of the Wilcox
formation 7,483 feet sand to found at 10,160 less
measured depth (MD) on the electric log for the
Conoco Inc., L.O. Ramirez “A” Well No. 5. This 160
acre tract is shown on sheet 1 of 10 and is described
in Sheet 2 to 10 attached hereto. The Conoco Inc. L.O.
Ramirez “A” West No. 6 is situated upon its tract.
Retained Unit No. 2
This unit shall consist of 89.96 acres of land,
more or less, entitled to those depths lying from the
surface of the ground down to 100 feet below the
stratigraphic equivalent of the base of the Wilcox
formation 7,483 feet sand. The base of the Wilcox
formation 7,483 feet sand is found at 10,160 feet
measured depth (MD) on the electric log for the
Conoco Inc., L.O. Ramirez “A” Well No. 7. This 89.96
acre tract is shown on the sheet 3 of 10 and is
described in Sheet 4 of 10 attached hereto. The Conoco
Inc. L.O. Ramirez “A” Well No. 7 is situated upon this
tract.
Retained Unit No. 3
This unit shall consist of 132.17 acres of land,
more or less, entitled to those depths lying from the
surface of the ground down to 100 feet below the
stratigraphic equivalent of the base of the Wilcox
formation 8,150 feet sand. The base of the Wilcox
formation 8,150 feet sand is found at 10,160 feet

App.87a
measured depth (MD) on the electric log for the
Conoco Inc., L.O. Ramirez “A” Well No. 10. This
132.17 acre tract is shown on sheet 5 of 10 and is
described in Sheet 6 of 10 attached hereto. The
Conoco Inc. L.O. Ramirez “A” Well No. 4, 6 and No.
10 are situated upon this tract.
Retained Unit No. 4
This unit shall consist of 159.98 acres of land,
more or less, entitled to those depths lying from the
surface of the ground down to 100 feet below the
stratigraphic equivalent of the base of the Wilcox
formation 8,150 feet sand. The base of the Wilcox
formation 8,150 feet sand is found at 11,230 feet
measured depth (MD) on the electric log for the
Conoco Inc., L.O. Ramirez “A” Well No. 11. This
159.98 acre land is shown on the sheet 7 of 10 and is
described in Sheet 8 of 10 attached hereto. The
Conoco Inc. L.O. Ramirez “A” Well No. 11 is situated
upon this tract.
Retained Unit No. 5
This unit shall consist of 99.93 acres of land,
more or less, entitled to those depths lying from the
surface of the ground down to 100 feet below the
stratigraphic equivalent of the base of the Wilcox
formation 7,483 feet sand. The base of the Wilcox
formation 7,483 feet sand is found at 11,214 feet
measured depth (MD) on the electric log for the
Conoco Inc., L.O. Ramirez “A” Well No. 8. This 99.93
acre land is shown on the sheet 9 of 10 and is
described in Sheet 10 of 10 attached hereto. The
Conoco Inc. L.O. Ramirez “A” Well No. 9 is situated
upon this tract.

App.88a
Lessor hereby affirms all of its consisting rights
and interest in the Lease to the full extent. It affects
the above referenced unit designations.
EXECUTED THIS 21st days of December 2000.
CONOCO INC.
By
/s/ Barbara A. Sheedlo
Title Attorney-in-fact
Name Barbara A. Sheedlo
STATE OF TEXAS
COUNTY OF HARRIS
BEFORE ME, the undersigned authority, on this
day personally appeared Barbara A. Sheedlo, Attorneyin-Fact of CONOCO INC., a corporation know to me
to be the person whose name is subscribed to the
foregoing instrument, and acknowledged to me that
he executed the same for the purpose and considerations therein expressed, in the capacity therein stated,
and as the act and deed of the said corporation.
GIVEN UNDER MY HAND AND SEAL OF
OFFICE this 21 day of December 2000.
/s/ {illegible}
Notary Public, State of Texas
My commission expires: 10-25-01

App.89a
CONOCO INC., RETAINED UNIT 1
A 160.00 Acre Retained Unit, Situated in Leon O.
Ramirez “A” 698.45 Acre Lease, Being Out of, Porcion
22, Abstract 71, Joaquin Pena, Zapata County, Texas

App.90a
HOWLAND SURVEYING CO. INC., USA
HOWLAND ENGINEERING & SURVEYING COMPANY
Oil and Gas Location Surveys * Boundary Surveys
* City Lot Surveys * Engineering and Planning
CONOCO INC.
RETAINED UNIT 1
160.00 Acre Unit
Zapata County, Texas
________________________
A 160.00 acre retained unit, situated in Leon O.
Ramirez “A” 698.45 acre lease, being out of Porcion 22,
Abstract 71, Joaquin Pena, Zapata County, Texas.
Beginning at a point which bears North 06 degrees
40 minutes 08 seconds East, a distance of 902.98 feet
from the Ramirez No. 5 Gas Well for the most northerly
corner hereof.
• Thence South 35 degrees 33 minutes 09 seconds
East, a distance of 2132.69 feet, to the easterly
corner hereof;
• Thence South 54 degrees 18 minutes 53 seconds
West, a distance of 2664.60 feet, for a point of
deflection hereof;
• Thence South 54 degrees 23 minutes 09 seconds
West, a distance of 337.93 feet, to the most
southerly corner hereof;
• Thence North 35 degrees 31 minutes 51 seconds
West, a distance of 2309.94 feet, to the most westerly
corner hereof;

App.91a
• Thence North 53 degrees 53 minutes 09 seconds
East, a distance of 2643.63 feet, to a point of deflection hereof;
• Thence North 53 degrees 34 minutes 36 seconds
East, a distance of 358.16 feet to the Point of Beginning and containing 160.00 acres of land, more or
less.

App.92a
CONOCO INC., RETAINED UNIT 2
A 89.96 Acre Retained Unit, Situated in Leon O.
Ramirez “A” 698.45 Acre Lease, Being Out of, Porcion
22, Abstract 71, Joaquin Pena, and Porcion 21, Abstract
81, Isabel Maria Sanchez, Zapata County, Texas

App.93a
HOWLAND SURVEYING CO. INC., USA
HOWLAND ENGINEERING & SURVEYING COMPANY
Oil and Gas Location Surveys * Boundary Surveys
* City Lot Surveys * Engineering and Planning
CONOCO INC.
RETAINED UNIT 2
89.96 Acre Unit
Zapata County, Texas
________________________
A 89.96 acre retained unit, situated in Leon O.
Ramirez “A” 698.45 acre lease, being out of Porcion
22, Abstract 71, Joaquin Pena, and Porcion 21, Abstract
81, Isabel Maria Sanchez, Zapata County, Texas.
Beginning at a point which bears North 01 degrees
57 minutes 57 seconds East, a distance of 129.77 feet
from the Ramirez No. 6 Gas Well for the north corner
hereof.
• Thence South 35 degrees 36 minutes 53 seconds
East, a distance of 2892.76 feet, to the east corner
hereof;
• Thence South 53 degrees 54 minutes 22 seconds
West, a distance of 1357.36 feet, to the south corner
hereof;
• Thence North 35 degrees 33 minutes 09 seconds
West, a distance of 2892.88 feet, to the west corner
hereof;
• Thence North 53 degrees 54 minutes 36 seconds
East, a distance of 1353.14 feet, to the Point of
Beginning and containing 89.96 acres of Land,
more or less;

App.94a
CONOCO INC., RETAINED UNIT 3
A 132.17 Acre Retained Unit, Situated in Leon O.
Ramirez “A” 698.45 Acre Lease, Being Out of, Porcion
22, Abstract 71, Joaquin Pena, and Porcion 21, Abstract
81, Isabel Maria Sanchez, Zapata County, Texas

App.95a
HOWLAND SURVEYING CO. INC., USA
HOWLAND ENGINEERING & SURVEYING COMPANY
Oil and Gas Location Surveys * Boundary Surveys
* City Lot Surveys * Engineering and Planning
CONOCO INC.
RETAINED UNIT 3
132.17 Acre Unit
Zapata County, Texas
________________________
A 132.17 acre retained unit, situated in Leon O.
Ramirez “A” 698.45 acre lease, being out of Porcion 22,
Abstract 71, Joaquin Pena, and Porcion 21, Abstract
81, Isabel Maria Sanchez, Zapata County, Texas.
Beginning at a point which bears North 25 degrees
34 minutes 49 seconds West, a distance of 454.16 feet
from the Ramirez No. 6 Gas Well for the west corner
hereof.
• Thence North 53 degrees 53 minutes 09 seconds
East, a distance of 1846.76 feet, to the north corner
hereof;
• Thence South 35 degrees 36 minutes 51 seconds
East, a distance of 2363.33 feet, to an exterior corner
hereof;
• Thence South 54 degrees 23 minutes 09 seconds
West, a distance of 83.74 feet, to an interior corner
hereof;
• Thence South 14 degrees 44 minutes 00 seconds
East, a distance of 242.78 feet, to a point of deflection hereof;

App.96a
• Thence South 14 degrees 23 minutes 00 seconds
East, a distance of 698.57 feet, to the southeast
corner hereof;
• Thence South 53 degrees 54 minutes 22 seconds
West, a distance of 1423.47 feet to the south corner
hereof.
• Thence North 35 degrees 36 minutes 53 seconds
West, a distance of 3237.12 feet to the Point of
Beginning and containing 132.17 acres of land,
more or less.

App.97a
CONOCO INC., RETAINED UNIT 4
A 159.98 Acre Retained Unit, Situated in Leon O.
Ramirez “A” 698.45 Acre Lease, Being Out of, Porcion
21, Abstract 81, Isabel Maria Sanchez, Zapata County,
Texas

App.98a
HOWLAND SURVEYING CO. INC., USA
HOWLAND ENGINEERING & SURVEYING COMPANY
Oil and Gas Location Surveys * Boundary Surveys
* City Lot Surveys * Engineering and Planning
CONOCO INC.
RETAINED UNIT 4
159.98 ACRE UNIT
ZAPATA COUNTY, TEXAS
________________________
A 159.98 acre retained unit, situated in Leon O.
Ramirez “A” 698.45 acre lease, being out of Porcion 21,
Abstract 81, Isabel Maria Sanchez, Zapata County,
Texas.
Beginning at a point which bears South 88 degrees
25 minutes 14 seconds East, a distance of 486.00 feet
from the Ramirez No. 11 Gas Well for the west corner
hereof;
• Thence North 54 degrees 18 minutes 53 seconds
East, a distance of 2664.60 feet, to the north corner
hereof;
• Thence South 35 degrees 33 minutes 09 seconds
East, a distance of 2616.37 feet, to the east corner
hereof;
• Thence South 54 degrees 18 minutes 53 seconds
West, a distance of 2662.43 feet, to the south corner
hereof;
• Thence North 35 degrees 36 minutes 00 seconds
West, a distance of 2616.37 feet, to the Point of
Beginning and containing 159.98 acres of land, more
or less.

App.99a
CONOCO INC., RETAINED UNIT 5
A 99.93 Acre Retained Unit, Situated in Leon O.
Ramirez “A” 698.45 Acre Lease, Being Out of, Porcion
21, Abstract 81, Isabel Maria Sanchez, Zapata County,
Texas

App.100a
HOWLAND SURVEYING CO. INC., USA
HOWLAND ENGINEERING & SURVEYING COMPANY
Oil and Gas Location Surveys * Boundary Surveys
* City Lot Surveys * Engineering and Planning
CONOCO INC.
RETAINED UNIT 5
99.93 ACRE UNIT
ZAPATA COUNTY, TEXAS
________________________
A 99.93 acre retained unit, situated in Leon O.
Ramirez “A” 698.45 acre lease, being out of Porcion 21,
Abstract 81, Isabel Maria Sanchez, Zapata County,
Texas.
Beginning at a point which bears South 06 degrees
03 minutes 55 seconds East, a distance of 1913.33 feet
from the Ramirez No. 7 Gas Well for the west corner
hereof.
• Thence North 53 degrees 54 minutes 22 seconds
East, a distance of 2739.74 feet, to the north corner
hereof;
• Thence South 14 degrees 23 minutes 00 seconds
East, a distance of 628.04 feet, to a point of deflection hereof;
• Thence South 26 degrees 36 minutes 00 seconds
East, a distance of 526.75 feet, to a point of deflection hereof;
• Thence South 26 degrees 13 minutes 00 seconds
East, a distance of 563.11 feet, to a point of deflection hereof;

App.101a
• Thence South 02 degrees 50 minutes 00 seconds
West, a distance of 90.66 feet, to an exterior corner
hereof;
• Thence South 54 degrees 18 minutes 53 seconds
West, a distance of 2323.21 feet, to the south corner
hereof;
• Thence North 35 degrees 33 minutes 09 seconds
West, a distance of 1711.81 feet, to the Point of
Beginning and containing 99.93 acres of land,
more or less.

The State of Texas
County of Zapata
I hereby certify that this instrument was filed
for record in my office this the 5th day of January
A.D. 2001 at 2:11 o’clock P.M. and was recorded in
the Official Records in Volume 643 pages 629-641
Consuelor Villarreal
County Clerk
Zapata, Texas
By: /s/ {illegible}
Deputy

App.102a
EXHIBIT B TO JUDGMENT
Located in Zapata County, Texas and being the most
southwesterly 320 acres of Las Piedras Ranch,
adjacent to the northeasterly 325.23 tract described
in Exhibit A to this judgment, in Porcion 21, Abstract
No. 81, the whole tract containing 645.23 acres, more
or less, being described as of all of Parcel Z-112.27-B
containing 644.23 acres, and all of parcel Z-112.28-B
containing 1.00 acre, said parcels being more particularly described in a Plat entitled “Plat of Porcion 21,
Zapata County”, made by the International Boundary
and Water Commission, recorded in Volume 2 at page
128, of the Map Records of Zapata County, Texas,
save and except to the depth of 100 feet below the
stratigraphic equivalent depth of 10,430 feet from
the surface of the ground as seen on the dual induction
log for the Enron (ARCO)-L.O. Ramirez No.1 Well,
said interval having been retained in Partial Release
of Oil and Gas Lease, Instrument 93069 in Volume
460, pages 102-103 of the Real Property Records of
Zapata County, Texas. Said 320 acres is where Conoco
Phillips Company L.O. Ramirez Wells 3 and 8 are
located.

App.103a
FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(JUNE 29, 2015)
IN THE DISTRICT COURT OF
ZAPATA COUNTY, TEXAS
49TH JUDICIAL DISTRICT
________________________
LEON OSCAR RAMIREZ, JR., Individually,
and JESUS M. DOMINGUEZ, as Guardian for
MINERVA CLEMENTINA RAMIREZ,
an Incapacitated Person, Individually,

Plaintiffs,
v.
CONOCOPHILLIPS COMPANY,
EOG RESOURCES, INC., EL MILAGRO
MINERALS, LTD., and RODOLFO C. RAMIREZ,
Individually and as Independent Executor of
THE ESTATE OF ILEANA RAMIREZ, DECEASED.

Defendants.
________________________
Cause No. 7,637
Before: The Hon. Joe LOPEZ, Judge.
On April 19, 2015, the Court held a hearing to
consider Plaintiffs’ claim for attorneys’ fees. The
Plaintiffs, Leon Oscar Ramirez, Jr. (“Leon Oscar Jib)
and Jesus M. Dominguez, as Guardian fox Minerva
Clementina Ramirez (“Minerva”), an incapacitated

App.104a
person, and Defendant, ConocoPhillips Company
(“ConocoPhillips”), agreed to waive a jury on the claim
of attorneys’ fees and to try it to the Court.
On May 11, 2015, the Court signed a final judgment awarding $1,125,000.00 in attorneys’ fees to
Minerva and $1,125,000.00 in attorneys’ fees to Leon
Oscar Jr, against ConocoPhillips. The Court has subject matter jurisdiction in this case and finds venue
to be proper.
On May 18, 2015, ConocoPhillips requested the
Court file findings of fact and conclusions of law in
support of the Court’s award of attorneys’ fees. The
Court makes the following findings of fact and conclusions of law in support of the attorneys’ fees award
based on the evidence, testimony, and arguments
presented at the March 19, 2015, heating, as well as
having taken judicial notice of the entire court’s file.1
Findings of Fact
1. This case was litigated for over four years.
During this time, Plaintiffs defended multiple

1 This includes, without limitation, the docket sheet, each docket
sheet entry, each pleading and other documents on file, motions,
applications, briefs, case law and statutes cited to the Court,
letters, issues raised, summary judgment evidence, accountings,
all orders entered, and all evidence presented and arguments
made, proffered, or adduced at hearings, copies of briefs, as well
as other documents filed and orders issued in interlocutory appeal
to the Fourth Court of Appeals, copies of applications, briefs,
other documents filed and orders issued in original mandamus
proceeding in the Fourth Court of Appeals, and copies of applications, briefs, other documents and orders filed in original
mandamus proceeding in the Supreme Court.

App.105a
attempted appeals and original appellate proceedings
by ConocoPhillips, none of which were successful.
2. Despite the amount in controversy, Plaintiffs
were represented by a single attorney at. the trial
court level, Alberto Alarcon. Mr. Alarcon maintained
contemporaneous time records that itemized specific
tasks he performed for his clients, the time required
for those tasks, the rate charged and a total value.
These time records were sufficiently detailed and
consistent with the Court’s own knowledge of the
case as reflected in the case file. Although some of the
time entries were redacted in order to protect attorney
work product and privileged communications, the
redactions did not prevent the Court from evaluating
the services performed or the hours expended.
3. Mr. Alarcon also properly segregated the time
and labor invested by him on claims fox which
recovery of attorneys’ fees is not allowed. Specifically,
during the period of October 2010 through December
2014, and, before doing any segregation of time and
labor for claims for which no award of attorneys’ fees
is allowed, Attorney Alberto Alarcon on labored 2,442
hours in this case, including defending multiple
appeals. Segregating the time and labor for claims
for which no award of attorneys’ fees is allowed,
Attorney Alberto Alarcon labored 2,273 hours in this
case related to those claims for which fees may be
recoverable. The 2,273 hours were necessary for a
successful representation of Plaintiffs. In reaching
this finding, the Court observes and finds:
a.

The claims and issues in this case fall in
three distinct categories. One category
involves the Texas Natural Resources Code
Chapter 91/trespass-to-try title/accounting

App.106a
claims. Within these claims, the case involved
the issue of good faith/bad faith between
cotenants, as that claim related to whether
the producing cotenant would be allowed to
deduct cost of production and marketing in
its accounting. The second distinct category
involved a number of claims sounding in
tort. The third category involved the issue
of the Court’s subject matter jurisdiction, as
that issue was presented all the way to the
Supreme Court
b.

Plaintiffs asserted claims against two defendants and a third set of defendants. The first
two defendants were ConocoPhillips and EOG
Resources, Inc. (“EOG”). The third set of
defendants, who came to be referred to as
the Ramirez Defendants, were Rodolfo C.
Ramirez, individually and as executor of the
Estate of Ileana Ramirez, Deceased, and El
Milagro Minerals, Ltd. (a limited partnership who was a successor in interest to
Rodolfo C. Ramirez).

c.

EOG Resources, Inc. was an unleased
cotenant of the Plaintiffs for a very short
period of time and for a small amount of
production from late 1993 thru the end of
1994. EOG held oil and gas leases on the
subject lands from Plaintiffs’ cotenants. In
1995, ConocoPhillips succeeded to the interest
of BOG. Rodolfo C. Ramirez and his now
deceased sister Ileana Ramirez were two of
more grantors of the subject leases and
claimed to be owners of a possibility of
reverter of part of Plaintiffs’ interest in the

App.107a
land. All defendants were claimed to be
recipients of proceeds from production from
the subject lands, BOG and ConocoPhillips,
as lessees from Plaintiffs’ cotenants and as
Plaintiffs’ unleased cotenants, and Rodolfo
Ramirez and the late Deana Ramirez as
lessors in their own right and as purported
owners/lessors of Plaintiffs’ interest in the
lands. The bulk of the production went to
Conoco Phillips.
d.

Plaintiffs’ claims against all defendants were
identical with the exception of the Texas
Natural Resources Code Chapter 91/trespassto-try title/accounting claims and the trespassto-try-title claim of Rosalinda Ramirez Echardt FOG was claimed to have received a
small amount of the production as an
unleased cotenant of Plaintiffs from one well
for a short period of time between November
1993 and December 1994, while ConocoPhillips received all production as Plaintiffs’
unleased cotenant after January 1995 until
the present. A very small portion of the production claimed by Plaintiffs was paid to
Rodolfo C. Ramirez and the late Ileana
Ramirez and successors, supposedly as a
royalty. Unlike Minerva and Leon Oscar Jr,
Rosalinda Ramirez Echardt signed ratifications of the subject oil and gas leases, and,
thus, her claims involved setting aside those
ratifications. Eventually, BOG settled with
Plaintiffs and Rosalinda Ramirez Echardt
nonsuited all her claims. Plaintiffs also nonsuited all their claims against the Ramirez

App.108a
Defendants, except the trespass-to-try title
claims.
e.

The 2,273 base hours segregates, as much as
is feasible, the tort claims, the claim regarding
good/bad faith between cotenants, and the
claim of Rosalinda Ramirez Echardt regarding her ratifications of the subject leases.

f.

Regarding Alberto Alarcon’s time and labor
involved in the claims under Texas Natural
Resources Code §§ 91.401 thru 91.409, the
Court finds that it was necessary for Plaintiffs’
recovery to establish ownership of the minerals in question. The Court finds that it is
not necessary, if not impossible, to segregate
time and labor invested pursuing the claims
under the Texas Natural Resources Code
§§ 91.401 thru 91.409 from the time and labor
invested in pursuing equitable and common
law accounting claims and trespass-to-try-title
claims. The time and labor invested pursuing
one claim is the same time and labor invested
in pursuing any of the others.

g.

Regarding the time and labor invested by
Alberto Alarcon pursuing claims under the
Natural Resources Code §§ 91.401 thru 91.409
against all defendants and the time and
labor, which was the same, invested by
Alberto Alarcon pursuing claims of equitable
and common law accounting claims and
trespass-to-try-title claims, the Court finds
that all defendants pursued a joint defense,
many times, if not always, ConocoPhillips
Company leading the charge by filing a
motion or application just to be followed by

App.109a
an identical, if not very similar, motion or
application by the other Defendants. Invariably, the Plaintiffs efficiently responded by
fling a combined response.
h.

The segregation of time and labor involved
as to claims and parties performed by Alberto
Alarcon is a reasonable and fair estimate of
the time and labor that should have been
segregated. It is also the finding of the
Court that the Court’s file, as described in
footnote 1 above, corroborates the testimony
of Alberto Alarcon and the findings of the
Court.

i.

The testimony of Allison W. Haynes is disregarded as conclusory and inconsistent with
the record and the knowledge the Court has
of this case and the Court’s file.

4. ConocoPhillips presented its jurisdictional
challenge all the way to the Texas Supreme Court,
requiring Plaintiffs to retain an appellate practitioner
with experience before that Court The appellate
attorney, Lisa Hobbs, labored 193 hours defending
the proceeding during the period of August 2013
through December 2013. Given the nature of the
challenge, Ms. Hobbs had no duty to segregate her
time as her services supported all claims, whether
attorneys’ fees were recoverable or non-recoverable
for some. The hours Ms. Hobbs worked in the case
were necessary.
5. Although the Court finds that there was no
legitimate title dispute in this case, the case was fax
from routine. The Court concludes, based on its own
experience on the bench and with this case in partic-

App.110a
ular, that the complicated, albeit undisputed, facts of
the case, the jurisdictional challenges, the voluminous and repeated summary judgment motions and
collateral attack on previous rulings made on summary judgment motions, made this case an exceptionally difficult one. Whether the services were in
response to action taken by an opposing party and
whether the action taken by an opposing party had
any merit is interrelated to the novelty and difficulty
of the questions involved and the necessity of the
services. Regarding these factors and other interrelated
factors of novelty and difficulty of the questions
involved and the necessity of the services, the Court,
by way of example, makes the following findings
regarding some of the questions involved in the case,
including, without limitation:
a.

In December 2011 Minerva and Leon Oscar
Jr. filed their respective Amended Motions
for Partial Summary Judgment The motions
specifically requested summary judgment
that the mineral interest of each was a 1/12
undivided mineral interest devised to them
in Leonor V. Ramirez’ will. The motions also
requested judgment that the oil and gas
leases relied on by ConocoPhillips were
invalid as to their respective mineral interest.
ConocoPhillips and the other defendants
responded on January 5 and 6, 2012. The
hearing on the amended motions for summary
judgment was held on January 24, 2012.
The motions were granted on December 6,
2012. The summary judgment of December
6, 2012 decreed that Minerva and Leon Oscar
Jr. were the owners of 1/6 of the minerals

App.111a
(1/12 each) and that the 1993 and the 1997
leases were invalid as to their interest
b.

In their responses to the amended motions
for partial summary judgment, none of the
Defendants questioned the plain meaning of
the will and the Court applied its plain
meaning. Therefore, it was undisputedly
established that Minerva’s and Leon Oscar
Jr.’s title in the minerals the subject of the
Final Judgment, was devised to them in
Clause VI of the will:
I give, devise, and bequeath to my son,
LEON OSCAR RAMIREZ, all of my
right, title and interest in and to Ranch
“Las Piedras” out of Porciones 21 & 22,
and situated in Zapata County, Texas,
and during the term of his natural life.
Upon the death of my son, LEON
OSCAR RAMIREZ, the title shall vest
in his children then Living in equal
shares.

c.

As part of their amended motions for partial
summary judgment Minerva and Leon Oscar
Jr. presented a 1997 letter from Conoco
Phillips to Rodolfo C. Ramirez in which
ConocoPhillips acknowledged the same plain
meaning that Plaintiffs presented and which
was accepted by the Court as undisputed
unambiguous language. ConocoPhillips’ letter
stated in pertinent part:
At the time of Leonor’s death she owned
a 1/2 interest in the surface of Las
Piedras Ranch and 1/4 of the minerals.

App.112a
(The Ramirez family owns a 1/2 mineral
interest in the Las Piedras Ranch so
Leonor owned 1/2 x 1/2 = 1/4).
Under paragraph VI. of Leonor’s Will
she conveyed all of her right, title and
interest in and to the “Las Piedras
Ranch” to Leon Oscar Ramirez during
the term of his natural life and upon
his death to his surviving children.
d.

After the summary judgment hearing of
January 24, 2012, and notwithstanding the
acknowledged and undisputed plain meaning
of the will, ConocoPhillips began asserting
that the case was a “will construction” suit
by filings a plea to the jurisdiction. Fifteen
months after suit was filed, and almost 9
months after it asked the Court for judgment
in its favor, ConocoPhillips filed its plea to
the jurisdiction, on February 15, 2012,
claiming the case was a “probate proceeding”
that must be heard in the Webb County
Court at Law No. 1, where the will was
admitted to probate on April 26, 1990. By
this time, the parties had been litigating
the case for so long that they were within
90 days of trial.

e.

ConocoPhillips nor any of the other defendants sought leave of court to add any evidence or to bring forth any argument or
issue to the summary judgment record that
the will had a different meaning than the
one presented by Plaintiffs and acknowledged
and unopposed by ConocoPhillips and the
other defendants.

App.113a
f.

After the December 6, 2012, partial summary
judgment, ConocoPhillips filed an interlocutory appeal and it also sought mandamus
relief in the Fourth Court of Appeals and in
the Supreme Court, on the premise that the
case was all about the construction of the will
and claiming that the Court lacked subject
matter jurisdiction to construe the will.
Mandamus relief was denied by the Fourth
Court of Appeals and the Supreme Court.
The Fourth Court of Appeals dismissed the
interlocutory appeal for lack of jurisdiction.
In denying a motion for rehearing, the
Fourth Court of Appeals held that this Court
was not exercising probate jurisdiction, but
it did not decide whether this Court would
have lacked subject matter jurisdiction if its
exercise of jurisdiction was characterized,
partially, in total, pendent or ancillary, as
probate.

g.

In response to Plaintiffs’ amended motions for
summary judgment ConocoPhillips presented
the “open mine” doctrine as a defense.
ConocoPhillips argued that the open mine
doctrine applied and presented a lease
signed by Leonor V. Ramirez on October 6,
1983 under which the LO Ramirez No. 1
was drilled in the mid-80s, before Leonor’s
death. However, the Court finds that said
lease was superseded by a lease dated April
26, 1990, and that the lease and the land it
held were released by FOG Resources, Inc.
in January 11, 1993, except 320 acres to the
depth of 10,530 feet, precisely to keep LO

App.114a
Ramirez No. 1 under that lease, which Plaintiffs expressly stated they were not
challenging to the extent not released.
h.

In response to Minerva’s amended motion
for partial summary judgment ConocoPhillips
argued that her father, brother and sister
were her de facto guardians, because they
took care of hex and handled her social
security disability benefits. ConocoPhillips
argued that her father as her de facto
guardian could bind her to oil and gas leases.
ConocoPhillips also argued that because she
had de facto guardians any applicable
statute of limitations should run against
her via her de facto guardians. The Court
finds that such propositions advanced by
ConocoPhillips are not supported by any
authority.

i.

In response to the amended motions for
partial summary judgment ConocoPhillips
argued that Plaintiffs improperly excused
their father for wasting their contingent interest in the corpus of the life estate and that
ConocoPhillips had already paid their father
what belongs to the Plaintiffs. There is no
authority stating that Plaintiffs’ failure to
sue their father or his estate is a defense to
Plaintiffs’ Natural Resources Code/accountings/
trespass-to-try title claims. Furthermore, each
of the Plaintiffs’ claims is for 8.33% of the
minerals as an unleased cotenant and not
for any overpayment of royalties, based on
an erroneous ownership interest, to their
father, uncle and aunt.

App.115a
j.

The Court also finds that paying royalties
to Ileana Ramirez and Rodolfo C. Ramirez
on the basis of a 1/6 ownership each was
erroneous, but Plaintiffs are not seeking
royalties. They claim as unleased cotenants.
Thus, this finding is made in relation to the
correct percentage ownership of the subject
minerals.

k.

The Court finds that Leon Juan Ramirez and
his sister Felicidad Ramirez de Perez owned
a 1/2 undivided interest in the minerals in the
subject lands. In 1952 Leon Juan Ramirez
gifted in equal shares to his wife Leonor V.
Ramirez and children, Leon Oscar Sr., Ileana
and Rodolfo a 1/2 non-participating royalty
interest for a 1/16 non-participating royalty
interest to each, in the subject land.

l.

In his will, Leon Juan Ramirez left 1/2 of
his interest in the subject minerals to his
wife Leonor, or 1/4 of the total. He left the
other half in the minerals (1/4 of the total)
to his three children, Leon Oscar Sr., Ileana
and Rodolfo (1/12 to each).

m. Leonor V. Ramirez left her interest in the
subject lands to his son Leon Oscar Sr. for
life, and upon his death to his surviving
children. ConocoPhillips correctly delivered
to Leon Oscar Sr., during his life, the 1/16
non-participating royalty given to Leonor V.
Ramirez by her husband in 1952. Therefore,
ConocoPhillips correctly delivered royalty
(participating and non-participating) to Leon
Oscar Sr. during his life on the basis of 1/6
(Leon Oscar Sr.’s NPRI of 1/16 given to him

App.116a
by his father in 1952 + Leonar’s NPRI of
1/16 given to her by her husband in 1952 +
the interest inherited by Leon Oscar Sr.
from his father, a 1/24 (1/3 of 1/4 burdened
by the 1/2 NPRI burden) (1/16/+1/15+1/24=
8/48 or 1/6).
n.

Although the leases of 1993 purport to have
been signed by Ream Ramirez bath individually and in her capacity as independent
executrix of the estate of Leonor V. Ramirez,
the leases show on their face that they were
detrimental to the estate of Leonor V.
Ramirez, and not in any way for the benefit
of the estate of Leonor V. Ramirez. The
leases attribute ownership and commit to pay
all lease benefits on the basis of 1/6 ownership
to each Ileana Ramirez, individually and as
independent executrix, Leon Oscar Ramirez,
and Rodolfo C. Ramirez. But the estate of
Leonor V. Ramirez had a 1/4 ownership
interest in the minerals, not a mere 1/6 to
be distributed to Ileana Ramirez, individually and as executrix. Each, Ileana Ramirez,
Leon Oscar Ramirez, Sr. and Rodolfo C.
Ramirez, only owned individually a 1/12 in the
minerals, plus the non-participating royalty
given to them by their father in 1952.

o.

There is no evidence that the granting of
the leases was to pay debts of the estate of
Leonor V. Ramirez or of any other condition
that would have authorized the leases, especially when the consideration was not to be
paid to the estate of Leonor V. Ramirez. In
fact, there were no debts of the estate of

App.117a
Leonor V. Ramirez and there was no evidence
of any debts.
p.

All lease benefits were paid to Deana Ramirez,
Leon Oscar Ramirez, Sr. and Rodolfo C.
Ramirez, individually, and on the basis of a
1/6, as if each owned 1/6, and nothing was
paid to the estate of Leonor V. Ramirez. There
was no evidence that any lease benefits were
paid to the estate of Leonor V. Ramirez.

q.

ConocoPhillips even had a stipulation of
interest drafted and signed by Ileana Ramirez,
Leon Oscar Sr. and Rodolfo C. Ramirez
stating that each owned 1/6 of the minerals,
and, thus, that nothing was owned by the
estate of Leonor V. Ramirez or her devisees
under Clause VI of the will. Moreover,
ConocoPhillips removed the estate of Leonor
V. Ramirez in its internal documentation
from any ownership of the minerals. In the
third lease, Ileana Ramirez did not even
purport to sign as independent executrix.

r.

The will left Plaintiffs’ minerals to them in
undivided interests. The will does not provide
a means to partition the minerals. Ileana
Ramirez did not ask the probate court for
either a partition in kind or by sale. The oil
and gas leases are, in effect, a sale, and, in
this case without any payment of consideration to the estate of Leonor R. Ramirez
or to the devisees under the will. Rather, all
lease payments were made directly by ConocoPhillips to non-devisees of the subject land
under the will, leans Ramirez, Rodolfo C.
Ramirez and ConocoPhillips Company.

App.118a
s.

The original life tenant or the assignee of
his life tenancy interest, ConocoPhillips, had
a very limited right to receive investment
income of the proceeds from corpus.

t.

In response to Minerva’s Amended Motion
for Partial Summary Judgment defendants
did not claim or present any evidence of
ratification or estoppel against Minerva
Clementina Ramirez.

u.

Leon Oscar Jr. did not sign any ratifications
of the subject leases and he did not authorize
anyone to sign the ratifications for him.
Defendants did not present any evidence
that Leon Oscar signed the ratifications or
authorized anyone to sign the ratifications
fox him. The ratifications were signed by
Leon Oscar Sr.

v.

The subject leases were not recorded in the
public records. The memoranda of the oil
and gas leases recorded do not establish any
details of the oil and gas leases. Leon Oscar
Jr. did not see or know the contents of the
subject oil and gas leases until they were
produced in this case. There is no evidence
that Leon Oscar r. knew what the oil and
gas leases stated prior to the oil and gas
leases being produced in this case.

w.

Leon Oscar Sr. had his own fee simple interest
in minerals in the subject lands which he
inherited under his father’s will. Leon Oscar
Sr. also held a 1/16 non-participating royalty
interest given to him by his father in 1952.
In addition, Leon Oscar Sr. was paid the

App.119a
1/16 non-participating royalty given to Leonor
V. Ramirez by her husband in 1952. While
he had the right to possess the corpus of the
1/16 non-participating royalty interest once
belonging to Leonor V. Ramirez, he had the
duty to preserve such corpus for the remaindermen under the life estate created in
Clause VI of the will. The failure to preserve
such corpus of the 1/16 non-participating
royalty interest once belonging to Leonor V.
Ramirez has the effect of creating a liability
for Leon Oscar Sr. in favor of the remaindermen. The recognition of such indebtedness
by the executors of the Leon Oscar Sr.’s
estate is not a ratification of the subject
leases. The outstanding non-participating
royalty is not a benefit of the subject leases.
x.

Even the receipt of proceeds from production
by Leon Oscar Sr. in excess of his own
interest in the subject t lands might create
liability to other owners whose interest was
diminished, not because other owners are
entitled to royalties under the leases, but
simply because they are owners of the gas
or their proceeds. The recognition of such
debt by the executors of the Estate of Leon
Oscar Sr. is not a ratification of the leases.
On contrary, it is a repudiation of the leases.
The claim is not for participating royalties
under the lease, but simply for gas proceeds
belonging to them as owners.

y.

Because Leon Oscar Sr. had his own fee
simple interest in the subject lands and was
a lessor in his own right, the execution by

App.120a
his executors, on behalf of his decedent’s
estate, of a division order does not constitute
a ratification of the leases by the executors
in their individual capacity for their own
interest inherited from their grandmother.
Moreover, the evidence is that they did not
know what the leases stated. Moreover, a
division order is not a ratification as a matter
of law because it only operates prospectively.
z.

Although ConocoPhillips claimed that the
original inventory filed by the executors of
the estate of Leon Oscar Sr. in his probate
proceeding estopped the executors individually to deny that they had no interest in the
estate of Leonor V. Ramirez, ConocoPhillips’
own evidence of amended inventories, filed by
the executors and approved by the probate
court, establishes that they are not estopped
to claim an interest in the estate of Leonor
V. Ramirez. Moreover, the original inventory
is not specific enough to give it the meaning
defendants advanced, but even if it was,
those statements have been corrected with
the approval of the probate court.

aa. The statements made by Leon Oscar Jr. in
the lawsuit against Rodolfo Ramirez only
referred to Leon Oscar Sr.’s own interest in
the land and not to the interest inherited by
Leon Oscar Jr. from his grandmother Leonor
V. Ramirez. The main purpose of that lawsuit was to set aside a quitclaim deed
allegedly given by Leon Oscar Sr. to Rodolfo
C. Ramirez for the former’s interest in Las
Piedras Ranch which did not include the

App.121a
interest left in the will to Leon Oscar Jr,
Leon Oscar St could not have conveyed
more to Rodolfo C. Ramirez than what he
owned. Statements regarding Leon Oscar
Sr.’s possession as against Rodolfo C.
Ramirez’s claim by virtue of the quitclaim
deed are not statements of his ownership of
other owner’s interests, such as Plaintiffs or
even Rodolfo C. Ramirez’ own interest in
Las Piedras Ranch.
bb. The leases could not convey more than what
the grantors owned.
cc. The statutes of limitations never ran against
Minerva Clementina Ramirez.
dd. As to Leon Oscar Jr., the statutes of limitations began to run on the death of his father
on November 27, 2006, and not before. Garza
v. Cavazos, 221 S.W.2d 549, 553 (Tex.
1949); Evans v. Graves, 166 S.W.2nd 955,
956-58 (Tex. Civ. App.-Dallas 1942, writ ref’d).
This list of claims and issues and related findings is
not intended to include all issues and claims decided
by the Court. This list is presented in order to address,
in some context, the factors of novelty and difficulty
of questions involved and the necessity of the services.
6. The voluminous and repeated summary judgment motions made this case an exceptionally difficult
one. For example, the Court decided the undisputed
question of the meaning of Clause VI of the will in
the Court’s December 6, 2012 order granting Minerva’s
and Leon Oscar Jr.’s Amended Motions for Partial
Summary Judgment ConocoPhillips admitted in the
Court of Appeals and in the Supreme Court that the

App.122a
Court had interpreted and applied the will in the
December 6, 2012 summary judgment order.
Nonetheless, ConocoPhillips and the Ramirez Defendants filed, in June 2014 and September 2014,
respectively, their motions for summary judgment
asking the Court to construe the will. The Court
denied their request to construe the will because the
Court applied and interpreted the plain meaning of
the will, without contention of a different meaning by
any of the defendants, in the December 6, 2012 summary judgment order.
7. In those same motions for summary judgment
ConocoPhillips and the Ramirez Defendants also
sought to further collaterally attack the December
2016 summary judgment order with arguments of
ratification and estoppel. But the Court finds that in
their responses to the Plaintiffs’ amended motions
for partial summary judgment, granted on December
6, 2012, the Defendants had not raised any issues of
ratification and estoppel against Minerva and the
issues of ratification and estoppel raised against
Leon Oscar Jr. were overruled and merged in the
December 6, 2012 summary judgment order. The
Court finds that any new issues of ratification and
estoppel raised in the subsequent motions for summary
judgment on ratification and estoppel had been waived
by not being raised in responses to the Plaintiffs’
amended motions for partial summary judgment.
8. Another example that this was an exceptionally
difficult case can be found in ConocoPhillips’ motion
to reopen and reconsider the December 6, 2012 summary judgment order, filed on or about April 19,
2013. The motion was denied by the Court on November
17, 2014. The Court finds that this was another

App.123a
collateral attack on the order of December 6, 2012,
under the disguise of allegedly newly discovery evidence. In resolving this motion to reopen and
reconsider, the Court considered the evidence presented
for this motion as well as the evidence presented by
ConocoPhillips and the Ramirez Defendants in their
motions for summary judgment for will construction,
ratification and estoppel and the evidence in response
presented by the Plaintiffs. The Court finds that the
motion, alleges among other things, a recognition of
a debt by Leon Oscar Jr. and supposedly by the
guardian for Minerva, owed by the Estate of Leon
Oscar Sr. to them for gas proceeds received by Leon
Oscar Sr. This allegation is not different from the
allegation presented in response to Minerva’s and
Leon Oscar Jr.’s Amended Motions for Partial Summary
Judgment The recognition of a debt for Leon Oscar
Sr.’s failure to preserve the corpus of the 1/16 nonparticipating royalty interest once belonging to Leonor
V. Ramirez is not a ratification of the subject leases.
The non-participating royalty is not a benefit of the
subject leases; it is a non-lease payment. and, it is
significantly much smaller than the gas proceeds
kept by ConocoPhillips which belonged to Plaintiffs.
Even the receipt of production proceeds by Leon
Oscar Sr. in excess of his own interest might create
liability to other owners whose interest was diminished,
not because other owners are entitled to royalties
under the leases, but simply because they are owners
of the gas or their proceeds. The recognition of such
debt by the executors of the estate of Leon Oscar Sr.
is not a ratification of the leases. On the contrary, it
is a repudiation of the leases. Plaintiffs’ claim against
ConocoPhillips is not for royalties under the lease,

App.124a
but simply for gas proceeds belonging to them as
owners who have not leased their interest
9. The legal services required advanced legal
skills, including the ability to perform title work in
the public records and deep knowledge of property
law and nuances of oil and gas law. Both lawyers
representing the Plaintiffs possess the advanced skill
needed to perform the legal services properly.
10. The case and the vigorous defense presented
by ConocoPhillips and its team of eight lawyers
consumed a quarter of the work time of Alberto
Alarcon for 4 1/2 years. Alberto Alarcon maintains a
regular and typical work schedule of forty hours per
week. This significant strain on Mr. Alarcon’s docket
preluded him from accepting other cases. Moreover,
the unusually protracted nature of this lawsuit—
contributable primarily to the number of interlocutory
appeals, mandamus proceedings, and other tactical
maneuvers by the defense—were not foreseeable to
Mr. Alarcon when he accepted the representation.
11. Mr. Alarcon represented his clients zealously,
resulting in an award of almost $10 million. Specifically,
due to Mr. Alarcon’s successful representation, each
Plaintiff was awarded $3,764,489.00 plus pre-judgment
interest of $966,295.00 from November 27, 2006 (the
date of death of Leon Oscar Ramirez, Sr.) until the
date of judgment for a total of $9,461,568.00 for both
Plaintiffs. Although Plaintiffs did not prevail on all
aspects of the case, the degree of success obtained by
Mr. Alarcon was significant and he conferred a substantial benefit to his clients by securing the judgment
12. When the attorney’s representation is on an
hourly basis regardless of the result, the fee customarily

App.125a
charged in Zapata and Webb counties for similar representation is $300.00 per hour. When the attorney’s
representation is on an hourly basis regardless of the
result, the fee customarily charged in Texas, including
in Zapata, Webb and Travis counties, for similar
appellate representation is $350.00 per hour.
13. When the attorney’s representation is on a
pure contingency fee basis, the fee customarily charged
in Travis, Zapata, and Webb counties fox similar representation is 40% of the results obtained.
14. Alberto Alarcon has held a long attorneyclient relationship with Leon Oscar Jr.
15. Alberto Alarcon has been practicing law for
27 years and has an outstanding reputation in Webb
and Zapata counties. Lisa Hobbs is a board certified
appellate lawyer who also has an excellent reputation.
The Court was impressed by the quality of representation by both counsel and the efficiency with which
they represented their clients.
16. The fee agreement that the two prevailing
Plaintiffs have with Alberto Alarcon is a pure contingency fee of 40% of results obtained Alberto Alarcon
has a fee sharing agreement with Lisa Hobbs, who
has been hired as appellate counsel, where Alberto
Alarcon will share 5 percentage points with Lisa Hobbs.
These fee agreements were approved by the County
Court at Law No. 1 of Webb County, who oversees
the guardianship of Minerva, an incapacitated individual who was born with Down’s syndrome.
17. Both prevailing Plaintiffs are in a dire economic situation and they did not have the economic
ability to afford counsel on an hourly or fixed fee

App.126a
basis. Plaintiffs had no choice but to enter into the
contingency fee agreement with Alberto Alarcon.
18. The terms of the contingency fee agreement
with Alberto Alarcon are customary in Zapata, Webb
and Travis Counties when the claimants cannot
afford to pay a lawyer on an hourly basis or otherwise.
19. The Court finds that the base loadstar amount
is $750,000.00 and it is reasonable.
20. A contingency fee (based on the judgment
amount) would be 5 times higher than the base loadstar amount.
21. The contingency fee agreement in this case
offers the potential of a greater fee than might be
earned under an hourly billing method, but such
compensation is justified because the attorneys have
taken the risk of receiving nothing if the case was
lost. The amount of the litigation risk the contingent
fee agreement transfers to the lawyers was 100%.
But the fact that the fee is being shifted to the nonprevailing party must also be considered.
22. Considering all of the foregoing, the Court
finds that an enhancement of 3 times the base loadstar amount is reasonable in this exceptional case.
23. This upward enhancement is not based solely
on the contingency fee agreement between Plaintiffs
and their counsel but is based on careful weighing of
all the relevant factors.
24. The Court finds that the $1,125,000.00 in
attorneys’ fees awarded to Minerva is reasonable.
25. The Court finds that the $1,125,000.00 in
attorneys’ fees awarded to Leon Oscar Jr. is reasonable.

App.127a
Conclusions of Law
1. Having been awarded a final judgment in
their favor, Plaintiffs Minerva and Leon Oscar Jr. are
entitled to reasonable attorney fees under Chapter
91 of the Texas Natural Resources Code.
2. Plaintiffs Minerva and Leon Oscar Jr. are
prevailing parties.
3. In the determination of reasonable attorneys’
fees the Court considered and applied the principles
stated in Arthur Andersen & Co. v. Perry Equipment
Corporation, 945 S.W.2d 812 (Tex. 1997).
4. In the determination of reasonable attorneys’
fees the Court also considered and applied each of
the following factors:
a.

The time and labor required;

b.

The novelty and difficulty of the questions
involved;

c.

The skill required to perform the legal service
properly;

d.

The likelihood that the acceptance of the
employment by the lawyers would preclude
other employment by the lawyers;

e.

The fee customarily charged in Zapata, Webb,
and Travis Counties for similar representation;

f.

The amount involved;

g.

The results obtained;

h.

The time limitations imposed by the client
or by the circumstances;

App.128a
i.

The nature and length of the professional
relationship with the client;

j.

The experience, reputation and ability of the
lawyers performing the services;

k.

Whether the fee was fixed or contingent on
results obtained or the uncertainty of collection before the legal services were rendered.

l.

The necessity of the services;

m. Whether the services were in response to
action taken by an opposing party and
whether the action taken by an opposing
party bad any merit.
5. As part of 4(k), other factors considered by
the Court, together with the factors mentioned above,
in relation to contingency fee agreements:
i.

The terms of the contingency fee agreement;

ii.

Whether there was any reasonable alternative
to the contingency fee, i.e. whether the client
was capable of undertaking the payment of
fees on an hourly basis or fixed fee, regardless
of the results;

iii. Whether contingency fee agreements are
customary in Zapata, Webb and Travis
Counties when the claimants cannot afford to
pay a lawyer on an hourly basis or otherwise;
iv. The customarily contingency fee charged in
Zapata, Webb and Travis Counties for similar
representation;
v.

A comparison of the contingency fee (based on
the judgment amount) to the base loadstar
amount;

App.129a
vi. The amount of the litigation risk the contingent fee agreement transfers to the lawyers;
and,
vii. The fact that the fee is being shifted to the
non-prevailing party under the particular
fee-shifting statute.
6. The attorneys’ fees awarded by the Court were
reasonable and necessary.
7. The attorneys’ fees awarded by the Court are
equitable and just.
To the extent that any finding of fact made by
this Court should properly be considered a conclusion
of law, and to the extent that any conclusion of law
made by this Court should properly be considered a
finding of fact, it is the express intent of the Court
that any statement identified herein as a finding of
fact also be deemed a conclusion of law and any
statement identified herein as a conclusion of law
shall also be deemed a finding of fact. Also, to the
extent any findings are made to describe issues and
claims relevant to the factors fox the award of attorneys’ fees, such findings are not intended to be an
exhaustive list which includes all issues and claims
decided by the Court. Those findings ale discussed
and made solely to put in context the factors relevant
to the award of attorneys’ fees.
Signed on this 29 day of June, 2015
/s/ Hon. Joe Lopez
Judge of the 49th District Court
of Zapata and Webb Counties

App.130a
LAST WILL OF LEONOR V. RAMIREZ
(OCTOBER 20, 1987)
THAT I, LEONOR V. RAMIREZ, a widow, of the
County of Webb, State of Texas, being of sound and
disposing mind and memory do make and publish
this my Last Will, hereby revoking all Wills by me at
any time heretofore made.
I.
I am now an unmarried woman, my late husband,
LEON J. RAMIREZ, having died in 1966. I have
three (3) children now living, whose names are:
1.

LEON OSCAR RAMIREZ,

2.

ILEANA RAMIREZ,

3.

RODOLFO C. RAMIREZ

All references in this Will to my “children”, or
“issue” include the Above children and any child or
children born to or adopted by me after the date of
execution of this Will.
II.
It is my intention by this Will to dispose of all of
the property that I own at the time of my death.
III.
I give to my son, LEON OSCAR RAMIREZ, the
automobile which I possess at the time of my death.
IV.
I give all of my clothing, jewelry, household
furniture and furnishings, personal effects, works of

App.131a
art and other tangible articles of a personal nature
not otherwise specifically disposed of by this Will to
my daughter, ILEANA RAMIREZ.
V.
I give in fee simple to my daughter, ILEANA
RAMIREZ, the real property and improvements at
919 Chihuahua more fully described as Lot Number
Seven (7) and the East One-half of Lot Number Eight
(E. 1/2 of 8), in Block Number Five Hundred Fiftyeight (558), situated in the Eastern Division of the
City of Laredo, Webb County, Texas.
VI.
I give, devise and bequeath to my son, LEON
OSCAR RAMIREZ, all of my right, title and interest
in and to Ranch “Las Piedras” out of Porciones 21 &
22, and situated in Zapata County, Texas, and during
the term of his natural life. Upon the death of my
son, LEON OSCAR RAMIREZ, the title shall vest in
his children then living in equal shares.
VII.
I give all of the residue of my estate in equal
shares to my children, LEON OSCAR RAMIREZ,
ILEANA RAMIREZ and RODOLFO C. RAMIREZ,
share and share alike. If any residuary beneficiary
should predecease me, leaving issue who survive me,
the share of my estate that would otherwise go to
that deceased residuary beneficiary shall instead go
to his issue per stirpes.

App.132a
VIII.
I appoint my daughter, ILEANA RAMIREZ, as
the Executrix of this Will. If ILEANA RAMIREZ,
does not survive me, is unable or unwilling to act or
to continue to act as Executrix, or ceases to serve as
Executrix for any reason after having been appointed,
then I appoint my son, LEON OSCAR RAMIREZ, as
the Executor of this Will.
No Executor, whether originally appointed or
successor, shall be required to furnish a bond for the
performance of his duties as Executor under this
Will.
I authorize my Executor to administer my estate
independently, and the Executor shall be free from
judicial supervision, adjudication, order, or direction
to the extent allowed by law.
IX.
If any person named a beneficiary under this
Will challenges or contests this Will or any of its
provisions by legal proceeding or in any other manner,
or attempts in any way to oppose or set aside the
probate of its provisions any gift or other provision I
have made to or for that person under this Will is
revoked, and the rights of any such person under this
Will are to be disposed of as if that contesting beneficiary had predeceased me without issue.
X.
If any part, clause, provision, or condition of this
Will is held by a court of competent jurisdiction to be
void, inoperative, ineffective, or otherwise invalid, its
invalidity shall not affect any other part, clause,

App.133a
provision, or condition of this Will, and the remainder
of this Will shall be carried into effect as if this Will
had been executed without the invalid part, clause,
provision, or condition being included.
For the purposes of this Will, in determining
whether a person has survived me or another person,
the person is deemed to have survived if he or she is
alive at least sixty (60) days past the date of my
death or of the death of the other person.
This Will is to be exclusively governed by and
construed in accordance with the laws of the State of
Texas.
IN TESTIMONY WEREOF, I hereunto sign my
name to this, my Last Will, consisting of four (4)
pages including the attestation clauses and the selfproof affidavit each of which pages I am initialing for
the purpose of identification, all in the presence of
the undersigned, who witness the same at my request,
on this the day of 20th day of October, 1987.
/s/ Leonor V. Ramirez
Testatrix

App.134a
ATTESTATION
The foregoing instrument was, on this the 20th
day of October, 1987, made and published as the Last
Will of LEONOR V. RAMIREZ, and is signed and
subscribed by the said LEONOR V. RAMIREZ in our
presence, and we, the undersigned, at her request
and in her presence, and in the presence of each other,
sign and subscribe our names hereto as attesting
witness.
/s/ Witness 1
1619 Reynolds
Laredo, TX 78043
/s/ Witness 2
1318 Kearney
Laredo, TX 78040

App.135a

SELF-PROVING AFFIDAVIT
STATE OF TEXAS
COUNTY OF WEBB
Before me, the undersigned authority, on this
day personally appeared LEONOR V. RAMIREZ,
Testatrix, /s/ witness 1 and /s/ witness 2 known to me
to be the Testatrix and the Witnesses, respectively,
whose names are subscribed to the annexed or
foregoing instrument in their respective capacities,
and all of said persons being by me duly sworn, the
Testatrix, LEONOR V. RAMIREZ, declared to me
and to the said Witnesses in my presence that said
instrument is her Last Will, and that she had
willingly made and executed it as her free act and
deed for the purposes therein expressed; and the said
Witnesses, each on their oath stated to me, in the
presence and hearing of the said Testatrix, that the
said Testatrix had declared to them that said
instrument is her Last Will, and that she executed
the same as such and wanted each of them to sign it
as a Witness; and upon their oaths each Witness
stated further that they did sign the same as
Witnesses in the presence of the said Testatrix and
at her request; that she was at that time eighteen
(18) years of age or over and was of sound mind; and
that each of said Witnesses was then at least
fourteen (14) years of age.
/s/ Leonor V. Ramirez
Testatrix

App.136a
/s/ {Illegible}
Witness
/s/ {Illegible}
Witness
SUBSCRIBED AND ACKNOWLEDGED BEFORE ME by
the said Testatrix, Leonor V. Ramirez, and Subscribed
and sworn to before me by the said witnesses,
/s/ witness 1 and /s/ witness 2 on this the 20th day of
October, 1987.
/s/ {Illegible}
Notary Public, State of Texas
My Commission Expires: 10-30-87

App.137a
PARTITION DEED
(JANUARY 15, 1975)
STATE OF TEXAS
COUNTY OF WEBB
WHEREAS, the Estate of Leon J. Ramirez has
been fully administered and all debts due and owning
have been paid and owners of the Estate of Leon J.
Ramirez, Deceased, namely:
(1) LEONOR V. RAMIREZ, who owns an undivided one-half (1/2) interest;
(2) LEON OSCAR RAMIREZ, who owns an undivided one-sixth (1/6th) interest;
(3) ILEANA RAMIREZ, who owns an undivided
one-sixth (1/6th) interest;
(4) RODOLFO RAMIREZ, who owns an undivided one-sixth (1/6th) interest;
desire to reach an agreement for the partition of the
surface but not of the oil, gas and other minerals in
and under all ranch and farm land belonging to the
Estate of Leon J. Ramirez, situated in Porciones 19,
20, 21 and 22 in Zapeta, County, as hereinafter
referred to, and parties have reached an agreement
that the surface but not the oil, gas and other minerals
will be partitioned as between the undersigned owners
of the Estate of Leon J. Ramirez, as follows:
FIRST
LEONOR V. RAMIREZ, will be entitled to
approximately Eight Hundred (800) acres of land
situated principally in Porcion 20 and partly in
Porcion 19, being all of the Leon J. Ramirez ownership

App.138a
in Porciones 20 and 19 lying west of U.S. Highway
83, which includes all the improvements and what
may be referred to as “Headquarters Ranch” and is
known as West El Milagro Pasture, and situated in
Zapata County.
SECOND
RODOLFO C. RAMIREZ will be entitled to all of
the land in Porciones 20 and 19 in Zapata County,
located east of U.S. Highway 83, containing approximately FOUR HUNDRED (400) ACRES known as
East El Milagro Pasture, less and except, however, a
TEN (10) ACRE tract in the form of a rectangle
fronting west on U.S. Highway 83, to be owned and
selected by Leon Oscar Ramirez and also less and
except TEN (10) ACRES in the form of a rectangle
fronting west on U.S. Highway 83 and to be owned
and selected by ILEANA RAMIREZ.
THIRD
LEON OSCAR RAMIREZ and ILEANA RAMIREZ, jointly and equally will be entitled to ONE
THOUSAND AND FIFTY-EIGHT (1,058) ACRES situated partly in the north one-half (1/2) of Porcion 21
and partly in Porcion 22, known as Las Piedras
Pasture, being all the land owned and possessed by
us in north 1/2 of Porciones 21 and 22 in Zapata County.
This partition is not to include oil, gas and other
minerals which for the present are to remain undivided
and this partition is subject to existing oil, gas and
mineral leases that are of record in the office of the
County Clerk of Zapata County and each of the
undersigned owners is to receive his or her propor-

App.139a
tionate part of the delay rentals, royalties and other
benefits payable under said oil, gas and mineral leases.
As a part of this partition, all the undersigned
agree that LEONOR V. RAMIREZ shall be entitled
to graze cattle on the land leased from the International
Boundary and Water Commission and each of the
undersigned will cooperate in having such agriculture
and grazing lease from the International Boundary
and Water Commission, insofar as same covers land
taken by the United States Government out of Porciones 19 and 20 renewed or taken in the name of
LEONOR V. RAMIREZ. Future rentals will be paid
by LEONOR V. RAMIREZ.
Likewise, Leon Oscar Ramirez and Ileana Ramirez
shall be entitled to exclusive right to graze their cattle
on that part of the north one-half (1/2) of Porcion 21
and Porcion 22 that has been leased by the International Boundary and Water Commission for grazing
and agricultural purposes to the Estate of Leon J.
Ramirez, all parties will cooperate in having such
renewal or new leases made in the name of LEON
OSCAR RAMIREZ and ILEANA RAMIREZ, with
understanding that renewal under such International
Boundary and Water Commission will be paid by
Leon Oscar Ramirez and Ileana Ramirez.
This informal partition agreement is to be binding
on each of the undersigned, notwithstanding the fact
that proper field notes may be prepared for each of
the tracts of land, nevertheless, it is mutually agreed
that should any of the undersigned parties, at a later
date, desire at his or her own expense to hereafter
have said land surveyed, with proper sketches and
field notes prepared, giving a more accurate description
of the land, then each of the parties hereto agree to

App.140a
execute, join in and acknowledgment an instrument
describing by course and distance or proper field
notes any of the pastures hereinabove referred to as
being subject to this partition and any such corrected
partition deed will be executed and acknowledged by
each of the undersigned.
WITNESS OUR HAND AND SEAL at Laredo,
Texas this 15th day of January, 1975, in multiple
copies.
/s/ Leonor V. Ramirez
/s/ Leon Oscar Ramirez
/s/ Ileana Ramirez
/s/ Rodolfo C. Ramirez

App.141a
EXCHANGE DEED
(MARCH 27, 1978)
THE STATE OF TEXAS
COUNTY OF ZAPATA
WHEREAS, the surface, but not the oil, gas and
other minerals, in and under all ranch and farm
lands belonging to the Estate of Leon J. Ramirez,
Deceased, in Porciones Nos. 19, 20, 21 and 22, in
Zapata County, Texas, was portioned as between the
owners, namely: (1) Leonor V. Ramirez, as owner of
an undivided 1/2 interest; (2) Leon Oscar Ramirez, as
owner of an undivided 1/6th interest; (3) Ileana
Ramirez as owner of an undivided 1/6th interest; and
(4) Rodolfo Ramirez as owner of an undivided 1/6th
interest, by a partition instrument dated the 15th
day of January, 1975, and recorded in Vol. 186, pp.
503-506, Deed Records of Zapata County, under the
terms of which Leonor V. Ramirez was partitioned
the surface to approximately 800 acres of land situated
principally in Porcion 20 and partly in Porcion 19 in
Zapata County, described as being all of Leon J.
Ramirez ownership in Porciones 20 and 19 lying
West of U.S. Highway 83 which includes all of the
improvements and what may be referred to as
“Headquarters Ranch” and what is also known as
“West El Milagro Pasture”, in Zapata County, Texas;
and
WHEREAS, Leon Oscar Ramirez and Ileana
Ramirez were jointly and equally portioned the surface
to 1058 acres situated partly in the North one-half of
Porcion 21 and partly in Porcion 22, in Zapata
County, known as “Las Piedras Ranch”, being all of
the land owned and possessed by the above named

App.142a
owners in the North one-half of Porciones 21 and 22
in Zapata County, Texas; and
WHEREAS, reference is here made to the above
mentioned January 15, 1975 partition of the surface
rights instrument and to the record of such instrument
in Vol. 186, pp. 503-506, Deed Records of Zapata
County, including a provision that such partition is
not to include oil, gas and other minerals; and this
partition is subject to existing oil, gas and mineral
leases that are of record in the office of the County
Clerk of Zapata County, Texas, and each of the undersigned owners is to receive his or her proportionate
part of the delay rentals, royalties and other benefits
payable under said oil, gas and mineral leases; and
WHEREAS, Leonor V. Ramirez and her daughter,
Ileana Ramirez, mutually desire to exchange the
surface to approximately 800 acres of land belonging
to Leonor V. Ramirez situated principally in Porcion
20 and partly in Porcion 19, lying West of U.S.
Highway 83, referred to as “Headquarters Ranch”
and also known as the “West El Milagro Pasture” for
the one-half interest belonging to Ileana Ramirez
that was acquired by Ileana Ramirez under third
paragraph of said Partition instrument in and to
1,058 acres of land in Zapata County, situated partly
in the North one-half of Porcion 21 and partly in
Porcion 22, known as “Las Piedras Ranch”;
NOW THEREFORE, in furtherance of said mutual
desire to exchange, LEONOR V. RAMIREZ does by
these presents GRANT, SELL AND CONVEY unto
ILEANA RAMIREZ all of her right, title and interest
in and to the surface to the HEADQUARTERS RANCH
partitioned to Leonor V. Ramirez on first page under
paragraph designated “FIRST” of said January 15,

App.143a
1975 Partition Agreement as recorded in Vol. 186,
pp. 503-506. Deed Records of Zapata County, described
as containing 800 acres of land in Zapata County,
situated principally in Porcion 20 and partly in Porcion 19, described as being all of the Leon J. Ramirez
ownership in Porciones 20 and 19 lying West of U.S.
Highway 83 known as HEADQUATERS RANCH
and also known as WEST EL MILAGRO PASTURE,
LESS Leonor V. Ramirez’ undivided interest in and
to all of the oil, gas and other minerals which are
excepted and reserved by Leonor V. Ramirez for the
benefit of herself, her legal representatives, heirs
and assigns, together with right of ingress and egress
for the purpose of developing, drilling, producing,
storing and transporting oil, gas and other minerals;
and
ILEANA RAMIREZ in furtherance of said exchange, does by these presents GRANT, SELL AND
CONVEY unto LEONOR V. RAMIREZ all of her right,
title and interest in and to the surface to undivided
one-half interest in 1,058 acres of land in Zapata
County, situated partly in the North one-half of
Porcion 21 and partly in Porcion 22, known as LAS
PIEDRAS PASTURE and described as being all of
the land owned and possessed by the above named
owners of the Estate of Leon J. Ramirez , Deceased,
in the North one-half of Porcion 21 and partly in
Porcion 22 in Zapata County, LESS and EXCEPT
Ileana Ramirez’ undivided interest in and to oil, gas
and other minerals in and to 1,058 acres described
on the second page under paragraph designated
“THIRD” of the above mentioned January 15, 1975
Partition Agreement, together with right of ingress
and egress for the purpose of developing, drilling,

App.144a
producing, storing and transporting oil, gas and other
minerals, which undivided interest in oil, gas and
other minerals as well as the right of ingress and
egress are reserved by Ileana Ramirez.
Reference is here made to the partition of the
surface of the land here in above referred to made
under the January 15, 1975 Partition Deed as recorded
in Vol. 186, pp. 503-506, Deed Records of Zapata
County, as it is expressly agreed in conformity with
provisions contained in said January 15, 1975 Partition
Deed that this Deed of Exchange is not to include oil,
gas and other minerals which are to remain undivided,
and this Deed of Exchange is subject to existing oil,
gas and mineral leases that are of record in the office
of the County Clerk of Zapata County, and each of
the undersigned is to receive her proportionate part
of the delay rentals, royalties and other benefits
payable under said oil, gas and mineral leases,
together with right of ingress and egress for the purpose of developing , drilling, producing, storing and
transporting oil, gas and other minerals.
In making this exchange, Leonor V. Ramirez
represents and covenants that she has not executed
any liens or encumbrances on the surface to the land
herein given and conveyed to Ileana Ramirez, and
likewise, Ileana Ramirez represents and covenants
that she has not the land herein exchanged and
conveyed to Leonor V. Ramirez.
In view of the relationship of mother and daughter
that exists as between the undersigned parties and
of the fact that during the lifetime of Leon J. Ramirez,
Leonor V. Ramirez often visited and at times resided
in the main ranch house located on the 800 acres, the
surface to which is being conveyed herein to Ileana

App.145a
Ramirez in exchange, and of the memories of many
happy hours and occasions spent on the above Ranch,
Leonor V. Ramirez for and during her lifetime reserves
the right to periodically visit said West El Milagro
Pasture and for reasonable periods of time to use and
enjoy the improvements particularly the main ranch
house located on said West El Milagro Pasture, as
Ileana Ramirez desires that her mother be free to
visit such Ranch for and during the term of her natural
life.
Ileana Ramirez further covenants and agrees
that she will at her own cost and expense have a
qualified Attorney or Accountant prepare a Gift Tax
Return to he executed by Leonor V. Ramirez reporting
this Exchange and that she will at her own cost and
expense have said land appraised and pay to her
mother an amount equal to any gift tax that Leonor
V. Ramirez may be required to pay to the Internal
Revenue Service covering any difference in valuation
between the value of the surface rights herein acquired
by Ileana Ramirez. and the rights herein acquired by
Leonor V. Ramirez; and Ileana Ramirez agrees to
indemnify and hold harmless Leonor V. Ramirez of
and from any liability for gift taxes due and owing or
that may arise out of this Exchange.
TO HAVE AND TO HOLD the 800 acres situated
principally in Portion 20 and partly in Porcion 19 in
Zapata County, hereinabove referred to as
“Headquarters Ranch” and also known as “West El
Milagro Pasture”, together with all and singular, the
rights and appurtenances thereto in anywise belonging,
unto the said Ileana Ramirez, her heirs and assigns
forever; less the undivided interest in and to the oil,
gas and other minerals belonging to Leonor V. Ramirez

App.146a
which have been expressly excepted & reserved by
Leonor V. Ramirez and subject to the other exceptions
and reservations and other provisions herein contained.
Leonor V. Ramirez binds herself, her heirs, executors
and administrators TO WARRANT AND FOREVER
DEFEND all and singular the title to the surface to
the above described “Headquarters Ranch” and/or
‘Vest El Milagro Pasture” unto the said Ileana Ramirez,
her heirs and assigns against every person whomsoever
lawfully claiming or to claim the same or any part
thereof.
TO HAVE AND TO HOLD the undivided interest
in 1058 acres partly in North 1/2 of Porcion 21, and
partly in Porcion 22, in Zapata County, known as
“Las Piedras Ranch” together with all and singular,
the rights and appurtenances thereto in anywise
belonging, unto the said Leonor V. Ramirez, her heirs
and assigns, forever; less the undivided interest in
and to oil, gas and other minerals belonging to Ileana
Ramirez which have been expressly excepted and
reserved by Ileana Ramirez, and subject to the other
exceptions and reservations and other provisions
herein contained. Ileana Ramirez binds herself, her
heirs, executors and administrators TO WARRANT
AND FOREVZR DEFEND all and singular the title
to the surface to the 1/2 interest in 1058 acres
situated Partly in the North 1/2 of Porcion 21 and
partly in Porcion 22 known as “Las Piedras Ranch”
unto the said Leonor V. Ramirez, her heirs and
assigns against every person whomsoever lawfully
claiming or to claim the same or any part thereof.
IN WITNESS WHEREOF, this Deed of Exchange
is made on this the 27th day of March, 1978, by the
execution of duplicate copies.

App.147a

/s/ Leonor V. Ramirez
/s/ Ileana Ramirez
The State of Texas
County of Webb
BEFORE ME, the undersigned authority, on this
day personally appeared LEONOR V. RAMIREZ,
known to me to be the person whose name is subscribed to the foregoing instrument, and acknowledge
to me that she executed the same for the purposes
and consideration therein expressed.
Given under my hand and seal of office this the
27th day of March, 1978.
/s/ Ed Mann
Notary Public,
Webb County, Texas
The State of Texas
County of Webb
BEFORE ME, the undersigned authority, on this
day personally appeared ILEANA RAMIREZ, known
to me to be the person whose name is subscribed to
the foregoing instrument, and acknowledge to me
that she executed the same for the purposes and
consideration therein expressed.

App.148a
Given under my hand and seal of office this the
27th day of March, 1978.
/s/ Ed Mann
Notary Public,
Webb County, Texas

App.149a
OIL, GAS AND MINERAL LEASE
(APRIL 27, 1946)
File No. 4194
From: LEON J. RAMIREZ ET AL.
To: L.G. LIVERMORE
This agreement made this 27th, day of April
1946, between Leon J. Ramirez, and wife, Leonor V.
Ramirez, and Felicidad Ramirez de Perez, and husband,
Gilberto Perez, Lesser whether one or more, and L.G.
Livermore of Houston, Texas, Lessee, Witnesseth;
Lessor in consideration of $10.00 and other good
and valuable consideration, $___ in cash in hand
paid, receipt of which is hereby acknowledged, of the
royalties herein provided, and of the agreements of
Lessee herein contained, hereby grants, leases and lets
exclusively unto Lease for the purpose of investigating, exploring, prospecting, drilling and mining for
and producing oil, gas and all other minerals, laying
pipe line, building tanks, power stations, telephone
lines and other structures thereon to produce, save
take care of, trust, transport and can said products,
and housing Lessees employees, the following described
land in the County of Zapata State of Texas, to-wit;
All of Las Piedras Ranch in Porc 22 and N., 1/2
of Por. 21 that lies on the N.E. side of U.S. Highway
83, save and except Leon J. Ramirez ownership in
Sh. L. Por. 83. The land included in this lease contains 791.79 acres, more or less, and consists of two
acres described as follows:
FIRST TRACT: All of share No. Two (2) out of
Porcion No. 22 as per partition decree entered by the
111th District Court of Webb County in Cause No.

App.150a
8096, styled Mariano Serna vs. Simon de Benavides
et al and containing 373.23 acres, more or less, and
being all of said Sh. 2 see as partitioned to Ildefonso
Ramirez and Leon J. Ramirez under and by virtue of
partition proceedings in said Couse No. 8096.
SECOND TRACT: A tract out of the North onehalf of said porcion No. 21 that adjoins the above
mentioned Share No. 2 porcion No. 22 on the southeast
and which is described by meters and bounds as
follows: Beginning at a point on the common division
line between Por. 21 and 22 that coincides with the
East corner of the above mentioned Share 2, porcion
22, the South corner of Share No. 3, Porcion 22 and
which point bears North 54 deg. 30 min. East a
distance of approximately 6, 255 acres from the left
bank of the Rio Grande River for the North corner
hereof; Thence in a southerly direction along a fence
line, the course of which is estimated to be south 14
deg. East a distance of approximately 590 acres to an
angle in said fence line and thence continuing along
said fence line the course of which is estimated to be
approximately south 23 deg. East an additional distance
of approximately 414 acres to a fence corner made by
the intersection of said Northeast fence line of Las
Piedras Ranch with the division fence between the
Juana P. de Vela “amora and children’s land on the
Southeast and the Leon J. Ramirez Las Piedras Ranch
on the Northeast, same being East corner hereof;
Thence South 54 deg. 23 min. West along said fence
line a distance of approximately 2,600 varas to the
right-of-way of the Laredo-Brownsville Highway,
known as U.S. Highway No. 83, for the South Corner
hereof; Thence N. 22 deg. 12 min. West along the
Northwest boundary line of said Highway right-of-

App.151a
way a distance of approximately 940 varas to a point
where said Highway intersects the common division
line between Porcion 21 and Porcion 22 for the west
corner hereof; Thence North 54 deg. 26 min. East
along said common division line of said Porciones 21
and 22 a distance of approximately 2,668 varas to
the place of beginning.
Said second tract out of the N. 1/2 said Por. 21
contains 418.5 acres, more or less, and same is further described as being bounded on the N.W. by said
Sh. 2, Por. 22; as being bounded on the N.E. by 3
separate ownership consisting of Tract out of the N.
1/2 of Por. 22 belonging to Gabriel Flores, a tract out
of N.1/2 of Porcion 21 belonging to Juan Gonzales
Vela and a tract out of the N. 1/2 of said Por. 21
belonging to Humberto Gonzalez et al; as being
bounded on the Southeast by land belonging to Sen
Juana P. de Vela Zamora and children; and as being
bounded on the Southwest by the Laredo-Brownsville
Highway, known as U.S. Highway No. 83.
Subject to the other provisions herein contained,
this lase shall be for a term of Ten (10) years from
this date (called “primary term”) and as long thereafter
as oil, gas or other mineral is produced from said
land hereunder.
The royalties to be paid by Lessee are: (a) on oil,
one-eighth of that produced and saved from said
land, the same to be delivered at the wells or to the
credit of Lessor into the pipeline to which the wells
may be connected; Lessee may from time to time
purchase any royalty oil in Lessee’s possession, paying
the market price therefor prevailing for the field
where produced on the date of purchase; (b) on gas,
including casing head gas or other gaseous substance,

App.152a
produced from said land and sold or used off the
premises or in the manufacture of gasoline or other
product therefrom, the market value at the well of
one-eighth of the gas so sold or used, provided that
on gas sold at the wells the royalty shall be oneeighth of the amount realized from such sale; where
gas from a well or well producing gas only is not sold
or used, Lessee may pay (within 3 months from
completion of the first of such wells, and each 12
months thereafter) as royalty $791.72 per year, and
upon such payment it will be considered that gas is
being produced within the meaning of preceding
paragraph hereof; and (c) on all other minerals mined
and marketed, one-eighth either in kind or value at
the well or mine, at Lessee election. Lessee shall . . .
[...]
. . . and while so presented, and for twelve months
thereafter, this lease shall nevertheless continue in
effect. If within such twelve months Lessee commences
operations on, or resumes production free, the leased
promises, as the case may be, this lease shall continue
in effect thereafter subject to its limitations, covenants
and terms as though the contingency provided for in
this paragraph had not occurred. During such period
of prevention and twelve months period Lessee must,
irrespective of whether such prevention occurs in the
primary term or thereafter, and irrespective, of whether
oil or gas was being produced at the time of such
prevention in order for this paragraph to be in force
and effect, on or before such annual anniversary date
hereof, pay to Lessor or to the credit of Lessor in the
depository above named, the sum of $1.00 per acre
per year for each acre on which this lease is then in
force. In no event its Lessor to refund to Lessee any

App.153a
part of such final payments paid under the terms of
this paragraph.
IN WITNESS Whereof, this instrument is executed
on the date first above written.
Leon J. Ramirez
Leonor V. de Ramirez
Felecidad Ramirez de Perez
Gilberto Perez
(Documentary Stamps $2.20)

App.154a
THE STATE OF TEXAS
COUNTY OF WEBB
Before me, the undersigned authority, on this
day personally appeared Leon J. Ramirez and wife
Leonor V. de. Ramirez, known to me be the persons
whose names are subscribed to the foregoing instrument, and acknowledged to me that they executed the
same for the purposes and consideration therein
expressed, and the said Leonor V. de Ramirez, wife
of Leon J. Ramirez each having been examined by
me privily and apart from her husband, and having
the sues fully explained to her, she, the said Leonor
V. de Ramirez each acknowledged such instrument
to be her act and deed and declared that she had
willingly signed the same for the purposes and
consideration therein expressed and that she did not
wish to retract it.
Given under my hand and seal of office this the
27th day of April A.D. 1946.
Olga B. Guerra
(Seal) Notary Public and for Webb County, Texas.

App.155a
OIL, GAS AND MINERAL LEASE
RELEVANT EXCERPTS
(OCTOBER 6, 1983)
File No. 62162
THIS AGREEMENT made this 6th day of October
1983 between FELICIDAD RAMIREZ DE PEREZ,
joined herein by PALMYRA MINERALS LTD., acting
herein and through Felicidad Ramirez de Perez, a
general partner, and Gilberto Perez, Jr., general
partner; and also by LEONOR V. RAMIREZ, LEON
OSCAR RAMIREZ, ILEANA RAMIREZ and RODOLFO C. RAMIREZ Lessor (whether one or more) whose
address is Box 123, Roma, Texas 78584 and Stringer
Oil & Gas Co., 8700 Crownhill Blvd. San Antonio,
Texas, Lessee, WITNESSETH;
1. Lessor in consideration of a good and sufficient
consideration paid in cash Dollars ($___), in hand
paid, of the royalties herein provided, and of the
agreements of Lessee herein contained, hereby grants,
leases and less exclusively unto Lessee for the purpose
of investigating, exploring, prospecting, drilling and
mining for and producing oil, gas and all other
minerals, conducting exploration, geologic and geophysical survey by seismograph, core less, gravity and
magnetic methods, injecting gas, water and other
fluids, and air into subsurface streets, laying pipe
lines, building roads, tanks, power stations, telephone
lines and other structures thereon and on, over and
across lands owned or claimed by Lessor adjacent
and contiguous thereto, to produce, save, take care
of, treat, transport and own said products, and housing
its employees, the following described land in Zapata
County, Texas, to –wit;

App.156a
FIRST TRACT: LAS PIEDRAS RANCH in Porcion
No. Twenty-one (21), Abstract No. 81, Original Grantee,
Isabel Maria Sanchez, containing Six Hundred FortyFive and 23/100 (645.23) acres, more or less, described
as being all of Parcel Z-112, 27-B, containing 644.23
acres, and all of Parcel Z-112, 28-B, containing one
acre. Said Parcel Z-112, 27-B, as well as Parcel Z-112,
28-B are more fully described in a Plat entitled “Plat
of Porcion 21, Zapata County”, made by the International Boundary & Water Commission recorded in Vol
2, p. 128 of the Map Records or Zapata County. Said
Parcel Z-112, 27-B as well as Parcel Z-112, 28-B were
taken by the United States of America under Declaration of Taking No. 36 as filed in the United States
District Court for the Southern District of Texas,
Laredo Division, in Civil Action No. 529. Styled
“United States of America, Plaintiff vs. 85,237 acres
of land, more or less, in Zapata County, State of Texas,
Flumencio Munoz, et al., Defendants”, and reference
is here made to said Declaration of Taking No. 36
and to the orders and decrees entered in said Civil
Action No. 529 affecting said Parcel Z-112, 27-B and
Parcel Z-112, 28-B for a more particular description
of said two Parcels.
SECOND TRACT: All of Share No. 2 out of
Porcion 22, in accordance with partition decree entered
by the 211th District Court of Webb County in Cause
No. 8096 containing Three Hundred Seventy-Three
and 22/100th (373.22) acres. Said Share No. 2 Porcion
22 was partitioned to Idelfonso Ramirez, et al, as
containing 400 acres, but according to International
Boundary 6 Water Commission survey, said Share
No. 2 contains Three Hundred Seventy—Three and
22/100ths (372.22) acres.

App.157a
[...]
. . . the end of ninety (90) days after the completion
or abandonment of ‘the final well, at which time
Lessee shall execute and deliver to Lessor said written
release, releasing all portions of the lease not then so
developed.
16. There is excepted from this lease and reserved
to Lessor, their heirs and assigns, all vanadium,
uranium, plutonium, thorium, fissionable minerals and
materials, and it is understood and expressly provided
that the terms “mineral”, “minerals”, “other mineral”,
and “other minerals” whenever and wherever used in
this lease shall not refer to and shall not include
vanadium, uranium, plutonium, thorium, fissionable
minerals and coal. Notwithstanding any other provisions herein contained, this oil, gas and mineral
lease only covers oil, gas and minerals produced with
oil and gas, including Sulphur.
17. Lessee may contract to sell gas at what may
then be a reasonable market value of gas in that part
of Zapata County. and contract may be made for a
period of more than two (2) years. However, the price
of gas is to be renegotiated periodically at periods not
to exceed two (2) years with the understanding that
the price of gas will be consistent with the market
price of gas in that area.
18. This oil, gas and mineral lease and rights of
Lessee hereunder are subject to rights of the United
States of America under declarations of taking and
decrees entered by the United States District Court
for the Southern District of Texas, Laredo Division,
Civil Action No. 529, styled in United States of America,
Plaintiff, vs. 85,237 acres of land, more or less, in

App.158a
Zapata County, Flumencio Munoz, et al, Defendants,
and reference is here made to above Civil Action No.
529 and proceedings thereunder for all purposes.
19. Notwithstanding any other provisions herein
contained, it is agreed that this lease may be continued
in force and effect by payment of shut-in gas royalties
for a period of not to exceed two (2) years from and
after date of the expiration of the primer), term as it
is agreed that such gas must be marketed within a
period of two (2) years from and after the date of the
expiration of the primary term.
20. It is mutually agreed that all benefits payable
under this lease, including bonus, delay rentals and
royalties, shall be paid and distributed as between
Lessors in proportions as follows: one-half (1/2) to
Felicidad Ramirez de Perez and Palmyra Minerals,
Ltd., and the remaining one-half (1/2) to other Lessors,
namely, Leonor V. Ramirez, Leon Oscar Ramirez,
Ileana Ramirez and Rodolfo C. Ramirez.
IN WITNESS WHEREOF, this instrument is
executed on the date first above written.
/s/ Felicidad Ramirez de Perez
/s/ Leonor V. Ramirez

App.159a
PALMYRA MINERALS, LTD.
By: /s/ Felicidad Ramirez de Perez
By: /s/ Gilberto Perez, Jr.
General Partners
/s/ Leonor Oscar Ramirez
/s/ Ileana Ramirez
/s/ Rodolfo C. Ramirez

App.160a
LETTER FROM MICHAEL P. ROSE
(JULY 1, 1997)

July 1, 1997
Mr. Rudy Ramirez
8941 Woodshore Drive
Dallas, Texas 75243
Re: L-267883/267838; The Interest of Leonor V.
Ramirez under the “Las Piedras Ranch” being
1058 acres out of the north part of porcion 21, A81 and Porcion 22, A-71, Zapata County, Texas
Dear Mr. Ramirez,
Recently, we have been discussing the division
of minerals and royalty under the captioned land
which you, Leon and Ileana inherited from your
parents. I believe under the Ramirez No. 1 and 3
wells you are being paid as if the three of you
inherited your mother’s interest equally (1/3 each).
This was the way Enron had the interests set up and
Conoco made no changes when we took over the
wells. However, when we examined title to the 373.22
acre tract for division order purposes for the Ramirez
No. 4 well, we discovered the actual instruments of
title to not appear to convey the interest of Leonor
1/3 to each child. Below is an explanation of the
instruments we have seen.

App.161a
1.) The Partition Deed dated January 15, 1975
established the ownership of the lands after your
Father’s death to be as follows:
1.

Leonor V. Ramirez 1/2

2.

Leon Oscar Ramirez 1/6

3.

Ileana Ramirez 1/6

4.

Rodolfo Ramirez 1/6

The Partition Deed only partitioned the surface
and conveyed the Las Piedras Ranch, 1058 acres 1/2
to Leon Ramirez and 1/2 to Ileana. It is important to
note the minerals were still owned as above.
2.) The Exchange Deed dated March 27, 1978
operated to exchange the ownership of the surface of
the Las Piedras Ranch with other lands to the end
that Leon and Leonor now owned the surface equally
1/2 to each. Again, it is important to note the ownership of the minerals were still owned as set out in 1,)
above.
3.) Last Will of Leonor V. Ramirez dated. October
20, 1987
At the time of Leonor’s death she owned a
1/2 interest in the surface of Las Piedras
Ranch and 1/4 of the minerals. (The Ramirez
family owns a 1/2 mineral interest in the
Las Piedras Ranch so Leonor owned 1/2 x
1/2 = 1/4)
Under paragraph VI of Leonor’s Will she
conveyed all of her right title and interest in
and to the “Las Piedras Ranch” to Lean Oscar
Ramirez during the term of his natural life
and upon his death to his surviving children.

App.162a
Under paragraph VII of Leonor’s Will she
conveyed the residue of her estate to her
children (Leon, Ileana and Rodolfo) in equal
shares, 1/3 each However, at this point
Leonor had already conveyed all of her right
title and interest in the Las Piedras Ranch
to Leon Oscar Ramirez Jr. in paragraph VI.
The end result of the instruments of record divide
the minerals as follows:
1.)

Leon Oscar Ramirez (1/2x1/6) + (1/2 x 1/2) = 1/3

2.) Ileana Ramirez 1/2 x 1/6 = 1/12
3.) Rodolfo Ramirez 1/2 x 1/6 = 1/12
In order to accomplish the division of interest
which you, your brother and your sister obviously
desire and to correct the title of record, I would
recommend a Stipulation of Interest and Cross Conveyance be executed by each of you. The Stipulation
would specifically describe the land and set forth the
interest claimed by each of you, that being 1/2 of 1/3
each.
Enclosed you will find a copy of the instruments
referenced above for your files. I have also enclosed a
Stipulation which will correct any question as to the
Ramirez mineral title in the Las Piedras Ranch. I
intend to send a copy of the Stipulation to Leon and
Ileana for their execution. If you agree with the Stipulation, please execute and return one copy to the
attention of the undersigned at your earliest
convenience.

 This is the interest conveyed under Leonor’s Will

App.163a
Thank you for your cooperation in this regard.
Sincerely
/s/ Michael P. Rose
Senior Land Advisor

App.164a
STIPULATION OF INTEREST OWNERSHIP
OF THE MINERAL ESTATE
(OCTOBER 31, 1988)
STATE: TEXAS
COUNTY: ZAPATA
PARTIES:
Leon Oscar Ramirez
Ileana Ramirez
Rodolfo Carlos Ramirez, aka
Rodolfo C. Ramirez
EFFECTIVE DATE: October 31, 1988
The undersigned (“Parties”) own interests in the
mineral estate in the following described lands located
in the county and state named above (the “Lands”) to
wit:
1058 acres of land more or less situated
partly in the North one-half of Porcion 21,
Abstract 81, and partly in Porcion 22,
Abstract 71, known as “Las Piedras Ranch”,
and described as being all of the land owned
and possessed by the above named owners
of the Estate of Leon J. Ramirez, Deceased,
in the North one-half of Porcion 21 and
partly in Porcion 22, Zapata County, Texas
Whereas a question has arisen among the Parties
as to each of their proportionate ownership of the
mineral estate in the Lands. It is the Parties desire
to declare, stipulate, acknowledge, and establish of
record each of the Party’s ownership of the mineral
estate in the Lands.

App.165a
For adequate consideration, the Parties acknowledge, agree, and declare that the mineral estate in
the lands is owned by the following Parties, and each
of the Parties owns the interest in the mineral estate
in the Lands set out opposite each Party’s name:
Leon Oscar Ramirez, Trustee

1/6

Ileana Ramirez

1/6

Rodolfo Carlos Ramirez aka
Rodolfo C. Ramirez, Trustee

1/6

This Stipulation shall be deemed to contain
words of grant and conveyance as necessary and
proper to transfer and vest the ownership of the
mineral estate in the Lands to each of the Party’s in
the amounts set out above.
This instrument may be executed in any number
of counterparts, each of which shall be considered an
original-for all purposes.
Executed this 6th day of July, 1997, but effective
as of the date first mentioned above.
/s/ Leon Oscar Ramirez
Trustee
/s/ Ileana Ramirez
/s/ Rodolfo C. Ramirez
aka Rodolfo C. Ramirez, Trustee

App.166a
RESPONDENTS’ BRIEF—RELEVANT EXCERPTS
[...]
. . . 534 S.W.3d at 502 (citation omitted). Rodolfo filed
a motion for panel rehearing on the construction of
the Will, which the court of appeals denied,
prompting Rodolfo and ConocoPhillips to petition
this Court for review.
SUMMARY OF ARGUMENT
The mineral and surface estates of the 7,016acre Ramirez property were severed in 1941, when
Leon Juan and Felicidad partitioned the surface estate
and granted one another equal-sized surface tracts
while expressly reserving equal undivided interests
in the entire 7,016 acres of underlying minerals.
While the surface estate was repeatedly partitioned
and conveyed over the next half-century, the mineral
estate was never partitioned and remained in the
family in undivided ownership shares.
As severed estates, the minerals and the surface
were as foreign and distinct from one another under
Texas law as if they had been separate and distinct
tracts of land. As such, any interest in those estates
must be conveyed separately. When the court of
appeals summarily read the phrase in Leonor’s Will,
“all of my right, title and interest” in Ranch Las
Piedras, to convey not just her interest in the surface
estate described, but also the long-severed minerals
beneath that estate, it ignored Texas law that separate
estates do not reunite by implication.
Leonor’s devise of a life estate in Las Piedras
Ranch to her son could only have also devised a life

App.167a
estate in the minerals beneath the surface if those
previously severed estates were somehow merged. As
a matter of law, however, Leonor could not, through
her will, have merged her 1/2 interest in Las Piedras
Ranch with that portion of her 1/4 interest in the
extended family’s long-severed, 7,016-acre mineral
estate that sat beneath Las Piedras Ranch.
This case presents the Court an opportunity to
correct the contrary conclusion of the court of appeals
and provide much-needed direction on the doctrine of
merger of estates. Although this Court and others
have recognized that the doctrine does not apply to
severed estates, it has been almost a century since
this Court offered thorough guidance on the transfer
of a severed estate and the application of the doctrine
of merger of estates.
Alternatively, even if there were a way under
Texas law for Leonor to have passed a portion of her
undivided mineral interest as well as all her surface
estate in her devise of Las Piedras Ranch, Leon Jr.’s
claims against Rodolfo in this case would nevertheless
be barred by the general release Leon Jr. signed in a
previous action against Rodolfo concerning the ownership of Las Piedras Ranch. Thus, at most, only the
action brought by Minerva’s guardian could remain.

App.168a
ARGUMENT
I.

“[A]ll of My Right, Title, and Interest in and to
Ranch Las Piedras” Cannot Include the Minerals
Beneath Las Piedras Because, as a Matter of
Law, the Surface and Mineral Estates Were Severed
in 1941 and Could Not Subsequently Have Merged.

As a matter of law, Leonor’s mineral interest
passed under the residuary clause in Section VII of
her Will, where she bequeathed “all the residue of
my . . . .
[...]

App.169a
LIST OF PETITIONS FOR CERTIORARI
BEFORE STOP THE BEACH
• Petition for Writ of Certiorari, T H Investments,
Inc. v. Kirby Inland Marine, LP, No. 08-270, 2008
WL 4055803 (U.S. filed Aug. 28, 2008), cert denied,
555 U.S. 1098 (Jan. 12, 2009) (mem).
• Petition for Writ of Certiorari, Boise Cascade Corp.
v. Oregon, No. 07-1612, 2008 WL 2555342 (U.S.
filed Jun 24, 2008), cert denied, 555 U.S. 828 (Oct.
6, 2008) (mem).
• Petition for Writ of Certiorari, Goeckel v. Glass, No.
05-764, 2005 WL 3438569 (U.S. filed Dec. 12, 2005),
cert denied, 546 U.S. 1174 (Feb. 21, 2006) (mem).
• Petition for Writ of Certiorari, Marine Forests
Society v. California Coastal Commission, No. 05373, 2008 WL 4893780 (U.S. filed Sept. 20, 2005),
cert denied, 546 U.S. 979 (Oct. 31, 2005) (mem).
• Petition for a Writ of Certiorari, McQueen v. South

Carolina Department of Health and Environmental
Control, No. 03-159, 2003 WL 22428668 (U.S. filed
July 30, 2003), cert denied, 540 U.S. 982 (Nov. 3,
2003) (mem).

• Petition for Writ of Certiorari, Echevarrieta v. City
of Rancho Palos Verdes, No. 01-2, 2001 WL
34116121 (U.S. filed June 19, 2001), cert denied,
534 U.S. 950 (Oct. 9, 2001) (mem).
• Petition for Writ of Certiorari, Phelps Dodge Corp.
v. U.S., No. 00-1464, 2001 WL 34125404 (U.S. filed
Mar. 19, 2001), cert denied, 533 U.S. 941 (June 25,
2001) (mem).

App.170a
• Petition for Writ of Certiorari, Chevy Chase Land
Co. v. U.S., No. 00-31, 2000 WL 33999807 (U.S.
filed July 3, 2000), cert denied, 531 U.S. 957 (Oct.
30, 2000) (mem).
• Petition for a Writ of Certiorari, Nansay Hawaii,
Inc. v. Public Access Shoreline Hawaii, No. 95-1159,
1996 WL 33467483 ((U.S. filed Jan. 18, 1996), cert
denied, 517 U.S. 1163 (Apr. 22, 1996) (mem).
• Petition for Writ or Certiorari, Eldridge v. Ezell,
No. 92-321, 1992 WL 12073556 (U.S. filed Aug. 17,
1992), cert denied, 506 U.S. 918 (Oct. 13, 1992)
(mem).
• Petition for Writ of Certiorari, Gore v. Louisiana,
No. 91-147, 1991 WL 11176804 (U.S. filed July 22,
1991), cert denied, 502 U.S. 863 (Oct. 7, 1991) (mem).
• Petition for Certiorari, Orion Corp. v. Washington,
No. 87-1575, 1988 WL 1094563 (U.S. filed Mar. 16,
1988), cert denied, 486 U.S. 1022 (May 23, 1988)
(mem).
• Petition for Writ or Certiorari, Tahoe Shorezone
Representation v. California, No. 86-1901, 1987
WL 954960 (U.S. filed May 29, 1987), cert denied,
484 U.S. 821 (Oct. 5, 1987) (mem).
• Petition for Writ or Certiorari, Fogerty v. California,
No. 86-1877, 1987 WL 954951 (U.S. filed May 23,
1987), cert denied, 484 U.S. 821 (Oct. 5, 1987) (mem).

App.171a
LIST OF PETITIONS FOR CERTIORARI
AFTER STOP THE BEACH
• Petition for Writ of Certiorari, 50 Murray Street
Acquisition LLC v. Kuzmich, No. 19-554, 2019 WL
5617977 (US filed October 24, 2019), cert. denied,
140 S.Ct. 904 (January 13, 2020) (mem).
• Petition for Writ of Certiorari, Hogen v. Hogen, No.
18-1440, 2019 WL 2153335 (US filed May 13, 2019),
cert. denied, 140 S.Ct. 119 (October 7, 2019) (mem).
• Petition for Writ of Certiorari, Wallace v. Wallace,
No. 18-1404, 2019 WL 2053640 (US filed May 6,
2019), cert. denied, 140 S.Ct. 100 (October 7, 2019)
(mem).
• Petition for Writ of Certiorari, Stuart v. Ryan, No.
18-85, 2018 WL 3520855 Petition for Writ of
Certiorari (US filed July 9, 2018), cert. denied, 139
S.Ct. 244 (Oct. 1, 2018) (mem).
• Petition for Writ of Certiorari, Nextel Commc'ns of
the Mid-Atlantic, Inc. v. Commonwealth of Pennsylvania, No. 17-1506, 2018 WL 2080201 (US filed
May 3, 2018) cert. denied, 138 S.Ct. 2635 (June 11,
2018) (mem).
• Petition for a Writ of Certiorari, Petro-Hunt L.L.C.
v. United States of America, No. 17-1090, 2018 WL
704347 (US filed February 1, 2018), cert. denied,
138 S.Ct. 1989 (May 14, 2018) (mem).
• Petition for Writ of Certiorari, Stanford v. United
States of America, No. 17-809, 2017 WL 6034219
(US filed December 1, 2017), cert. denied, 138 S.Ct.
1985 (May 14, 2018 (mem).

App.172a
• Petition for Writ of Certiorari, L.D. Drilling, Inc. v.
Northern Natural Gas Co., No. 17-786, 2017 WL
5952672 (US filed November 20, 2017), cert.
denied, 138 S.Ct. 747 (January 16, 2018) (mem).

